<html>
<title> - H.R. 4893, TO AMEND SECTION 20 OF THE INDIAN GAMING REGULATORY ACT TO RESTRICT OFF-RESERVATION GAMING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    H.R. 4893, TO AMEND SECTION 20
                         OF THE INDIAN GAMING
                      REGULATORY ACT TO RESTRICT
                        OFF-RESERVATION GAMING

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, April 5, 2006

                               __________

                           Serial No. 109-46

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-014                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 5, 2006.........................     1

Statement of Members:
    Cole, Hon. Tom, a Representative in Congress from the State 
      of Oklahoma, Prepared statement of.........................    28
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     3
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Arnold, Donald, Chairman, Scotts Valley Band of Pomo Indians.    11
        Prepared statement of....................................    12
        Response to questions submitted for the record...........    78
    Davis-Van Huss, Jacquie, Tribal Secretary, North Fork 
      Rancheria of Mono Indians of California, Oral statement of.    15
    King, Randy, Chairman, Board of Trustees, Shinnecock Indian 
      Nation.....................................................    61
        Prepared statement of....................................    62
    Osmond, Hon. Jo Ann, State Representative, 61st District, 
      State of Illinois..........................................    45
        Prepared statement of....................................    47
    Shagonaby, John, Treasurer, Match-E-Be-Nash-She-Wish Band of 
      Pottawatomi Indians, Gun Lake Tribe........................     3
        Prepared statement of....................................     5
    Sheen, Hon. Fulton, Michigan State Representative, 
      Representing 23 is Enough!.................................    38
        Prepared statement of....................................    40
    Worthley, Steven, Tulare County Supervisor, and Member, 
      Indian Gaming Working Group, California State Association 
      of Counties................................................    49
        Prepared statement of....................................    51

Additional materials supplied:
    Conway, Connie, CSAC President, California State Association 
      of Counties, Letter submitted for the record...............    73
    Cowlitz Indian Tribe of Washington, Statement submitted for 
      the record.................................................    74
    Fink, Elaine, Tribal Chairperson, North Fork Rancheria of 
      Mono Indians of California, Statement submitted for the 
      record.....................................................    17
    Ho-Chunk Nation Legislature, Statement submitted for the 
      record.....................................................    77


  LEGISLATIVE HEARING ON H.R. 4893, TO AMEND SECTION 20 OF THE INDIAN 
       GAMING REGULATORY ACT TO RESTRICT OFF-RESERVATION GAMING.

                              ----------                              


                        Wednesday, April 5, 2006

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 11:04 a.m. in Room 
1324, Longworth House Office Building. Hon. Richard W. Pombo 
[Chairman of the Committee] presiding.
    Present: Representatives Pombo, Kildee, Cardoza, 
Faleomavaega, Costa, Pallone, Christensen, McMorris, Kind, 
Inslee, Gibbons, Cole, and Dent.

 STATEMENT OF THE HONORABLE RICHARD W. POMBO, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order.
    The Committee is meeting today to hear testimony on H.R. 
4893, a bill to amend the Indian Gaming Regulatory Act, to 
restrict off-reservation gaming. Under Rule 4[g] of the 
Committee Rules, any oral opening statements at hearings are 
limited to the Chairman and the Ranking Minority Member. This 
will allow us to hear from our witnesses sooner, and help 
Members keep to their schedule. Therefore, if other Members 
have statements, they can be included in the hearing record 
under unanimous consent.
    At this time I ask unanimous consent to allow Mr. Cole of 
Oklahoma and Mr. Dent of Pennsylvania to participate in the 
hearing today. Without objection, it is so ordered.
    Today, the Committee Members will receive a second round of 
testimony on H.R. 4893, a bill to restrict gaming on certain 
kinds of newly acquired lands for Indian tribes. By now, many 
are familiar with my reasons for sponsoring this bill.
    H.R. 4893 establishes a new set of rules for tribes that 
want to acquire gaming rights on newly acquired trust lands by 
invoking an exception under Section 20[b] of the Indian Gaming 
Regulatory Act.
    Since the time H.R. 4893 was introduced, a number of tribes 
seeking Section 20(b) exceptions have expressed great concern. 
Some with pending applications have spent considerable sums of 
money and worked for a long time under the existing process to 
acquire their gaming rights. They argue the bill's effective 
date changes a set of rules just as they are nearing the finish 
line, forcing them to start over or even lose an opportunity to 
have gaming altogether.
    Others argue that unique historical, legal, or geographic 
circumstances warrant special exceptions for them, and some 
will argue that all they seek is a more favorable market. For 
the sake of simplicity, I will refer to the tribes in this 
category as tribes who seek a grandfathering amendment.
    On the other side, some tribes, as well as local elected 
officials and private citizens groups, say the bill should not 
include any kind of grandfathering language. In their view, 
IGRA is not an entitlement to riches. It does not contain a 
guarantee that every tribe in the country can and will prosper 
from gaming. They say under the current law many local 
communities do not have a strong enough voice in the process of 
considering off-reservation casinos, and to begin carving out 
exceptions is to defeat the purpose of passing H.R. 4893.
    Finally, a number of those submitting comments have views 
that fall somewhere in the middle. Continuing a policy of 
fairness and allowing all sides to have a say in the crafting 
of this legislation, I am hopeful today that my colleagues on 
the Committee will hear from witnesses representing those 
varying positions on what is clearly a complex set of issues.
    I would now like to recognize Mr. Kildee for his opening 
statement.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    Today, the Committee Members will receive a second round of 
testimony on H.R. 4893, a bill to restrict gaming on certain kinds of 
newly acquired lands for Indian tribes. By now, many are familiar with 
my reasons for sponsoring the bill.
    H.R. 4893 establishes a new set of rules for tribes that want to 
acquire gaming rights on newly acquired trust lands by invoking an 
exception under Section 20(b) of the Indian Gaming Regulatory Act.
    Since the time H.R. 4893 was introduced, a number of tribes seeking 
a Section 20(b) exception have expressed great concern. Some with 
pending applications have spent considerable sums of money and worked 
for a long time under an existing process to acquire their gaming 
rights. They argue the bill's effective date changes the set of rules 
just as they're nearing the finish line, forcing them to start over or 
even lose an opportunity to have gaming altogether. Others argue that 
unique historical, legal, or geographic circumstances warrant special 
exceptions for them. And some will argue that all they seek is a more 
favorable market.
    For the sake of simplicity, I will refer to tribes in this category 
as tribes who seek a ``grandfathering'' amendment.
    On the other side, some tribes--as well as local elected officials 
and private citizens groups--say the bill should not include any kind 
of ``grandfathering'' language. In their view, IGRA is not an 
entitlement to riches. It does not contain a guarantee that every tribe 
in the country can and will prosper from gaming. They say that under 
current law, many local communities do not have a strong enough voice 
in the process of considering off-reservation casinos, and to begin 
carving out exceptions is to defeat the purpose of passing H.R. 4893.
    Finally, a number of those submitting comments have views that fall 
somewhere in the middle.
    Continuing a policy of fairness and allowing all sides to have a 
say in the crafting of this legislation, I am hopeful today that my 
colleagues on the Committee will hear from witnesses representing these 
varying positions on what is clearly a complex set of issues.
                                 ______
                                 

STATEMENT OF THE HONORABLE DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Chairman, while I admire your effort to take on the 
complicated and controversial issue of off-reservation gaming, 
I have serious reservations about the bill, but will continue 
to work with you on this issue, and you have shown nothing but 
goodwill from the very beginning as you approach this issue.
    Fundamental concerns I have about this bill relate to the 
numerous requirements that this country's poorest tribes, the 
landless tribes, would have to meet in order to obtain trust 
land in which to conduct gaming; second, the veto authority 
granted to state legislatures and involvement of county 
government; and third, the requirement that an applicant tribe 
would have to foot the bill to pay for a local advisory 
referendum.
    While I remain reluctant to open up IGRA to attack by our 
colleagues who want to harm Indian gaming, I would like to work 
with you to improve the bill so that it supports tribal self-
determination rather than hinder it. I look forward to hearing 
from the witnesses today, and again, Mr. Chairman, I thank you 
for this hearing and for the process which you are using.
    I yield back the balance of my time.
    The Chairman. Thank you, Mr. Kildee.
    I would now like to call up our first panel of witnesses. 
They are: John Shagonaby, Donald Arnold, and Jacquie Davis-Van 
Huss. They represent the Gun Lake Tribe, the Scotts Valley Band 
of Pomo Indians, and the North Fork Rancheria, respectively.
    Let me take this time to remind all of today's witnesses 
that under our Committee Rules oral statements are limited to 
five minutes. Your entire written testimony will appear in the 
record.
    Mr. Shagonaby, we will begin with you.

  STATEMENT OF JOHN SHAGONABY, TREASURER, MATCH-E-BE-NASH-SHE-
        WISH BAND OF POTTAWATOMI INDIANS, GUN LAKE TRIBE

    Mr. Shagonaby. Good morning, Chairman Pombo, Ranking Member 
Rahall, and Members of the Committee.
    My name is John Shagonaby. I am a tribal counsel member and 
Treasurer with the Match-E-Be-Nash-She-Wish Band of Pottawatomi 
Indians located in southwestern Michigan. Most people know us 
as the Gun Lake Tribe.
    We appreciate the Chairman's invitation to appear today. We 
are a federally recognized tribe but currently have no land 
base. Although we are landless, we have finished the regulatory 
process. The Department of Interior, in May of 2005, after four 
years issued a final determination to acquire 146 acres of land 
in trust as our initial reservation upon which to build our 
gaming project.
    Mr. Chairman, we would have those 146 acres as our initial 
reservation in trust today but for a frivolous lawsuit that is 
holding it up.
    When Congress enacted Section 20 of IGRA, it clearly stated 
that newly acknowledged tribes should have the opportunity to 
realize congressional goals of IGRA, that is, utilize gaming as 
a means of economic development and self-sufficiency. We are 
concerned that some provisions of H.R. 4893 place our tribe's 
final determination to take land in trust at risk, and it will 
forever deny the Gun Lake Tribe and what Congress clearly 
intended in IGRA, the opportunity for economic development 
through gaming.
    Let me turn to the legislation by recognizing the 
straightforward and transparent process in which this Committee 
has proceeded over the past year. We appreciate the hard work 
of the Chairman and the Committee in addressing the issues of 
off-reservation gaming, reservation shopping that is going to 
be raised by some witnesses.
    Let me be clear, as a landless tribe we are not going off-
reservation, and are not reservation shopping. We are merely 
seeking to have land placed in trust as our initial reservation 
on our historic Pottawatomi homeland.
    Our written statement offers two recommendations for 
amendments. This morning, however, I will focus on one--the 
absolute need for a grandfather clause to exempt certain tribes 
from H.R. 4893. Our tribe presents a textbook example of on why 
the grandfather clause is not only fundamentally fair, but 
warranted.
    After achieving Federal recognition in 1999 through the 
Federal acknowledgment process, which is very difficult to get 
through, we decided to pursue gaming as a form of economic 
development. In 2001, we applied to the Department of Interior 
for an initial reservation, and we stated on our application we 
intended to operate gaming on this reservation just like the 11 
other federally recognized tribes in Michigan.
    We identified a site within our original homelands and only 
three miles from our ancient burial grounds. We did not engage 
in reservation shopping. We played by the rules. We selected a 
parcel of land that was already zoned by the local government 
for commercial development, an abandoned manufacturing 
facility. We entered into cooperative agreements with local 
governments for police, fire, and emergency services.
    As a part of the fee-to-trust application submitted in 
2001, the tribe and the BIA conducted an environmental 
assessment to assess the potential impacts of our proposed 
project which is required by the National Environmental Policy 
Act.
    We went through an extensive and atypically long 75-day 
public comment as compared to the Department's 30-day practice. 
We went above and beyond what the rules required. Many Michigan 
citizens and local government officials submitted comments to 
the BIA. We enjoy overwhelming support from local governments, 
chambers of commerce, and a grass roots group consisting of 
over 10,000 citizens of Michigan. There is not one single unit 
of government that opposes this proposed casino. All support 
comes as no surprise since the Gun Lake Casino will bring many 
high-paying jobs to an area that badly needs it.
    After an exhaustive review of the evidence and the 
extensive public comment period, the BIA concluded that our 
proposed casino would have no significant impact. On May 13 of 
2005, nearly four years after we started the journey, the BIA 
issued its final determination to acquire land in trust for 
gaming purposes.
    As I testified a moment ago, our land would be in trust 
today but for a frivolous lawsuit filed last June against the 
Department of Interior seeking to block this project. The 
Department of Justice is defending litigation against the 
plaintiff, which is anti-gaming group in Michigan. They are not 
a local government.
    The Gun Lake Tribe has intervened to support the Department 
of Interior's decision and Wayland Township, the local 
government with jurisdiction over the land has joined the 
lawsuit along with groups to support the tribe and the BIA.
    Now, let me be frank with the Committee. As we read H.R. 
4893, the Gun Lake Tribe may have more hurtles to clear if the 
bill is enacted prior to the final order in our litigation. It 
is our understanding that without clarification by the 
Committee we could be pulled back into the regulatory process 
and meet many new requirements of the bill. This scenario will 
lead to substantial new delays and an incredible expense for 
the tribe.
    Most importantly, further delay would impede our tribe's 
hopes for the future and our ability to provide some badly 
needed services to our members. Therefore, a provision that 
would exempt tribes that have pending trust applications must 
be included, and especially for my tribe which has already 
received a decision from the administration to acquire land for 
our initial reservation.
    Let me leave you with this final thought. We know that 
Congress, when it enacted IGRA, carefully considered the unique 
history of tribal-Federal relationship. We hope it would do the 
same when it considers the special circumstances of tribes like 
mine who have spent many years playing by the rules. Please do 
not change the rules for us at the eleventh hour.
    It is our honor and privilege to testify before the 
Committee today. I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Shagonaby follows:]

                Statement of John Shagonaby, Treasurer, 
  Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians, Gun Lake Tribe

    Chairman Pombo, Ranking Member Rahall and respected Members of the 
Committee, thank you for the opportunity to testify today regarding 
H.R. 4893. My name is John Shagonaby and I am a tribal council member 
and Treasurer of the Match-E-Be-Nash-She-Wish Band of the Pottawatomi 
Indians, also known as the Gun Lake Tribe. Our Tribal homeland has 
always been in Western Michigan. We are a landless tribe, but have 
received a final determination from the United States Department of the 
Interior to place 146 acres of land in to trust in Allegan County, 
Michigan for the benefit of the Tribe. A private organization has 
challenged Secretary's decision in federal court and the United States 
Department of Justice is defending the Department's decision to acquire 
the lands.
    First, let me express my appreciation to the Members of the 
Committee, and specifically the Chairman, for the straight-forward, 
cooperative and open process in which this Committee has proceeded over 
the past year regarding potential amendments to 25 U.S.C. Sec. 2719 of 
the Indian Gaming Regulatory Act. Indian Country has had significant 
opportunity to work with the Committee on the review of this 
legislation through two draft bills, many consultations at various 
Indian association meetings across the country and several oversight 
hearings. Our Tribe, in particular, has enjoyed a solid working 
relationship with many of the Committee Members and staff, including 
Representative Dale Kildee (D-MI), who has always maintained an open 
door to our Tribe. We recognize the Committee's hard work on addressing 
concerns with the so-called reservation shopping and off-reservation 
issues and understand the goals of H.R. 4893. In the spirit of 
cooperation, we would like to offer two recommendations for amendments 
and share our general concerns about certain provisions of the bill.

H.R. 4893 IMPOSES NEW REQUIREMENTS ON LANDLESS TRIBES
    H.R. 4893 expressly prohibits newly recognized landless tribes from 
acquiring any trust land on which those tribes may conduct gaming 
unless the tribe can meet the following new requirements: First, the 
Secretary of the Interior must determine that the proposed gaming is 
not detrimental to the surrounding community and nearby Indian tribes. 
Next, this determination must be approved by the Governor, the State 
Legislature and any other Indian tribes within a 75 mile radius. 
Finally, the petitioning Tribe must pay for a local ``advisory'' 
referendum and enter into a memorandum of understanding with the county 
or parish where the land is located. These additional requirements pose 
new and we believe unintended challenges to those landless tribes 
seeking to reclaim their homelands as an initial reservation. While our 
overall preference would be to exclude landless tribes altogether from 
these requirements, we offer the following comments for the Committee's 
consideration.

PROPOSED AMENDMENT: INCLUDE A GRANDFATHER CLAUSE
    If the proposed legislation moves forward, our primary 
recommendation is the inclusion of a so-called ``grandfather clause'' 
to exempt tribes like ours that have completed or nearly completed the 
federal regulatory process. As the Committee is aware, many Indian 
tribes across the country have made tremendous investments into their 
gaming projects--both financially and in terms of the time and effort 
of tribal members. This should not be overlooked by Congress.
    In fact, one need only review the five year history of our land-to-
trust application to appreciate the need for such a grandfather clause:
    At every step of the process we have followed the rules. After 
finally gaining federal acknowledgment in 1999, our Tribal Council 
identified suitable land for economic development that is only three 
miles from our ancient tribal burial grounds. The land has an existing 
industrial warehouse on it and is zoned light industrial. It was always 
our intent to use this land and the building to develop a casino. The 
Tribe submitted its fee-to-trust application pursuant to 25 C.F.R. 
Sec. 151 et seq., to the Minneapolis Area Office of the Bureau of 
Indian Affairs on August 12, 2001. As part of the fee-to-trust 
application to acquire land into trust for gaming purposes, the Tribe 
and the Bureau of Indian Affairs (BIA) conducted an Environmental 
Assessment (EA) in satisfaction of the requirements of the National 
Environmental Policy Act (NEPA). Our Tribe is highly sensitive to our 
natural environment. This is why the Tribe made every effort to be 
extraordinarily cooperative and responsive to the Bureau of Indian 
Affairs during the agency's determination of whether our casino project 
might pose any significant impact on the environment of West Michigan.
    As the Committee is aware, federal regulations require that our 
Tribe comply with NEPA in order to have land acquired in trust for our 
benefit. Compliance with NEPA is achieved if an EA of the proposed 
project results in a Finding of No Significant Impact, to the 
environment by the BIA ``often referred to as a ``FONSI''. NEPA 
requires, however, that if the BIA finds that a project has a 
significant impact on the environment, an Environmental Impact 
Statement must written by the agency. Over a three year period, 
beginning in mid-2002, the Tribe worked closely with the BIA Regional 
Office's environmental resources experts to produce an EA. The Tribe 
and its consultants prepared several revisions of the EA following 
comments from both the BIA and the public.
    During an extensive and atypically long 75-day public comment 
period (November 2002--February 2003), Michigan citizens and local 
government officials submitted over 300 letters to the BIA containing 
project comments and concerns. Each public comment, as reflected in the 
administrative record, was painstakingly reviewed by the BIA. In the 
end the EA examined everything from the project's effects on the water 
supply, traffic and air quality to the effects on animals in the 
surrounding area. In addition, since such great scrutiny is placed on 
casino projects, the EA examined the effects of secondary development 
resulting from the casino and its operations and examined potential 
alternatives to this project.
    After an exhaustive review of the evidence and the extensive public 
comment, the BIA concluded that a FONSI was appropriate, and with this 
finding of no significant impact, an EIS was not required. The BIA 
issued the FONSI on February 27, 2004. More than a year later, on May 
13, 2005, the BIA published in the Federal Register its final 
determination to acquire the land in trust for the benefit of the 
Tribe.
    Mr. Chairman, our land would be in trust today but for a lawsuit 
filed June 13, 2005 against the Department of the Interior seeking, 
among other things, to enjoin the Secretary from moving forward with 
her decision to acquire land in trust for our Tribe. As I mentioned 
above, the Department of Justice is defending that litigation. The 
Plaintiff in this action is a private anti-gaming group from West 
Michigan. In fact, the attorneys representing the plaintiffs 
challenging the Secretary's determination are the same attorneys that 
lost a challenge to the previously landless Pokagon Tribe in Michigan 
on nearly identical causes of action. Today, the Pokagon lands are now 
in trust. Our case is nearing completion and we are confident that we 
will also prevail.
    If H.R. 4893 is enacted prior to a final order in our litigation, 
it is our understanding that without clarification the Gun Lake Tribe 
could be pulled back into the regulatory process and required to meet 
many of these new criteria. This scenario would lead to substantial 
additional delays and incredible expense for the Tribe. Most 
importantly, such further delay would seriously impede our Tribe's 
hopes for the future and our ability to start to provide some of the 
services so badly needed by our tribal members. Therefore, we 
respectfully request that a provision exempting tribes like ours from 
this new legislation be included in H.R. 4893.

PROPOSED AMENDMENT: ALLOW FOR ALTERNATIVE COMPACTING
    As you know before a Tribe can conduct Class III gaming, it needs a 
gaming compact with the State--for which the state is required to 
negotiate in good faith. Eleven federally recognized Tribes in Michigan 
have gaming compacts, some of which were negotiated by former Governor 
John Engler and subsequently approved by the Michigan Legislature.
    The United States Supreme Court in Seminole Tribe of Florida v. 
Florida, 517 U.S. 44 (1996) ended a tribe's right to bring a cause of 
action in federal court against a state that refused to bargain in good 
faith for a tribal state gaming compact--unless that state waives its 
sovereign immunity. There is currently no remedy for an Indian tribe to 
sign a compact with a state refusing to negotiate in good faith. Our 
recommendation would be the authorization of the Department of the 
Interior to issue alternative compacts when a state Governor or state 
legislature refuses to negotiate in good faith a compact with an Indian 
tribe. This amendment would promote intergovernmental cooperation 
between states and tribes and result in the furtherance of a 
cooperative relationship between the states and tribes. Specifically, 
such an amendment would codify by statute the authority of the 
Secretary to issue the Class III gaming procedures of 25 C.F.R. Part 
291 et seq.

GENERAL CONCERN WITH H.R. 4893: THE ADVISORY REFERENDUM IMPOSES A 
        DIFFICULT CHALLENGE
    We are concerned that the ``advisory referendum'' requirement 
creates a significant impediment to Indian tribes. First, H.R. 4893 
does not impose deadlines requirements on the county officials to act 
and there are no federal or state regulations in place for such an 
event. Also there needs to be clarification of whether the election 
could be called as a special election or held in regular course during 
the Primary or General elections.
    Next, the Committee may want to consider exempting the tribe from 
state laws addressing the qualification of a referendum for the ballot. 
Most states require the collection of hundreds of signatures and 
payment of a filing fee. Another related concern is that not all states 
allow local referendum and, as such, those local officials may be ill-
equipped to hold and manage a ballot initiative. Third, a tribe would 
need to reach a financial arrangement with the county on the cost of 
the election for its particular referendum. Perhaps the Committee can 
offer guidance as to what costs would or could be included or limited 
by this arrangement.
    Fourth, the element of campaign costs associated with a referendum 
should be carefully weighed by the Committee. A tribe would need to 
hire public and political relations experts to campaign for its side of 
the referendum. This creates a new significant financial investment for 
the tribe. Fifth, there is a general concern that Congress does not 
possess the constitutional authority to compel a local government to 
act. Finally, the results of this election, as stated in H.R. 4893, are 
only advisory and have no impact on the mitigation of public concerns 
about proposed gaming projects. In other words, is it the intent of the 
Committee to require that tribes and local governments conduct what is 
essentially a very expensive public opinion poll?

GENERAL CONCERN WITH H.R. 4893: PROPOSED TWO-PART DETERMINATION IS 
        UNFAIR TO INITIAL RESERVATION TRIBES
    This new two part determination in the initial reservation 
exception appears contrary to basic elements of fundamental fairness. 
Such a determination would create an uneven playing field and further 
disadvantage the most disadvantaged tribes in America. Landless 
restored and newly acknowledged tribes have been without land and the 
benefits of federal recognition for significant periods of time. These 
tribes are forced to carve out small pieces of their original homeland 
from local jurisdictions that typically are not eager to lose land from 
their tax rolls and regulatory authority. Indeed, the very reason IGRA 
contains exceptions for the initial reservations of a tribe is because 
Congress did not want to penalize those tribes that were not yet 
recognized by October 17, 1988.

GENERAL CONCERN WITH H.R. 4893: INTERFERENCE BETWEEN TRIBAL SOVEREIGNS
    H.R. 4893 requires the concurrence of other Indian tribes within 
seventy-five (75) miles of the applicant project site to concur with 
the proposed acquisition for gaming purposes. Such a provision, for the 
first time under Congress' plenary authority, enables neighboring 
Indian tribes to interfere with another tribal sovereign's internal 
decision-making and self-determination. Allowing and requiring 
concurrence by neighboring tribal governments is tantamount to economic 
warfare between neighboring tribal governments.
    In fact, the application and effect of this provision will be 
uneven in various regions in the nation and undermine economic 
development. For example, California tribal projects under this 
provision may be required to seek upwards of twenty-five (25) 
concurrences from neighboring tribes while Tribe in the mid-west might 
have merely one (1) or no tribes required to concur because shear 
geographic distance gives these tribes a free pass. In practical terms 
such a concurrence is a death-blow to a gaming project. Why would those 
other tribes agree to allow a competing casino? Their market shares 
will inevitably be cut. Landless tribes, like ours, are recognized by 
the federal government with the same privileges and immunities as other 
tribes with land prior to October 17, 1988. This provision in its 
present form makes landless tribes a different class of tribes because 
is denies us the ability to have an opportunity to use IGRA under the 
same rules as everyone else.
    In short such a provision undermines the spirit of IGRA: economic 
development through self-determination.

GUN LAKE MEETS THE PRIMARY GEOGRAPHIC, SOCIAL, HISTORICAL, AND TEMPORAL 
        NEXUS TEST
    The legislation also creates a new test for tribes seeking their 
initial reservation. Under H.R. 4893, the Secretary is required to 
determine that the tribe has its primary geographic, social, historical 
and temporal nexus to land. Although we are uncertain how these terms 
may ultimately be defined in light of case law and Departmental 
practices, we firmly believe that Gun Lake Tribe has such a nexus to 
the land.
    In fact, we have long and established ties to an area that is now 
Western Michigan. The Gun Lake Tribe descends primarily from the 
Pottawatomi Band, led by Chief Match-E-Be-Nash-She-Wish. Prior to 
European contact, the Gun Lake Tribe used and occupied lands in the 
Great Lakes, in what is now known as present-day Michigan Lower 
Peninsula. This is where we are today. In the late 1700s, the Gun Lake 
Tribe lived under the direction of Chief Match-e-be-nash-she-wish at a 
village at Kalamazoo, which we called ``Kekamazoo,'' and which is 
located near where Michigan Highway 43 crosses the Kalamazoo River.
    In 1821, the Michigan Indian Tribes and the United States entered 
into the 1821 Chicago Treaty, under which the tribes ceded all Michigan 
land south of the Grand River to the United States. Match-e-be-nash-
she-wish signed this treaty on behalf of the Gun Lake Tribe, and as a 
realization from stipulations from the 1795 Treaty, he and his band 
were provided a 3-mile square of land at Kalamazoo. The northeast 
corner of the reservation was a short distance northeast of present day 
Michigan Avenue Bridge which crosses the Kalamazoo River as part of 
Michigan Highway 43. Today, Western Michigan University's main campus 
is located approximately in the center of the 3 square mile area which 
was known as the Match-E-Be-Nash-She-Wish Reservation.
    Despite previous treaties between the United States and the 
Michigan tribes, and despite the huge amounts of land ceded, pressure 
continued on the tribe to cede more land. In 1827, Match-e-be-nash-she-
wish agreed to cede his small reservation at Kalamazoo for an equal 
size land base adjacent to the Nottawaseppi Reservation near Mendon. 
However, the Tribe was never paid for the land cession and they did not 
move to this location. Before the land could be surveyed and provided 
to Match-e-be-nash-she-wish and his Tribe, all the major chiefs in 
southwest Michigan except Match-e-be-nash-she-wish signed the 1833 
Chicago Treaty, ceding their land rights to the United States. To avoid 
a forced removal to Kansas as a ``hostile'' Band, Match-e-be-nash-she-
wish moved the Tribe north, first to Cooper, then Plainwell, then 
Martin, and finally to Bradley in 1839. Tribal members maintained a 
connection with the Kalamazoo area into the 20th century, as residents 
of the Bradley settlement would collectively move south to the 
Kalamazoo River during the summer months to camp, fish, and socialize. 
The United States never fulfilled its treaty obligation to make payment 
for the Gun Lake Tribe's Kalamazoo land cession.
    In 1839 in Bradley, Allegan County, the Tribe placed itself under 
the protection of an Episcopalian Mission while the Tribe occupied what 
was known as the Griswold Colony, or Bradley settlement. Indian 
colonies like the Griswold Colony were established pursuant to the 1819 
Civilization Act, which allowed five participating denominations to 
establish trust agreements, in which the missionary societies would 
hold land in trust for the Indians, build churches and schools, clear 
and fence fields, teach farming techniques, and make blacksmiths and 
mills available to the tribes.
    Funding for the Griswold Colony had been set by treaty for 20 
years. In 1855, the assistance provided by the treaty came to an end 
and a new treaty was made with the Tribe whereby they were granted 
outright ownership of lands in Oceana County near Pentwater, Michigan. 
The majority of the Griswold Indians took advantage of the provisions 
of the new treaty and moved northward, while a few families stayed 
behind. Within 10 years, however, most of the Griswold Indians had lost 
their lands in Oceana County, and many returned to the mission grounds, 
which had not been disposed of, despite the fact that the work there 
had come to an end. The Indians lost their lands in Oceana County not 
to taxes, but because the patents to the lands were never delivered to 
those that held land certificates, and thus the land selection process 
in Oceana County was never legally completed by the United States 
government.
    When the land patents were not delivered, the Gun Lake tribal 
members returned to Allegan County, to the 360 acre reservation which 
was still in trust with Bishop McCoskry. However, during the period 
when some members lived in Oceana, the reservation members that 
remained behind refused to pay Allegan county taxes on the reservation 
lands, based on treaty rights. Tribal members returning from Oceana 
County met with court action by Allegan County and the reservation land 
was put up for sale for back taxes. Within a few years, practically all 
of the Tribal members had lost their land to non-Indians for failure to 
pay their taxes.
    In 1890, pursuant to federal law allowing the ``Pottawatomi Indians 
of Michigan and Indiana'' to receive a payment from the United States 
for past annuities, the Pokagon Band and Nottawaseppi Pottawatomi filed 
cases in federal court. However, only the Pokagon Band was paid, and 
not the Allegan County Pottawatomies, our Tribe. In 1899, the Supreme 
Court ruled that the Allegan County Indians were also eligible to share 
in the judgment. The Taggart Roll was developed to establish the 
additional parties to be paid, and it contains 268 Pottawatomi Indian 
names, many of whom are descendants of Match-E-Be-Nash-She-Wish's Band. 
The Bradley Indian community used the funds to expand and acquire land 
in the area.
    The Tribe had unambiguous previous Federal acknowledgment, which is 
demonstrated by treaties extending at least through the 1855 Treaty of 
Detroit with the Ottawa and Chippewa Indians of Michigan, to which the 
Tribe's chief was a signatory, through the 1870 date at which annuity 
payments under prior treaties were commuted. There was never an express 
congressional legislation terminating the Tribe; the Tribe was simply 
passed over for a Treaty before treaty making ended in 1871
    Over one hundred years later, in 1992, the Gun Lake Tribe 
petitioned the Bureau of Indian Affairs for acknowledgment. In August 
of 1999, the Tribe was acknowledged as a federally recognized Indian 
Tribe, re-establishing their government-to-government relationship with 
the United States. Since restoration as a federally recognized tribe, 
the Tribe has identified a site in Allegan County within the Wayland 
Township as a proposed site to place in trust for the benefit of its 
members. In fact, most of the Tribal members currently reside in the 
Allegan area. The Tribe chose to remain in Allegan County because it is 
part of the Tribe's aboriginal lands and the land on which the Tribe 
has lived since 1839.
    It is also important to highlight that on June 25, 2003, the Tribe 
received a Department of the Interior Solicitor Opinion that 
acknowledged Gun Lake Tribe's historical nexus to proposed land 
acquisition site and determined that land acquired in trust for the 
land would be proclaimed the Tribe's initial reservation. The opinion 
concluded that the Tribe could conduct gaming activities on the land 
under the ``initial reservation'' exception in Section 20 of the Indian 
Gaming Regulatory Act.

THE GUN LAKE PROJECT IS WIDELY SUPPORTED
    As Senate Committee on Indian Affairs Chairman, Senator John McCain 
(R-AZ) observed during the May 18, 2005 committee hearing on trust 
lands, the Gun Lake Tribal project has received ``a pretty impressive 
display of local support.'' This is quite true, as part of the public 
comment period for the Environmental Assessment, the Bureau of Indian 
Affairs received letters supporting the Tribe's proposed land 
acquisition and development from the following groups/individuals:
    <bullet>  Wayland Township
    <bullet>  International Brotherhood of Electrical Workers
    <bullet>  Michigan House of Representatives
    <bullet>  City of Wayland
    <bullet>  Allegan Public Schools
    <bullet>  Barry County Economic Development Center
    <bullet>  Gun Lake Area Chamber of Commerce
    <bullet>  Allegan County Health Department
    <bullet>  Wayland Area Chamber of Commerce
    <bullet>  Plumbers/Pipe Fitters Union
    <bullet>  Wayland Union Schools
    <bullet>  Dorr Township
    <bullet>  Barry County Area Chamber of Commerce
    <bullet>  Allegan County Board of Commissioners
    <bullet>  Wayland City Police
    <bullet>  Deputy Sheriff's Association of Michigan
    <bullet>  Michigan House Democratic Leader Buzz Thomas
    <bullet>  Michigan State Majority Floor Leader Randy Richardville
    Unfortunately, there are a small handful of detractors such as 
MichGo and 23 is Enough!--a witness testifying in the second panel 
today. We understand that these two organizations are led and funded by 
a small collection of businessmen who operate their companies 
regionally. We also believe that 23 is Enough! has not opposed any 
other gaming projects in Michigan aside from the Gun Lake project--not 
even the commercial gaming operations recently opened in Detroit. This 
group seems solely focused on our Tribal project.
    Furthermore, none of this group's leaders submitted comments during 
the lengthy environmental review conducted by the Bureau of Indian 
Affairs. This raises a legitimate question of whether this group has 
gathered to oppose Indian gaming in the State or to oppose what 
promises to be a significant local competitor for the job base in 
Western Michigan. After all, the Gun Lake Casino is expected to bring 
4,300 new jobs to the area, as well as local supplier purchases, local 
and state revenue sharing, a proven recreational attraction, and other 
economic development to the depressed area.
    As a final thought, we know that Congress, when it enacted IGRA, 
carefully considered the unique history of tribal-federal relationship 
and we hope it will do so when it considers the special circumstances 
of landless tribes affected by this legislation. It is an honor and 
privilege to present testimony to Committee today and I am happy to 
answer any questions you have of me.

[GRAPHIC] [TIFF OMITTED] T7014.001

                                 ______
                                 
    The Chairman. Thank you.
    Mr. Arnold.

             STATEMENT OF DONALD ARNOLD, CHAIRMAN, 
               SCOTTS VALLEY BAND OF POMO INDIANS

    Mr. Arnold. Good morning, Honorable Chairman Pombo, and 
Members of the House Resources Committee.
    My name is Don Arnold, Chairman of Scotts Valley Band of 
Pomo Indians. Also with me today is our Vice-Chairman, Crista 
Ray, and also Dore Bietz of the Indian lands consultant.
    As a small landless tribe in California, we have an 
application in with the Department of Interior to place in 
trust restored land for gaming purposes and economic 
development.
    The tribe has expended a considerable amount of time and 
resources toward this project. We were one of 41 tribes that 
California terminated pursuant to the Rancheria act of 1958. 
Termination means we lost our property rights.
    During the '60s and the '70s, the Federal government then 
implemented the relocation, relocating Indians to the Bay Area. 
The majority over the Scotts Valley Band of Pomo Indians 
relocated to the Bay Area. I, myself, was relocated to San 
Francisco.
    Twenty-seven years later, in 1992, Scotts Valley was 
restored to recognition by court order along with three other 
tribes, Guidiville, Mechoopda and Lytton. The court precluded 
us from returning to our former Rancheria area, our land base.
    In 2000, BIA recognized that the majority of our tribal 
members live in the Bay Area. Contra Costa County has been 
designated our service population, service area. Our tribe has 
researched and have documents, ethnohistory, facts linking 
Contra Costa County to our historical Pomo site. The territory 
ceded to the United States in the Nineteenth Century.
    Based on this history, and our modern ties, the tribe has 
decided to seek restoration in our land base in Contra Costa 
County. Our application was submitted in January of 2005. Our 
tribe has offered the county a limited waiver of sovereign 
immunity to make enforceable the terms of our MSA with these 
agreements.
    The tribe currently is negotiating with the City of 
Richmond, although our site is in an unincorporated area of 
Contra Costa County. The tribe wants to be a good neighbor. We 
continuously reach out to the community for communications with 
them.
    Concerns: We would now like to express our ideas on the 
legislation.
    First, there must be a mechanism for landless and newly 
restored and recognized tribes. California tribal history is 
unique and complex as you mentioned earlier, Congressman. There 
must be a way to combine, protect for the small, needy, unjust 
landless tribes while ensuring that requirements should be in 
place for historical claims that the tribe must meet. Every 
tribe should have the same rights as others.
    Second, we need to maintain the standard and process for 
acquisitions, and without having to change the long-standing 
Federal policy, and recognizing tribal sovereignty. We have 
concerned while giving veto power to local governments and 
other tribes. However, we do recognize the need for local 
community involvement.
    Finally, there needs to be a grandfather clause for those 
tribes already in the process. Many of these tribes have 
exhausted much time and resources like Scotts Valley. Changing 
the rules to the game is unfair. Any grandfathering should be 
inclusive in any tribe who has an application in for the 
purpose of gaming on the date of enactment of any new bill. 
This is the only fair and equitable remedy for those tribes, 
all tribes that have spent any time in the process.
    Grandfathering does not guarantee approval as you know, and 
Scotts Valley will continue to follow the process as outlined.
    What about other tribes who do not have an application in? 
Their rights should also be protected.
    In closing, the rules of the game should not be changed 
midway through the seventh inning. Let us say a rancher has 
spent several years and hundreds of thousands of dollars in 
working through the local zoning regulations so he could put a 
new building on his property. Toward the end of the process the 
local government changes the law and does not grandfather his 
application. He has to start all over again and jump through 
this even higher hurtles. The result is that he will lose his 
investment, the time and money just like tribes will if we are 
not grandfathered.
    Grandfathering language is critical for landless tribes, 
and I want to thank you for your time and the Committee. We are 
open for questions and answers. Thank you.
    [The prepared statement of Mr. Arnold follows:]

                 Statement of Donald Arnold, Chairman, 
                  Scotts Valley Band of Pomo Indians,

Introduction
    Honorable Chairman Pombo and members of the Committee, my name is 
Don Arnold and I am the Chairman of the Scotts Valley Band of Pomo 
Indians. Thank you for the opportunity to speak in front of you today 
on such an important issue.
    Scotts Valley is a small landless Tribe in California that has an 
application with the Department of Interior to have land placed into 
trust as a restored tribe for gaming purposes. To date, the Tribe has 
expended a considerable amount of time and resources in order to comply 
with the federal fee to trust and restored lands applications process. 
I hope that I can provide some valuable information about the unique 
history and needs of California Tribes as well as update you as to 
where we are in our project and why we are concerned with the proposed 
legislation. We also would like to specifically speak to the issue of 
grandfathering and why Scotts Valley and other tribes should not have 
the rules changed in the seventh inning of the game.

Scotts Valley History
    The Scotts Valley Band of Pomo Indians of California is a federally 
recognized Indian tribe, which has absolutely no trust land base. The 
Tribe's status as a federally-recognized Indian tribe was illegally 
terminated in 1965 under the California Rancheria Termination Act, and 
restored in 1992 pursuant to a judgment of the Federal District Court 
for the Northern District of California. The Judgment, however, 
specifically precludes the Tribe from re-establishing our former 
Rancheria.
    As a result of the Federal Government's termination and relocation 
policies throughout the 20th century, the vast majority of tribal 
members were relocated to the San Francisco Bay area, and, in 2000, the 
Bureau of Indian Affairs designated Contra Costa County, California as 
the Scotts Valley Band of Pomo Indians ``service population area.'' 
Because a large percentage of tribal members reside in and around the 
County and the County has been designated as the Tribe's service 
population area, the Tribal Council has determined to restore the 
Tribe's trust land base in the County, and to fully establish the 
Tribal Government and Tribal community in Contra Costa County. The 
Property is located in the extreme western end of the County close to 
the sites of historic Pomo villages and trails and the territory the 
Pomo ceded to the United States in the 19th century. The Property is 
thus the closest part of the Tribe's present day service population 
area to historic Pomo territory. As a result, the Tribal Council has 
determined that the development and operation of a gaming facility on 
the Property is an important Tribal Government project designed to 
improve the economic conditions of the Tribe and its members, increase 
tribal revenues, enhance the Tribe's economic self-sufficiency and 
promote a strong Tribal Government capable of meeting the social, 
economic, educational, cultural and health needs of the tribal members. 
Accordingly, the Tribe has requested that the Secretary of the Interior 
acquire title to six (6) parcels of real property totaling 
approximately 29.87 acres located within an unincorporated area of the 
County in trust for the benefit of the Tribe.

Application for Land Into Trust
    After much time and resources, the Scotts Valley Tribe submitted an 
application under 25 C.F.R. 151 on January 25, 2005 This application is 
an extensive compilation of both required and submitted documents 
filling numerous binders that includes a narrative addressing all 
requirements within 151 such as need, authority, impacts on the State 
and Political Subdivisions jurisdictional issues and title 
requirements.
    In addition, a detailed Environmental Impact Statement (EIS) was 
developed which identifies a range of measures necessary to mitigate 
significant impacts our project will have on the local community. Not 
only has the Tribe publicly agreed to mitigate those impacts, but also 
has offered the County in which our restored trust land base would be 
located a limited waiver of sovereign immunity in order to make fully 
enforceable the terms of a Tribal-County agreement regarding the 
mitigation of impacts to the County.
    The Tribe also is currently in negotiations with the City of 
Richmond to develop an MSA that addresses the mitigation of the impacts 
to the City of our proposed project. Quite simply, the Tribe wants to 
be good neighbors of the community in which our restored trust land 
base is located, and continuously reach out to the community to ensure 
that happens.
    Since Congress included the ``restored lands exception'' when it 
enacted IGRA, it is clear that Congress knew and understood the plight 
of landless illegally terminated tribes, such as Scotts Valley. 
Congress did not give landless, illegally terminated tribes a free 
pass. Instead it created a rigorous mechanism for a landless, illegally 
terminated tribe, like Scotts Valley, to restore its trust land base 
and operate a gaming facility as a means of promoting tribal economic 
development, self-sufficiency and a strong tribal government. Scotts 
Valley is following this mechanism; the only mechanism which can 
provide our Tribe assurances of its sovereign survival.

Concerns with H.R. 4893
    In 1988, Congress saw Indian gaming as an appropriate expression of 
tribal sovereignty and, accordingly, Congress enacted IGRA to protect 
and regulate that activity. It is clear, however, that, with certain 
exceptions, Congress intended to limit Indian gaming to Indian lands 
that existed on the date of enactment (October 17, 1988).
    The problem was that not all tribes held tribal lands in 1988. 
Congress very specifically intended to assist such disadvantaged tribes 
by providing that, when they finally obtained land, their land would be 
treated as if it effectively had been in trust since before October 17, 
1988. In other the words, Congress provided the restored lands 
exception of Section 20 (b) (1)(B)(iii) of IGRA so that eligible tribes 
such as Scotts Valley could be placed closer to the position they would 
have been in had the Tribe been restored and held lands in trust prior 
to1988. By so doing, Congress provided a mechanism by which newly 
restored tribes would be on a more level playing field with the tribes 
that were lucky enough to have been restored and had a land base on the 
date of IGRA's enactment. Congress knew that locking restored landless 
tribes out of the economic development opportunities made available by 
IGRA would do an incredible injustice to those tribes.
    The purpose and intent of IGRA's restored lands provision is 
informed by the opinions of the federal courts that have considered 
this issue. In 2003, in a case involving a California tribe, the D.C. 
Circuit (in an opinion joined in by now Chief Justice Roberts) 
explained that the restored lands and initial reservations exceptions 
``serve purposes of their own, ensuring that tribes lacking 
reservations when IGRA was enacted are not disadvantaged relative to 
more established ones.'' City of Roseville u Norton; 348 F.3d 1020, 
1030 (D.C. Cir. 2003). In 2002, in an opinion involving a Michigan 
tribe that was later affirmed by the Sixth Circuit, the District Court 
said nearly the same thing, saying that the term ``restoration maybe 
read in numerous ways to place belatedly restored tribes in a 
comparable position to earlier recognized tribes while simultaneously 
limiting after-acquired property in some fashion.'' Grand Traverse Band 
of Ottawa and Chippewa Indians v. U.S. Attorney for the Western 
District of Michigan, 198 F. Supp. 2d, 920, 935 (W D. Mich. 2002), 
aff'd 369 F.3d 960 (6th Cir. 2004) (referring to the factual 
circumstances, location, and temporal connection requirements that 
courts have imposed). The restored lands provision ``compensates the 
Tribe not only for what it lost by the act of termination, but also for 
opportunities lost in the interim.'' City of Roseville, at 1029.
    Only rarely does Congress provide the Secretary with special 
authority or direction to acquire trust land for a particular restored 
tribe. Therefore, newly restored tribes like Scotts Valley must rely on 
the general discretionary land acquisition authority given to the 
Secretary pursuant to Section 5 of the Indian Reorganization Act. (25 
U.S.C. 465) As a consequence, landless restored tribes must submit to 
Interior's usual process for reviewing fee-to- trust applications, 
including complying with the requirements of Interior's fee-to-trust 
regulations (25 C.F.R. Part 151).
    H.R. 4893 would amend Section 20 to impose on newly recognized, 
newly restored and landless tribes an extensive laundry list of new 
requirements before those tribes could obtain trust land for gaming. 
Such comprehensive requirements have never been imposed on tribes with 
reservations in existence in 1988. Indeed, on its face, H.R. 4893 
appears to conflict with Congress' own policy direction to the federal 
agencies that they may not promulgate regulations or make any 
determination that ``classifies, enhances or diminishes the privileges 
and immunities available to the Indian tribe relative to other 
federally recognized tribes.'' \1\
---------------------------------------------------------------------------
    \1\ See 25 U.S.C. Sec.  476(f).
---------------------------------------------------------------------------
    Section 20 is working as Congress intended. The Section 20 
exceptions were intended to place tribes that were either unrecognized 
or landless in 1988 (Scotts Valley was both) on an equal footing with 
recognized tribes that had established trust land bases. The exceptions 
were not intended for recognized tribes with established land bases to 
improve their competitive environment, and therefore these tribes 
should not be attempting to use the exceptions for such purposes.

Grandfathering Tribes already in the process
    Scotts Valley is a landless illegally terminated/restored tribe 
that is following the federally established procedures for taking land 
into trust for gaming purposes, and it is truly hurtful when the 
illegal termination of our Tribe and the relocation of our people are 
ignored and we are accused of ``off reservation shopping.'' We are not 
``reservation shopping'', instead we are following the very vigorous 
requirements the Congress established for restored tribes to restore 
their trust land base. The tens of thousands of pages included in the 
Tribe's trust application will show that the Tribe has both a strong 
historic connection to our proposed restored trust land and an even 
stronger modern day connection to that same proposed trust land.
    Our tribe, as it always has, will tenaciously move forward in its 
fight for its survival, this time by following the federal procedures 
set forth for establishing a restored land i.e. pursuant to the 
provisions and case law governing Section 20(b)(1)(b)(iii) of IGRA and 
25 C.F.R. 151. This section provides adequate safeguards for tribal, 
state and local governments, and should not be changed.
    There are considerable provisions under current law for public 
input into the Tribe's restored lands application. In addition to the 
public consultation and comment requirements built into the fee to 
trust process, there are a significant number of opportunities for 
public participation required by the National Environmental Policy Act 
(``NEPA''). The Department of the Interior has made clear in its 
recently revised guidelines for gaming acquisitions that most tribal 
casino projects will require preparation of an EIS to assess a wide 
range of potential impacts, including ecological, social, economic, 
cultural, historical, aesthetic, and health impacts. The Scotts Valley 
project is no exception.
    The enormous amount of public opinion that is made a part of the 
NEPA and EIS processes is perhaps best demonstrated by walking through 
the extensive process in which Scotts Valley has been engaged:
    <bullet>  On July 20, 2004 the Bureau of Indian Affairs (BIA) 
published a notice of intent to prepare an EIS in the Federal Register 
describing Scotts Valley's proposed project, explaining the NEPA 
process, announcing a scoping meeting, and soliciting written comments 
on the scope and implementation of the proposed project. Public notices 
announcing the proposed project and the scoping meeting also were 
published in local papers. The scoping process was intended to gather 
information regarding interested parties and the range of issues that 
would be addressed in the EIS.
    <bullet>  The BIA held the public scoping meeting on August 4, 2004 
in Richmond, California, and received comment letters during the 
scoping process. In December 2004 the BIA issued a scoping report 
describing the NEPA process, identifying cooperating agencies, 
explaining the proposed action and alternatives, and summarizing the 
issues identified during the scoping process.
    <bullet>  The BIA then prepared a preliminary draft EIS, which was 
circulated to the cooperating agencies for comment. Cooperating 
agencies for the Scotts Valley project included the County of Contra 
Costa, California, the City of Richmond, California, the California 
State Department of Transportation and the Environmental Protection 
Agency.
    <bullet>  Based on the comments received from the cooperating 
agencies, the BIA then prepared a draft environmental impact statement 
which was released for public comment on February 17, 2006. The BIA 
also held a public meeting in Richmond, CA on March 15, 2006 after the 
draft EIS had been made available to the public. At that meeting, 
several members of the community commented on the draft EIS; many of 
them positively.
    <bullet>  All the comments on the draft EIS, whether received in 
writing or through the public meeting, are being considered and 
addressed in the final EIS. The information included within that final 
EIS will be considered by the Secretary while he/she determines whether 
or not to take the Scotts Valley parcel into trust. Therefore, the 
views of local elected officials, local citizens, and even the card 
rooms will be available to the Secretary for consideration before he/
she makes a decision as to whether to take this land in trust for 
Scotts Valley.
    <bullet>  Finally, after the Secretary of the Interior has 
considered all the public comments, including information about impacts 
and mitigation, if he/she does decide to acquire trust title to the 
land, Interior's regulations provide the public with a very clear and 
very unambiguous opportunity to challenge the Secretary's decision in 
federal court before he/she implements that decision. 25 C.F.R. 
151.12(b) requires the Secretary to give the public at least 30 days 
notice of his/her decision to take land into trust before he/she will 
actually take the action to acquire trust title. Accordingly, if the 
public ultimately is not satisfied that its concerns have been 
addressed through either the fee to trust, the NEPA or EIS processes, 
it can exercise all available remedies at its disposal to prevent the 
Secretary from taking the land into trust.
    In summary, I am here today to advocate among other things for the 
insertion of ``grandfathering language'' in H.R. 4893 that protects 
those illegally terminated landless tribes, who like Scotts Valley have 
already gone to considerable effort in their petitions to the federal 
government for a land base, on which to conduct gaming under the 
original provisions of IGRA. In conclusion, we hope that if passed, the 
Pombo Bill will add such ``grandfathering language'' and cut off dates 
to its final form before enactment to protect the Tribes who have 
followed the process and been engaged with time and resources.
    Thank you for your attention to this testimony.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Davis-Van Huss.

 STATEMENT OF JACQUIE DAVIS-VAN HUSS, TRIBAL SECRETARY, NORTH 
          FORK RANCHERIA OF MONO INDIANS OF CALIFORNIA

    Ms. Davis-Van Huss. Thank you, Chairman Pombo, for the 
opportunity to appear before the Committee today.
    While my tribe has concerns about the specific proposals 
contained in this legislation, we understand the circumstances 
that have caused the Chairman to introduce this bill. I would 
like to focus my statements on what we believe are unintended 
consequences of this bill, and specifically how it would 
preclude my tribe from engaging in gaming on restored lands 
located within our modern day and ancestral homelands, an 
effort that we have pursued with strong local support for over 
two years.
    Our tribe is the largest restored tribe in California. We 
have 1,386 tribal citizens, and we are growing. For several 
years, we have been engaged in a process to acquire gaming-
eligible lands to provide our tribal citizens the same economic 
development opportunities as enjoyed by other tribes. We are 
proceeding through this difficult process because the only 
gaming-eligible lands available to us, the North Fork 
Rancheria, sits on a rocky hillside adjacent to the Sierra 
National Forest, and is in trust for six individuals, not the 
tribe.
    Neither the tribe, the local community, nor the State of 
California considers the Rancheria to be appropriate for 
commercial development, and any such development would do 
little to advance the needs of either the tribe or the larger 
community.
    In 2003, we began working cooperatively with Madera County 
to identify an appropriate location for a gaming facility on 
our historical lands in Madera County. We eventually identified 
a 305-acre parcel on an unincorporated area just north of the 
City of Madera. The parcel is located within lands set aside 
under the unratified treaties of 1851 and near the reservation 
operated for our ancestors in the 1850s.
    Our proposed gaming and entertainment project is consistent 
with the county's land use and development plans for the 
location. Further, the location avoids impacts to the 
environmentally sensitive foothills and minimizes the impact on 
gaming operations of neighboring tribes.
    In August 2004, the Madera County Board of Supervisors 
unanimously approved an MOU with the tribe under which the 
tribe will provide $87 million over 20 years for mitigation of 
project impacts on the county, and for sustained charitable 
contributions.
    A year later the county passed a second resolution in 
support of the tribe's proposals project at the proposed 
location. I believe the Committee is in receipt of written 
testimony from Madera County's Supervisor Gary Gilbert that 
outlines the county's support of our project.
    The North Fork project has become something of a model for 
responsible development, one where the tribe working with the 
county has identified an environmentally and economically 
viable location within our homeland to provide sorely needed 
economic resources through the creation of living wage, full 
benefit jobs, sustained charitable contributions, and 
significant shared revenues.
    Our project is distinguished by its strong local support, 
its emphasis on collaboration, its adherence to the spirit and 
letter of the law, and its goal for improving the lives of all 
Madera County residents.
    Yet despite all this, our project would never be able to 
satisfy all of the requirements in this proposed legislation. 
Indeed, it seems unlikely that any tribe in the country, 
particularly in California, could satisfy the requirements of 
the legislation. Most problematic is the requirement that 
requires the concurrence of any tribe within 75 miles of the 
proposed site. This provision is anti-competitive. It 
effectively provides other tribes without jurisdiction or land-
use authority over the lands the power to veto another tribe's 
gaming project simply to protect their market share.
    There are 107 federally recognized tribes in California, 
and five are within 75 miles of our proposed site. The two 
tribes with the largest gaming facilities in our area, despite 
our best efforts, oppose our project for competitive reasons.
    While we agree that these tribes should be consulted as 
part of the Federal process, they should not have the same 
power as the Secretary or the Governor.
    We also request that the Committee eliminate the 
requirement for concurrence by the state legislature of the 
Secretary's decision to approve an application. This bill 
already provides for concurrence by the Governor, which has 
only occurred three times in 18 years since IGRA was enacted. 
Given the Governor's role as chief executive of the state, it 
is unlikely a Governor would concur in a decision by the 
Secretary without strong local support. Requiring additional 
concurrence of the state legislature simply provides successful 
gaming tribes who enjoy tremendous influence, especially in 
California, with the state legislature additional power to veto 
projects that threaten their competitive position.
    We also question the need for a countywide referendum. We 
elect our officials to make tough decisions concerning land use 
and development. Those officials already have the power under 
California law to call for an advisory vote when appropriate. 
Madera County does not require an advisory vote or referendum 
when approving large or controversial developments, whether 
that be a new Wal-Mart or a rock quarry, and we do not see why 
the Federal government should impose such a requirement on a 
gaming development. A referendum simply creates another 
opportunity for competitive interest to spend hundreds of 
thousands of dollars in creating a high-profile political 
campaign that ultimately has little to do with what the 
residents of the affected community want.
    As you can see, this well-intentioned legislation will have 
significant unintended consequences on my tribe. Our tribe has 
been following the spirit and letter of the law for over two 
years, and the process we, along with local elected officials 
and business leaders, have invested an enormous amount of time 
and resources. It would be unfair to change the rules on us and 
the community at this stage.
    We urge the Committee to consider adding a grandfather 
provision that would allow us to continue through the process 
under the existing law.
    I appreciate this opportunity and thank you very much.
    [A statement submitted for the record by Ms. Davis-Van Huss 
on behalf of Elaine Fink, Tribal Chairperson, North Fork 
Rancheria of Mono Indians of California, follows:]

Statement submitted for the record by Elaine Fink, Tribal Chairperson, 
           North Fork Rancheria of Mono Indians of California

Introduction
    The North Fork Rancheria of Mono Indians first wishes to thank 
Chairman Pombo for the opportunity to appear before the Committee today 
and provide our Tribe's story as well as our perspectives on H.R. 4893, 
a bill to amend the Indian Gaming Regulatory Act of 1988. While the 
Tribe has concerns about the specific proposals contained in this 
legislation, we understand the circumstances that have caused the 
Chairman to introduce this bill and also understand his perspectives in 
wanting to further tighten the authority of restored and newly-
recognized tribes to acquire land for gaming beyond those already 
contained in section 20 of the IGRA. I would like to focus my 
statements on what we believe are unintended consequences of this bill 
and specifically, how it would preclude the Tribe from engaging in 
gaming on restored lands located within our modern day and ancestral 
homelands--an effort that we have pursued with strong local support for 
over two years.

Tribal History
    The North Fork Rancheria of Mono Indians is a federally recognized 
Indian tribe with governmental offices in Madera County, California and 
the largest restored tribe in California. Our ancestors were Northfork 
Mono, and also included members of local Yokut and Miwok tribes. 
Historically, our ancestors used and occupied overlapping territories 
of the San Joaquin Valley tribes, gaining access to specific regions 
through a complex and interdependent system of social, political, and 
economic ties between Native groups.
    The arrival of non-Natives in the San Joaquin Valley, as early as 
the 1810s, thoroughly disrupted our life there, as our ancestors were 
pushed farther and farther into the foothills and mountains, in order 
to flee from the kidnapping, violence, and disease which decimated our 
populations. With the 1849 California Gold Rush, tensions between 
Native peoples and miners as well as settlers escalated rapidly in the 
San Joaquin Valley, and culminated in the Mariposa Indian War of 1850-
51. The Gold Rush accelerated the destruction of Native society to a 
pace never before seen in North America, as literally a million new 
immigrants came to California in the span of a few years to seek gold 
on our lands. In response the federal government sent three treaty 
commissioners to California to negotiate treaties for peace and the 
cession of land in exchange for the establishment of reservations. The 
interests of the Northfork Mono were represented directly in the 
ensuing treaty negotiations by trusted chiefs of neighboring Mono and 
non-Mono tribes with whom we had kinship and socio-political ties. The 
April 29, 1851, treaty expressly provided that our ancestors were 
intended beneficiaries of the treaty. This and two other treaties 
reserved adjacent tracts of Native lands on the Valley floor where the 
present-day City of Madera is located and near the site for our 
proposed gaming facility.
    The lands reserved in these treaties were quickly overrun by 
settlers, ranchers, miners and, later, farmers, leaving only a series 
of small ``Indian farms'' operating over a large area. One of these, 
the Fresno River Farm, was located in the immediate vicinity of the 
present-day City of Madera and later became the headquarters for the 
entire reservation. Although Congress eventually refused to ratify the 
treaties based on objections from the California Legislature, by 1854 
the Fresno River Farm or Reservation was viewed as one of the five 
reservations authorized by Congress a year earlier. In 1856, the Indian 
Agent for the Fresno River Reservation identified a significant number 
of our tribal ancestors who lived on, visited, and recognized the 
Reservation as their home and headquarters. At the same time, most of 
our ancestors integrated the Reservation into their yearly subsistence 
cycle, spending part of the year on reservation lands cultivating crops 
and collecting treaty-stipulated goods, and part of the year off 
reservation grounds hunting, gathering, and fishing. Operation of the 
Reservation was plagued with problems, however, and in 1860 the 
Reservation was closed. Our tribal ancestors subsequently integrated 
into the mining, lumber, ranching, and agricultural economies, thereby 
adapting their use and occupancy of the Valley floor and foothills to 
supply their subsistence in new ways.
    Beginning in the 1890's, the federal government made a limited 
number of land allotments to Native people. Because very few public 
domain lands were available, the government turned to the National 
Forests for lands that could become Indian allotments. Consequently, 
most lands allotted to Tribal ancestors were in the Sierra National 
Forest, although some were within approximately 18 miles from the City 
of Madera. In 1903, a Presbyterian Mission was established in the town 
of North Fork. Native parents began sending their children to be 
educated and sheltered at the Mission while continuing their migratory 
patterns by working as wage laborers on farms and logging operations in 
the San Joaquin Valley. In 1916, at the urging of the Mission, the 
Federal Government purchased the 80-acre North Fork Rancheria next to 
the Mission to provide shelter to Indian families whose children were 
attending the Mission. The rocky soil and precipitous landscape were 
unsuitable for farming, however, and the Rancheria never was able to 
support more than a few families.
    In 1961, the federal government terminated the Tribe's federally 
recognized status and transferred the Rancheria land to fee for the 
lone resident then living on the Rancheria. The Tribe's status as a 
federally recognized Indian tribe was restored in 1983 under a 
stipulation for entry of judgment in Tillie Hardwick v. United States 
of America, No. C-79-1710-SW (N.D.Cal 1983). Four years later, the 
lands within the Rancheria boundaries were restored to the status of 
``Indian Country'' as part of the same lawsuit under a stipulation for 
entry of judgment for Madera County. The lands within the Rancheria 
boundaries were subsequently transferred into trust for the benefit of 
the six individuals who had been residing on the land, not for the 
Tribe.
    The Tribe subsequently opened an office in rented quarters in the 
early 1990's, adopted its Constitution in 1996, and since then has used 
its limited funding to establish a modern tribal government. We have 
purchased lands for tribal housing and are currently constructing a 
community center and single-family homes for tribal citizens on those 
lands. Our tribe has also assumed responsibility for administering 
Temporary Aid for Needy Families for Indians residing in Madera, 
Merced, and Mariposa Counties. We have an active environmental 
deqpartment and are working to maintain our language and culture. I am 
very proud that today, our Tribe is the largest restored tribe in 
California with some 1380 tribal citizens.

Economic Self Sufficiency
    Like other California tribes whose restored reservations are 
nothing more than several dozen acres of inadequate lands, and which 
are held in trust for a few tribal members, we have sought to acquire 
gaming-eligible trust lands on which to provide economic development 
opportunities for our tribal citizens. Our own Rancheria sits on a 
rocky hillside adjacent to the Sierra National Forest about a 40 minute 
drive from Yosemite National Park, and can only be accessed from a dirt 
road. Neither the Tribe, the local community, nor the State of 
California consider the Rancheria to be appropriate for commercial 
development, and any such development would do little to advance the 
needs of either the Tribe or the larger community.
    Consequently, in 2003, the Tribe approached its local district 
supervisor for the County of Madera about working cooperatively to 
identify an appropriate location for a gaming facility on historical 
tribal lands in Madera County. The County agreed, recognizing the 
opportunity to diversify its agriculturally based economy and to lower 
unemployment rates that hover around 12% in the County and as high as 
25% in the City of Madera. Working cooperatively with the County, the 
Tribe eventually identified a 305 acre parcel in an unincorporated area 
just north of the City of Madera in Madera County, California,. The 
parcel is located near the former reservation where our ancestors 
worked and lived in the 1850's . Developing our proposed gaming and 
entertainment project at this location would be consistent with the 
land use and development plans of the County. Further, it would avoid 
impacts to the environmentally sensitive foothills and minimize the 
impact to the gaming operations of neighboring tribes. Although the 
lands may qualify as restored lands under Section 20, we have requested 
the Secretary to make a determination that the lands are eligible for 
gaming under the two-part process under Section 20(b)(1)(A) of IGRA.

Community Benefits
    In August 2004, following two well publicized and attended public 
meetings, the Madera County Board of Supervisors unanimously approved a 
Memorandum of Understanding with the Tribe in which the Tribe has 
agreed to provide $87 million over 20 years for mitigation of project 
impacts on the County and for sustained charitable giving. A year 
later, in August 2005, the Madera County Board of Supervisors passed a 
second resolution in support of the Tribe's proposed project at the 
proposed location. I believe the committee is in receipt of written 
testimony from Madera Supervisor Gary Gilbert that outlines the 
County's support of the Tribe's project.
    In October 2004, the Bureau of Indian Affairs issued a Notice of 
Intent to prepare an environmental impact statement for the project 
pursuant to the National Environmental Policy Act. Once the draft 
environmental impact statement is issued early in the summer of 2006, 
the Tribe also expects to enter into additional agreements with the 
City of Madera and Caltrans, and likely other entities, to mitigate any 
project impacts on roads and other resources within their respective 
jurisdictions which are identified in the report.
    The North Fork project has become something of a model for 
responsible development--one where the Tribe, working with the County, 
has identified an environmentally and economically viable location 
within our homeland to provide sorely needed economic resources to a 
struggling local economy. The proposed destination resort and hotel is 
expected to create 1500 living wage jobs plus 750 additional 
construction jobs. The majority of jobs are expected to be secured by 
Madera residents. The project is also expected to stimulate an 
additional 2100 jobs and provide increased discretionary spending from 
payroll and additional income to local businesses.
    The Tribe's announcement has resulted in a significant number of 
proposals for large retail and other commercial development in the 
immediate vicinity of the Tribe's proposed site. Development of any one 
of the proposals would result in millions in sales tax revenue for the 
cash-strapped City of Madera and hundreds of new jobs in an area with 
one of the highest unemployment rates in California. However, potential 
developers have indicated that their projects will not be built unless 
the Tribe is able to construct its proposed resort. Much is at stake 
here both for the Tribe's nearly 1400 citizens and for thousands of 
area residents looking for jobs and a better life for their children.

Community Support
    As I have indicated, our project is distinguished by its strong 
local support, its emphasis on collaboration, its adherence to the 
spirit and letter of the law and its goal of improving the lives of all 
Madera County residents. It offers the promise of economic vitality for 
the Tribe, the community and the state through the creation of living-
wage/full-benefit jobs, sustained charitable contributions and 
significant shared revenues.

Concerns Regarding H.R. 4893
    Yet despite all this, our project would never be able to satisfy 
all of the requirements in the proposed legislation. Indeed, it seems 
unlikely that any tribe in the country, particularly in California, 
could satisfy the requirements of this legislation. Most problematic is 
the requirement that requires the concurrence of any tribe within 75 
miles of the proposed site. This effectively provides other tribes 
without jurisdiction or land use authority over the lands the power to 
veto another tribe's gaming project for competitive reasons. There are 
107 federally recognized tribes in California, and five are within 75 
miles of our proposed site. The two tribes with the largest gaming 
facilities in our area, despite our best efforts, oppose our project 
for competitive reasons. We believe this provision is anti-competitive, 
in that it provides tribes the power to stop any project that might 
compete with existing gaming facilities. The nearby tribe requirement 
usurps the land use and development planning authority of local 
jurisdictions by providing a nearby tribe the power to veto a project 
supported by a local jurisdiction. While we agree that nearby tribes 
can and should be consulted by the Secretary as part of the process, 
they should not have the same power as the Secretary or the Governor.
    We also request that the Committee eliminate the requirement for 
concurrence by the state legislature of the Secretary's decision to 
approve an application. This bill already provides for concurrence by 
the Governor, which has only occurred three times in the eighteen years 
since IGRA was enacted. Given the governor's role as chief executive of 
the state, it is unlikely a governor would concur in a decision by the 
Secretary without strong local support. Under his May 2005 
proclamation, California's Governor states that he will consider 
concurring in determination by the Secretary only when there is local 
support and the project satisfies an independent public policy. 
Requiring the additional concurrence of the state legislature simply 
provides successful gaming tribes, who enjoy tremendous influence with 
the state legislature, additional power to veto projects that threaten 
their competitive position.
    We also question the need for a county wide referendum. We elect 
our officials to make the tough decisions concerning land use and 
development. Those officials have the power under California law, and 
presumably in other states, to call for an advisory vote when 
appropriate. In Madera County, the Board of Supervisors does not 
require an advisory vote or referendum when approving large or 
controversial developments, whether that be a new Walmart or rock 
quarry, and we do not see why the federal government should impose such 
a requirement for a gaming development. This is particularly true for 
our project where the County has thoroughly considered the issue and 
entered into a binding agreement with our Tribe regarding future land 
use, development, and jurisdictional issues. A referendum simply 
creates another opportunity for competitive interests to spend hundreds 
of thousands of dollars in creating a high profile political campaign 
that ultimately has little to do with what the residents of the 
affected community want.
    As you can see, this well-intentioned legislation will have 
significant unintended consequences on our tribe. Our tribe has been 
following the spirit and letter of the law for over two years. In the 
process, we, along with the County and the local community, have 
invested enormous time and resources. It would be unfair to change the 
rules on us and on the community at this stage, particularly given our 
inequitable land situation and the fact that our proposed site is 
within our home county and on lands which our people have used and 
occupied for centuries. We urge the Committee to consider adding a 
grandfather provision that would allow us to continue through the 
process under existing law.
    I appreciate this opportunity to submit comments to the Committee.
                                 ______
                                 
    The Chairman. Thank you. I thank the entire panel for your 
testimony.
    I would like to begin the questioning and start with Ms. 
Davis-Van Huss.
    In your written testimony and in your oral testimony you 
spoke of your concerns over having the state legislature, 
having concurrence from the state legislature. Can you expand 
on what those concerns are?
    Ms. Davis-Van Huss. I believe my tribe's concerns with the 
state legislature, especially in California, is as of late you 
know that it has been very difficult for new compacts to get 
through the legislature and to get ratified. I mean, I attended 
last week an informational hearing with the GO committee, and 
the actual informational hearing was over four hours.
    And I think our concern is because there is influence from 
the large gaming tribes, the big gaming tribes, that it is very 
difficult to have a project heard on its own merits.
    The Chairman. And why would that be any different with the 
Governor?
    Ms. Davis-Van Huss. Well, the law already allows the 
Governor, the existing Section 20, the two-part determination 
under IGRA already says the Governor has to give concurrence 
for your project.
    The Chairman. Do you believe that under the current rules 
your tribe would be able to negotiate all of the hurtles that 
are in front of you and that you could have this land taken 
into trust for gaming proposes?
    Ms. Davis-Van Huss. Yes. We are completely confident that 
we can go through the process and be successful.
    The Chairman. Mr. Arnold, do you believe that under the 
current rules that your tribe could negotiate all of the 
hurtles that currently exist, and that the land could be taken 
into trust in Contra Costa County for gaming purposes?
    Mr. Arnold. I do. I think that Scotts Valley is a unique 
case in the fact that we have moved forward with this for the 
last two years, dotting the i's and crossing the t's in a 
fashion to abide by the process that is in place.
    One of the reasons where our site is is because exactly 
Contra Costa County is one of our service population areas. 
Therefore we are not reservation shopping. We don't have a 
reservation. A lot of the termination of other discussions were 
that we were reservation shopping. That is not a true 
statement, sir.
    The Chairman. You mentioned that the judgment of 1992 
restoration case precludes your tribe from reestablishing your 
former Rancheria. Why is that?
    Mr. Arnold. Well, unfortunately, a lot of the litigation 
was done by the California--what is it--the California Lawyers 
Association there, and some of the practicing lawyers were new 
to the cases. They were all mitigated differently. There was no 
process of understanding the findings of the tribe itself.
    As you could see, Guidiville, Mechoopda, Scotts Valley and 
Lytton, we were all different findings in the courts, so the 
process was not--there was no process in the fact of going 
through the process.
    Now we have a lot more knowledge of what is happening, and 
so therefore in working with Congress and understanding the 
process and policies of Section 20, everybody should move 
forward with the understanding that there is a process. A lot 
of the people in right now do not understand that there is a 
policy.
    The Chairman. Where was the original Rancheria?
    Mr. Arnold. Our Rancheria was ours, given to us in 1906 in 
Lakeport, California, 57 acres, and the topo of the land was 
between two hills.
    The Chairman. Well, that is fairly typical.
    Mr. Shagonaby, you obviously believe that you are close to 
getting approval on your application.
    Mr. Shagonaby. Yes, we do have our final determination and 
if we did not have a lawsuit pending, it would be in trust.
    The Chairman. What was the basis of the lawsuit?
    Mr. Shagonaby. The basis of the lawsuit is pretty much 
typical of the challenge that the Pokagon Band of Pottawatomi 
Indians, our sister tribe, just resolved. They did win their 
court litigation and are moving on. But basically we didn't do 
a thorough enough job to take the land in trust on 
environmental concerns. They challenged whether the Secretary 
even has the authority to take land into trust for tribes. 
There are some other points that they do raise, but we feel 
that all those issues have been successfully litigated already, 
so we feel we are in a very strong position to win this 
lawsuit.
    The Chairman. I will tell the three of you that you do all 
have compelling testimony and it is something that obviously we 
have taken into consideration and will continue to do that in 
working with you, but I have heard testimony so many times that 
there is only three tribes that have negotiated the process up 
to this point, and all three of you believe that you will be 
successful in negotiating the process, and that alone would 
double the number that claim that they have gotten through the 
process right now, and we all know that there are dozens of 
tribes that are somewhere in the process of moving forward with 
this, and that is one of the reasons why this bill ended up 
being introduced to begin with.
    Obviously, you all believe that you have unique situations, 
and have been working with the current rules, and that is 
something that we are trying to address.
    I appreciate you being here and sharing your testimony. 
This is important to the Committee to hear this side of it as 
we move forward with this legislation. So thank you for that.
    I am going to recognize Mr. Kildee for his questions.
    Mr. Kildee. Thank you very much, Mr. Chairman. I would like 
to address my questions first to Chairman Shagonaby.
    I was there the night or the day when your tribe had 
finished the arduous BRAC process and got your recognition, the 
reaffirmation of a recognition of your sovereignty and attended 
the social event that evening, and been close to the tribe 
since that time. I think it was in 1999, wasn't it?
    Mr. Shagonaby. Yes, it was.
    Mr. Kildee. The process was, it was a very, very arduous 
process, and you have waited now for about seven years now to 
really get to the next step, the big step that will enable you 
to exercise your sovereignty, and the elements of sovereignty 
as defined by the Cabazon decision of the U.S. Supreme Court.
    What is the current financial state of your tribe at the 
present time?
    Mr. Shagonaby. Right now, it is not very good. The tribes 
in Michigan are successful today because of the economic 
development that they have brought to their homelands. We are 
on the short end when it comes to appropriations, the BIA, HUD, 
EPA. We do not get very much funding right now.
    We operate out of a strip mall in Dorr, Michigan, and lease 
space. We really need resources to fully service our membership 
with housing, with health care, with a clinic. I mean, there 
are a lot of things, as you well know, Mr. Kildee, that tribes 
can do with revenues that they generate from their economic 
development through gaming.
    So right now our financial situation is not strong at all.
    Mr. Kildee. How much land are you seeking to put into 
trust, to have put in the trust?
    Mr. Shagonaby. We are seeking to 146 acres placed in the 
trust.
    Mr. Kildee. Have you acquired that land in fee now or are 
you seeking to acquire it?
    Mr. Shagonaby. It is in fee simple right now.
    Mr. Kildee. Fee simple.
    Mr. Shagonaby. Yes.
    Mr. Kildee. And that would be basically the land in which 
you would construct whatever needs your tribe might have, 
including a casino and housing?
    Mr. Shagonaby. That land is just slated for economic 
development purposes right now. We hope to have revenue to 
purchase other lands and place them into trust for those type 
of services.
    Mr. Kildee. OK, for housing and------
    Mr. Shagonaby. Correct.
    Mr. Kildee.--maybe a medical facility or school or whatever 
you might------
    Mr. Shagonaby. Well, we have a little master plan that we 
put together to hopefully implement those services soon.
    Mr. Kildee. You never lost your connection with Michigan, 
have you? I mean, your------
    Mr. Shagonaby. No.
    Mr. Kildee.--history goes way, way back, I know, and I have 
worked with your cousins, the Pokagon Band. They are on the 
Michigan/Indiana border. The court decision just within the 
last few weeks would really probably spill over into your final 
decision, would it not?
    Mr. Shagonaby. Yes, it would. We feel it is the same type 
of lawsuit. It is from the same law firm that filed suit 
against the Pokagon Band. So we feel confident that the Pokagon 
decision has really cleared up all the issues that are out 
there as far as the lawsuit. We feel we just have to go through 
the motions, and make our arguments, and we feel that we are 
backed up pretty solidly by case law.
    Mr. Kildee. I have followed gaming in Michigan since the 
time I used to work at the bingos at St. Mary's Church in 
Flint, Michigan. We used to have pretty well the monopoly on 
gaming, the churches.
    [Laughter.]
    Mr. Kildee. We lost that in 1972, when they changed the 
constitution of Michigan. All gaming was forbidden until about 
1974, give or take a year. So all gaming was forbidden, and had 
they not changed the constitution, then no one could game in 
Michigan.
    There are two states where native gaming cannot take place, 
that is Utah and Hawaii. Michigan would have been one of those 
states, the third one, were it not for the fact the people 
amended the constitution of Michigan, removing the prohibition 
on gaming and letting the legislature pass whatever laws would 
be necessary after that.
    But the fact of the matter was those who are against gaming 
probably should more broaden their--if they really are against 
on moral grounds, broaden their view and say let us outlaw all 
gaming. But very often it is the Indian gaming that irritates 
them, but not the St. Mary's.
    I was a good runner at those bingo games.
    [Laughter.]
    Mr. Kildee. And got the cash back to them fast. I was in 
the seminary, studying to be a priest at the time. Of course, 
it was almost part of our training then to do that.
    [Laughter.]
    Mr. Kildee. With that, I yield back the balance of my time, 
Mr. Chairman.
    The Chairman. I think that is a good time.
    [Laughter.]
    The Chairman. Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman, and I first want to 
admit that I have never been a bagman for the gaming.
    [Laughter.]
    Mr. Gibbons. Well, I appreciate the panel being here. Thank 
you very much for your testimony. You know, there has been a 
great deal of discussion before this Committee for the need to 
accommodate those tribes that have already begun the IGRA 
process, and some claim that this legislation is or will 
unfairly penalize those tribes who have already begun or 
invested in that process.
    I can appreciate the value of that philosophical argument, 
and that it is not right for the government to change the rules 
in those entities that have abided by those rules since they 
were created in 1988.
    However, I also believe that it is important for this 
Committee, that if this Committee adopts any grandfather 
language, we do so in a way that does not create a 
significantly broad definition that does not properly curb the 
off-reservation issue.
    Now with that being said, I have a couple of ideas that I 
want to run by you and to see what your thoughts are about 
certain restrictions that could be adopted in this legislation, 
and if you will tell me what your belief is, your position is 
on these issues, that would be great, if you do agree with them 
or if you don't agree with them.
    First let me say that I think providing tribes with the 
ability to fund economic development and investment is 
important. Once a tribe has already established a gaming 
industry, let me ask this question, and I will begin with Ms. 
Davis Van-Huss.
    Should Congress bend the rules to allow for this same tribe 
to build additional facilities? In other words, a tribe that 
already has economic benefits from one casino, why should they 
be allowed to build another?
    Ms. Davis-Van Huss. As you know, that already happens in 
California. There is a tribe that I know that has two 
facilities.
    I believe, I think my tribe's stand would be that as long 
as it was on their reservation, that that would be acceptable. 
Does that answer your question?
    Mr. Gibbons. Well, I am just asking for your input.
    Mr. Shagonaby?
    Mr. Shagonaby. Yes, I have already gave a whole lot of 
thought about that. I guess if you go through the regulatory 
process and follow the rules, if you did want to choose a 
second site, then I guess that is the prerogative of the tribal 
government.
    And the purposes of Gun Lakes, we are just looking to 
create our initial reservation, and then just enjoy the 
economic development that tribes in Michigan have already 
recognized.
    So with the off-reservation controversy, I just want to 
make a point is that we are not--I don't feel we are embroiled 
in that controversy of a tribe already having a casino, and 
then going for a second one. I mean, we are in the process of 
just working on our sole casino.
    The way the compacts in Michigan work and the way that we 
have already passed a compact in 2002, and waiting for final 
ratification, is that the state negotiated that provision one 
per customer. So if we ever wanted to go back and I am not 
saying we would ever do that, but if we did want to go back for 
a second gaming facility, the state has all the leverage in the 
world to say yes or not to that position. So I think that falls 
within the state compact process if you are going to have 
another casino.
    Mr. Gibbons. Mr. Arnold?
    Mr. Arnold. Thank you. We believe that if in fact you have 
an opportunity to do that, then we should also give thought to 
the reason why IGRA was created in 1988, the gaming process, 
and that is to benefit the Indians.
    So the fact that if you get an opportunity to build a 
second casino, you must give it back to the people that are to 
benefit from that, and that is the Indian people.
    We do have a lot of people right now that got their hands 
out that are in Indian gaming right now that shouldn't have 
their hands out.
    Mr. Gibbons. OK.
    Mr. Arnold. We believe that the money should go back to the 
oversight of health care, the process of health services for 
the Indian people, and donate that money toward them. They 
should give it back from what they received. Thank you.
    Mr. Gibbons. Mr. Chairman, would you indulge me for just 
one more question on this? I realize my time has expired on 
this, but I have just one follow-up question with regard to 
this if I could just begin. I know there is a need for some to 
test the historical nexus of distance to a tribe and its 
efforts in economic development.
    My view is that distance shouldn't be 200 miles. It should 
be more like closer to 50 miles. What do you think of that 
historical nexus being limited to something like 50 miles, and 
I will start with Mr. Shagonaby.
    Mr. Shagonaby. I would support that provision of the 50 
miles. At the outskirts of our service area is probably about 
50 miles. Just for purposes of our personal application our 
original settlement is less than three miles and our offices 
are about eight miles, and the majority of our membership lives 
within the county that we are proposing it, so I would support 
a 50-mile radius.
    Mr. Gibbons. Mr. Arnold.
    Mr. Arnold. We also support the 50-mile radius. We believe 
that the input from these people and the concerns from 
community should also reach there. Thank you.
    Mr. Gibbons. And finally, Ms. Davis Van-Huss.
    Ms. Davis-Van Huss. We would also support the 50 miles.
    Mr. Gibbons. Thank you, Mr. Chairman.
    The Chairman. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
thank the members of the panel for their testimony. Certainly 
would like to offer my personal welcome to Congressman Cole 
joining us in our hearing this afternoon. Proud member of the 
Choctaw Nation from Oklahoma. Very happy to------
    No, Chickasaw.
    [Laughter.]
    Mr. Faleomavaega. Well, they are good friends anyway.
    [Laughter.]
    Mr. Faleomavaega. Well, as a member of the Samoan Tribe.
    [Laughter.]
    Mr. Faleomavaega. Mr. Chairman, I certainly want to thank 
you for your leadership and the attention that you have given 
since holding the chairmanship of this committee and your 
sensitivity to Native American issues. Certainly also the same 
can be said for our Senior Ranking Member, Mr. Rahall, West 
Virginia. And I would be remiss if I don't also offer my 
commendation to Senator McCain as Chairman of the Indian 
Affairs Committee.
    It is quite obvious that what has happened in most recent 
months or the last year that we hit a very sensitive nerve here 
ever since the situation with Abramoff and the problems that he 
has had in terms of tribal contributions not only to campaigns 
of Members of Congress, but something is being triggered here, 
and I hope that we are not going fishing just to make it more 
difficult for the members of the Native American community that 
do participate in the gaming operations.
    I know that members have very strong feelings. Some are 
very much against gaming on moral grounds, and I know my good 
friend from Nevada has questions of that too given the fact 
that states are totally free to do lottery and the multi-
billion dollar industry that does provide needs for the state's 
educational programs, and so we are in a quandary here, 
sometimes where do you put your values and how do you really 
get to understand what we really are trying to address here.
    In the years that I have served here, I have hardly seen 
any real serious amendments brought for any changes to IGRA. 
This is what, 18 years now that IGRA has been in operation, and 
I want to ask the members of the panel your take in terms of 
any provisions in IGRA that you find deficient that we need to 
address seriously, also the Chairman's proposed bill provide 
for that, to facilitate more the allowing our Native American 
communities to participate in gaming operations?
    I would like to ask the members of the panel if you feel 
that the current provisions of IGRA adequately addresses your 
needs, or if not, obviously the Chairman definitely has strong 
feelings about why he has introduced this legislation, and I 
wanted to ask the members of the panel if you could respond to 
that.
    Mr. Shagonaby. Thank you for that. My tribe is on record, 
along with many tribes across the country, that the Seminole 
decision in 1996 basically said, it gave states, we feel, that 
leverage over the tribes in a sovereign-to-sovereign 
negotiation process.
    So we feel that amendment to IGRA should include a fix, the 
Seminole fix to make compacting with states and tribes on a 
level playing field as the original intent of IGRA was supposed 
to be.
    Mr. Arnold. As to the answer to that question, we do have--
the Supreme Court has touched basically on that policy that 
what is in place today is adequate for a land acquisition, 
although a lot of the confusion is between a gaming acquisition 
and a housing acquisition is well noted that we have confusion 
there.
    But as it may remain in effect, these regulations are 
suitable for Scotts Valley. Thank you.
    Ms. Davis-Van Huss. I will radiate the same sentiments on 
behalf of the North Fork Rancheria. We feel that IGRA is 
working. In our particular instance we are going through the 
process. We are following the letter of the law just how it was 
intended, and we feel that at the moment it is working on 
behalf of our tribe, and we don't feel IGRA should be amended.
    Mr. Faleomavaega. I know the gentlelady had expressed 
concerns about requiring state legislative approval and also a 
county referendum. You don't agree to the provisions of the 
proposed bill to that effect, and I wonder if the other two 
gentlemen also agree to that concern.
    Mr. Shagonaby. No is, I guess, the short answer. You know, 
a tribe is sovereign. We have a relationship with the Federal 
government, and I think that relationship is--I mean the 
Federal government understands the relationship with the 
tribes, and I think that is the best place to do it. Local and 
state governments is a huge education process on tribal 
sovereignty. You know, we spend a lot of time consulting with 
the local community and the state, and we feel we have a great 
relationship, and we don't think we need any regulation to 
force that. We are already doing it, so we feel it is fine the 
way it is.
    Mr. Arnold. Good question. I think that Scotts Valley is in 
a position to--our sovereignty is very important. Congress 
understood that in 1988. That is why they afforded the tribes 
that right of sovereignty.
    As it is today, the cities and counties and states are not 
looking at tribes with same sovereignty situations before them. 
We are treated like second-class citizens. We need that 
understood that we are sovereign nations.
    With that, we concur with the older regulations as it 
stands today. With all due respect to Chairman Pombo, I think 
that the bill stipulates more regulation and overdue process 
that we need to jump through that higher hoop to create our 
same sovereignty and retrieve land into trust on behalf of 
tribes. Thank you.
    Mr. Faleomavaega. Well, this has always been one of the 
unique features of our system of government. It is gray area 
when you talk about sovereignty, and I think that is the reason 
why over the years you have had to go to the Supreme Court to 
get a decision, and they also at times have been contradictory 
in their statements as well.
    With that, Mr. Chairman, thank you.
    The Chairman. Ms. McMorris, did you have questions?
    Ms. McMorris. No.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. Thank you, first of all, 
for your indulgence in letting me participate as a non-member. 
I would like to ask unanimous consent to submit a statement for 
the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Cole follows:]

    Statement submitted for the record by The Honorable Tom Cole, a 
         Representative in Congress from the State of Oklahoma

    Chairman and distinguished Members of the Committee:
    Thank you for allowing me to participate in this important hearing 
today. As an enrolled member of the Chickasaw Nation, Native American 
issues are something that I truly hold dear to my heart, and I 
sincerely appreciate all the hard work the House Resources Committee 
does on behalf of the Native American community. In particular, I would 
like to thank you, Mr. Chairman, for your willingness to work with 
tribes as you have carefully re-drafted this bill a number of times in 
hopes of allaying as many tribal concerns as possible while still 
achieving the intended purpose of the bill. In addition, Mr. Chairman, 
I greatly appreciate your thoughtfulness in allowing me to share my 
views.
    As Members of the House and representatives of diverse 
constituencies, we each feel a powerful sense of responsibility to our 
constituents and seek always to address their concerns responsively. 
The bill before the Committee today presents even greater difficulties 
in this regard than is typical in that it affects relationships between 
governmental entities, each of which are accorded certain legal 
prerogatives and often have competing interests.
    The need to balance the tribal, state, and federal interests is 
evident in the very structure of the Indian Gaming Regulatory Act, 
otherwise known as IGRA. By striving to achieve this balance, enactment 
of IGRA is consistent with basic tenets of federal Indian law and the 
fundamental principles of modern federal Indian policy as well as 
principles of federalism. Provisions for federal oversight of tribal 
gaming and federal approval of--gaming compacts reflects the primacy of 
the federal-Indian relationship, but by leaving to state and tribal 
governments a large measure of freedom to negotiate specific compact 
terms, subject to federal review and approval, IGRA was crafted to 
minimize federal intrusions into either tribal or state sovereignty.
    Under current law, a state governor negotiates the tribal-state 
compact. In some states, there are even constitutional restraints on 
the power of the governor to bind the state, requiring gaming compacts 
to be authorized by state legislatures as well. It is perfectly 
legitimate for each individual state to determine whether or not the 
state legislatures have a say in such matters.
    Mr. Chairman, I must confess the current law works just fine as it 
is. There has not been one instance in which a tribe has opened a 
casino without the consent of the local community, the state governor, 
and the Secretary of the Interior. Creating additional levels of local 
bureaucratic approval for a state-tribal compact seems to be a solution 
looking for a problem, and treads on tribal sovereignty.
    In my opinion, this bill goes too far by extending to county-level 
governments the authority to affect federal decisions. The granting of 
such authority to local units of government is unprecedented in federal 
Indian law and policy. County and parish governments are instruments of 
state government, deriving their authority by operation of state law. 
Empowering a local government to influence negotiations between a tribe 
and state directly diminishes tribal sovereignty.
    In addition, I disagree with the federal government mandating that 
the state legislature should be involved in such a decision making 
process. Again, this is a matter of state jurisdiction, and one which 
each state has dutifully addressed when necessary. I cannot help but 
question the propriety of federal legislation subjecting federal 
decisions to local referenda or mandating how a state should manage its 
own affairs.
    Another portion of the bill seeks to allow tribes to co-locate 
their casinos on the land of just one tribe. While I share your belief 
that tribes, working with their local and state counterparts, should be 
able to respond to the demands of the market, I am concerned that the 
current proposal is overly prescriptive.
    Mr. Chairman, I also believe it is extremely important that this 
bill not negate any aspect of a tribal-state compact already in 
existence. As you know, tribal economic development and diversification 
relies heavily on the agreements within these compacts. Extensive 
planning and resources are invested in the future of a tribe based on 
its agreement with the state. In order to avoid inadvertently harming 
the future vitality of a tribe, I believe it is important that nothing 
in this bill adversely affect existing tribal-state compacts.
    I will close by commending the Committee for the manner in which it 
has approached this subject matter. Regardless of how strongly the 
Native American community may feel about the bill's content, everyone 
appreciates the manner in which the Committee has proceeded by first 
circulating drafts and affirmatively listening to the feedback from 
Indian country. Without question, this process reflects this 
Committee's commitment to the principle of government-to-government 
consultation, a cornerstone in the federal Indian relationship. I wish 
to express my profound appreciation to the Committee for the 
opportunity to share my views on behalf of Indian Country on this 
critical matter.
                                 ______
                                 
    Mr. Cole. Thank you. Thank you for your testimony. Let me, 
if I may, add a preface. You all have very specific tribal 
concerns obviously with how this legislation might impact you. 
I represent a state with 39 tribes, only two of which are 
indigenous. So all of them theoretically have claims beyond 
their borders, although most of them are not involved in trying 
to do anything outside the State of Oklahoma. Again, there are 
some notable exceptions to that, and some of them, frankly, are 
like your situation. Some of them have land. Some of them are 
landless even though they have maintained their tribal 
identity. They were taken from areas, moved onto existing 
reservations, told that they could negotiate with the existing 
tribe for a land base, and that never happened for whatever 
reason. There just simply wasn't a large enough land base for 
them to purchase.
    So a lot of the problems that we are confronting in this 
legislation, I really want to commend the Chairman for trying 
to take a stab at something that is tough because it does set 
tribe against tribe. You are trying to untangle really 
difficult historical patterns of removal and resettlement that 
were unjust at the time, and we are trying after the fact to 
deal with the consequences.
    Let me just pull you all back from your concerns because 
there are some areas, and you have addressed this, that I have 
specific questions about, want to know what you think.
    First of all, and I would appreciate it you just answer 
this in turn, maybe starting with you, Ms. Davis Van-Huss, and 
kind of go across the panel. Would you prefer that the system 
just simply not be changed? I mean, would you prefer that the 
existing laws regulate everything, that we not legislate in 
this area?
    Ms. Davis-Van Huss. Well, specifically in the case of my 
tribe, the North Fork Rancheria, we feel like, as I stated 
earlier, we feel that the process is working, especially we 
are, you know, halfway, maybe three-quarters of the way going 
through it with the amount of money that we have expended, the 
time, the energy, the dedication by our tribal council. So we 
feel that the process is working and we feel that it should not 
be amended.
    Mr. Arnold. Scotts Valley also agrees with that. We have 
been through meetings clear across the United States from 
California to New York addressing the same issues. All tribes, 
I am saying all tribes that I have talked to across the United 
States have indicated that we do not want to open IGRA at this 
time. Thank you.
    Mr. Shagonaby. I would concur with the panel on that. I 
think obviously there are a lot of issues out there that are 
the hot topic, you know, a second casino is going offsite, far 
from your homelands. You know, we are not really in that fight, 
but we feel that IGRA should not be open at this time to do 
that, but we just wanted to make sure with respect to the 
Committee and the Senate Committee that we are just telling our 
story on that situation, and providing our input, but we would 
have to concur with a lot of tribes across the country that it 
would be a dangerous time to open up IGRA.
    Mr. Cole. So it seems fair to say, and correct me if I am 
wrong, that while you are here all of you seeking to be 
grandfathered in in one way or the other, that is sort of the 
secondary solution. The preferred solution would not to be in 
the position of petitioning to be grandfathered in.
    Second question. I particularly have the same concerns that 
a number of you expressed about local governments being 
empowered to basically make decisions where tribes are 
concerned. We have a recognized sovereign-to-sovereign 
relationship between tribal governments and state governments. 
Counties, in particular to me, are an extension of state 
sovereignty, and if there is a difference between what a county 
and the state wants, that is something for the state to resolve 
internally. That is not something for us to legislate either in 
a specific geographic area, and what I am worried about is to 
press it more broadly for Indian country.
    In Oklahoma right now, our tribes negotiate sovereign to 
sovereign to with our state government. We have a very good 
relationship, although we certainly have our differences. They 
don't have to go down to the county level to negotiate. They 
try to take those things and concern.
    Do you have the same set of concerns that all of a sudden 
you will be trapped into multiple negotiations with different 
entities that have almost been elevated to a sovereign status?
    Mr. Shagonaby. Yes, I would concur with that. I think when 
it comes to gaming, you know, there is a state compact process 
in play here, and I mean, the state--you know, the county 
being, I guess, a creature of the state government, then the 
county has a lot of say to the state on how the compact should 
be negotiated.
    So with that being said, we stress the importance of 
government-to-government relationships in cooperation with the 
county and all governments. I think if you sit at the table and 
talk about that issue without being mandated or given, I guess, 
a veto power over what a tribe wants to do, I think that 
wouldn't be in the best interest of the tribe.
    Mr. Arnold. Scotts Valley believes that there is a 
mechanism here to negotiate with cities, counties, and states, 
just like the Federal government deals with tribes. It is 
government to government. There is a mechanism at work here 
that would resolve all the problems, but you have to sit down 
and talk about it. You cannot not ask the question and assume 
that that is the way it is.
    So many of our counties and cities assume that is what is 
going to happen, and they project the obvious downfall of the 
community when an Indian casino is in their neighborhood. So 
what we have is a lack of communication in this area. We need 
to more or less negotiate with the cities and counties and sit 
down and talk. They need to be open just like the tribes. 
Tribes are here to build a building that is safe for everybody. 
We are here to enact the same laws that state, county, and 
cities enact when they are in that position. Why would we do a 
less than adequate job of doing that?
    Our governments are the same. We have the same concerns as 
everybody else, and that is the safety of the patrons. Thank 
you.
    Ms. Davis-Van Huss. I just want to make the comment on 
behalf of North Fork. We did sit down with our local government 
probably the beginning of 2004, to identify an environmentally 
appropriate and economic area within our historical land in 
Madera County. We worked with the local government right at the 
beginning of 2004. We sat down with them. We negotiated a 
memorandum of understanding to mitigate the impacts off of the 
reservation that would take place. We have a very good working 
relationship with the county.
    Even in our MOU that we negotiated, if there is future 
development on the site, we would have to renegotiate. We 
agreed to renegotiate the MOU with the county so any future 
development or any expansion we would have to sit back down at 
the table with the county before anything else would transpire, 
so we have a very, very good relationship with the county.
    Mr. Cole. May I ask one last question, Mr. Chairman? I 
yield back. I am sorry.
    The Chairman. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. I appreciate another 
opportunity to have a hearing on this very important piece of 
legislation. I want to thank the panels for your testimony here 
today, and this is a complicated issue because of the varying 
degrees of interest that tribes from across the country have. 
Each of you have expressed your own individual concerns in 
regards to the pending legislation, and because of that there 
has been kind of a lack of uniformity in regards to tribes 
throughout the country in light of this legislation, which 
makes our job all the more difficult and more complicated.
    But I think we do have a very solemn obligation as members 
of this Committee with jurisdiction over Native Americans to do 
our best to make sure that whatever we do is fair, as 
equitable, that it respects the sovereign rights of tribes 
across the country.
    So what I would like to have you focus on right now is the 
sovereignty issue. I think legislation can be introduced with 
the best of intentions, and have local input in a project may 
make sense. Having a Governor's approval or state legislative 
approval before any project moves forward intuitively makes 
sense, but it may not be consistent with the sovereign rights 
of Native Americans in this country as granted under the U.S. 
Constitution, the recognition of sovereign in the U.S. 
Constitution.
    So if each of you could kind of come back to the 
sovereignty issue because I think that is something that all 
tribes across the country are going to have an interest in. 
They are not going to want to see any type of diminishment in 
regards to sovereign rights in regards to any type of 
legislation, let alone this one.
    I know there have been some expression of concern just 
through your own testimony in regards to local veto power for 
instance, and the requirement under the bill requiring not only 
Governor approval but also state legislative approval.
    So could you address that briefly just to highlight any 
sovereignty concerns that you have with the pending 
legislation?
    Mr. Shagonaby. I guess we do have a lot of concerns about 
putting up more hurtles to get the project going. I just know 
working with the counties and the states and being aware of 
what goes on across the country is that it would make more 
politics in play with the tribe.
    I mean, the tribe, we have a clear case, I mean, there are 
11 or 12 tribes, we are the twelfth, and we just wanted to be 
on the same par playing field with the rest of the tribes, and 
I feel that it would be harder for us to exercise our sovereign 
right to game with more hurtles involved with it, and it would 
just delay and cost the tribes more, and that many more years 
that we will go without services that are enjoyed by other 
tribes across the country.
    Mr. Kind. Mr. Arnold?
    Mr. Arnold. One of the things that we would beg the 
Committee to look at is the sovereignty of a tribe is looking 
at the Federal government sovereignty of the United States in 
comparison. Whenever you chip away, when another country chips 
away at the United States, we are irritated, and the same thing 
happens with sovereignty of Indian tribes. If you take an inch, 
you take a yard.
    As it continues to wear down the sovereignty of Indians, 
what do we have left? We do not have the power, and this is 
what is happening locally in your cities and counties. 
Understanding of the sovereignty and the reason why we have it, 
Native American tribes have sovereignty. We need to compare 
that in the thought pattern of making the law so it is a level 
playing field for all. The sovereignty of cities and counties 
is the same situation. So impeding on sovereignty of Indian 
tribes is very harsh. Thank you.
    Mr. Kind. Thank you. Ms. Davis Van-Huss.
    Ms. Davis-Van Huss. I believe the legislation represents a 
significant shift in the historical relationship between tribes 
and the Federal government, and it represents a diminishment of 
sovereign rights.
    And to touch on what you said about other tribes' sovereign 
rights, what it does, especially in my area, is it ends up 
pitting a sovereign government against a sovereign government, 
and I am speaking of it pits another tribe against another 
tribe, and I don't feel that another tribe should have the veto 
power. They should--you know, I am responsible, I am an elected 
official for my tribe to represent the best interest of my 
tribe. I don't feel it is right for another tribe to come in 
and tell me what is right for my own people. So I think that is 
another issue that I know the North Fork Rancheria has a grave 
concern with.
    Mr. Kind. What I have heard from your previous testimony is 
a recognition that any land acquisition or any project before 
it moves forward you necessarily have to have local and state 
community acceptance, and developing that relationship 
otherwise, and I am not aware of any project moving forward if 
there is great local opposition to it, to begin with, and I 
think your previous testimony was recognizing that reality.
    I thank you all again for your testimony. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    I guess I should say initially that I am sympathetic to the 
idea that we should not be opening IGRA at all. I am concerned 
about the impact of opening IGRA, and you know what the 
consequences would be, so I am sympathetic to some of the 
statements that have been made in that regard because I think 
the process is working for the most part.
    The way I read the proposed changes though in the 
legislation under certain circumstances a tribe that does not 
have gaming but wishes to have gaming would have to locate 
their casino on another tribe's land and pay up to 40 percent 
of their revenues to the landholding tribe.
    My question is, is there any evidence--I guess this would 
be to Chairman Arnold or to Tribal Secretary Davis Van-Huss, is 
there any evidence that a tribe with an existing reservation 
and casino would want to have other tribes locate casinos on 
their land? Isn't this just a windfall for the existing tribe 
which basically does nothing but is able to collect royalty 
payments that could be worth millions of dollars? And why 
wouldn't the landholding tribe simply build itself another 
casino?
    Mr. Arnold. One of the unique things that we have in the 
State of California is that there is 109 federally recognized 
tribes there, and in 1999 compact, we have a situation where 
they help the non-gaming tribes. The process works. As you 
could see around, we do have better education programs. We do 
have better health care to the other tribes that need help. It 
is working. It is going to take awhile to build but the process 
is working.
    The whole point of what Congress did in 1988 was to provide 
self-sufficiency for the Native American. If in fact this is 
working, and it is going to take time, in doing so the second 
casino or the assistance of another tribe helping another 
tribe, this is what we believe it is all about.
    Where the revenue does, that is the big problem that the 
government is trying to tell us where to send it to how, how to 
spend our money. These are infringements of our sovereign 
rights.
    But as the process is working, the intent of 1988 is 
working. You may not see it as big and gigantic as it is today, 
but it is working, and we have looked into it. We have seen it 
work. There is a lot of tribes out there, Table Mountain for 
example has extensive dental care, they have child care, they 
have education programs that are working. I am very proud of 
these tribes that have looked into the process and health care 
of what it was all meant to be. Thank you.
    Mr. Pallone. Did you want to say anything, Ms. Davis? Go 
ahead.
    Ms. Davis-Van Huss. Mr. Pallone, I believe upon reading the 
provision that is set forth in H.R. 4893 in reference to what 
your statement was about pairing up another tribe, I believe in 
California what Chairman Arnold stated is that California is 
unique, and I believe reading the provision that it makes an 
exception for a tribe in California, the Viejas Band that is 
teaming up with, I believe it is the Ewiiaapaayp Tribe to 
locate their future casino site on Viejas's reservation. I 
don't believe that will happen again in California. I don't 
believe so.
    Like I told you earlier about North Fork, we have 1,386 
tribal members and we are growing. Chairman Arnold alluded to 
the revenue-sharing trust fund that comes to non-gaming tribes 
in California. We get $1.1 million per year from the gaming 
tribes.
    With our tribe, we have 1,386 people. $1.1 million does not 
benefit our tribe that much for education, health care, child 
care. A lot of tribes in California disburse that $1.1 million 
to their tribal members. Some tribes in California, as you are 
very well aware of, Chairman Pombo, they might have six tribal 
members. Some tribes have 18. Like ours, we are one of the 
largest--well, we are the largest restored tribe in California. 
You know, we are pushing 1,500 tribal citizens. Economic 
development is needed by my tribe.
    Mr. Pallone. OK. I was going to ask another question. There 
is not much time here. But Mr. Shagonaby, if I am pronouncing 
it, you gave several good suggestions for amendments in your 
testimony with regard to grandfathering and alternative 
compacting. You recommend that the Secretary of the Interior be 
authorized to approve a compact if the Governor and state 
legislature is not negotiating in good faith.
    We know that the Secretary has this authority which would 
kick in only after a state refused to waive its sovereign 
immunity to enter court over a compact. But how would we gauge 
when a legislature is not acting in good faith? What if one 
entity supports but the other will not? How would that be 
handled under what you are suggesting?
    Mr. Shagonaby. Well, I think a Seminole fix would address 
that situation. I guess that just for the instances of our 
tribe we got through the process of the legislature, 
overwhelming majority on both houses voted for it, but then the 
Governor refused to--declined to sign it on the way out the 
door so it is pending for another Governor.
    I think for the best interest of tribes in the way we, I 
guess the spirit of IGRA, and Congress's intent was to make 
sure that it is a level playing field, and then the tribes and 
the states sit down and negotiate, and not take a long time to 
do it.
    I would be happy to provide some written testimony to this 
committee addressing that issue in depth, but off the top of my 
head I don't really have any.
    Mr. Pallone. With the Chairman's permission if we could 
have him respond in writing, I would appreciate it.
    The Chairman. Absolutely.
    Mr. Pallone. That would be fine. Thank you.
    The Chairman. I recognize Mr. Cole who had another 
question.
    Mr. Cole. Thank you very much for your indulgence, Mr. 
Chairman.
    I had a question that is really--I am not sure it is quite 
fair to address it to you because really you have got a concern 
about it, but it relates to the approval process for compacting 
inside a state.
    Right now this legislation would mandate that state 
legislatures participate in that compacting situation. I know 
in my own state their participation is relatively minor. It is 
the Governor to--it is an executive agreement by and large with 
a legislative committee that approves the final result, but it 
doesn't even go to the full legislature. That is the way we 
chose to set it up in our state.
    There are other states where full legislative approval is 
required. There is some where no legislative input is required.
    So number one, I think at least one of you, I think Ms. 
Davis Van-Huss addressed this. How do you feel about the 
prospect of legislative approval?
    Then number two, whether you oppose it or favor it, do you 
see it is within the right of the state to decide how it wants 
to approve a compact, or is that something we should mandate at 
the Federal level so there is uniformity on a state-to-state 
basis?
    Mr. Shagonaby. Well, I guess we feel that the compact 
process is a tough one. In the State of Michigan, there are 11 
tribes. There are 11 compacts. We are still waiting for our 
compact. There is also commercial gaming. I mean, it is legal. 
The way we read IGRA is that if it is allowable within a state, 
the tribe has a right to do it also, and anything that could 
help streamline the process and not take such a long time I 
think would be very supportive, our tribe would support that.
    On how you do that, I think if similar fix is a good way to 
do it, but if Congress isn't amenable to taking a harder look 
at that and make sure the process is fair, I feel that IGRA's 
intent was is to--you know, if the state allows it and it is 
legal, then the tribe and the state should sit down in a timely 
manner and negotiate the agreements, but I feel that it would 
be beneficial for the tribe for that to happen.
    Mr. Cole. Just to clarify my question before we move on 
because you got part of it, but the real question is whose 
right is it--we have the ability if there is deliberate 
obstructionism to stop that or to intervene. But whose right do 
you think it is to decide how the state from its side is to 
negotiate or approve a compact?
    Is that something that ought to be uniform across the board 
or again is that something that is a state prerogative and each 
individual state ought to be free to do what they want to do?
    Mr. Arnold. Are you------
    Mr. Cole. Yes.
    Mr. Arnold. OK. We believe that it is mandatory that the 
states be regulated in that fashion. What it is now is dollar 
sign out there that is holding Governors at bay as they can 
hold up a compact, and get the tribes to come to an 
understanding of unfair practices.
    There has to be a mechanism that holds the state 
accountable to the tribes, like in the State of California we 
have the compact. In that compact it states that you must 
negotiate a fair compact, but in doing so there is no limit on 
the dollar sign amount. There has got to be a percentage that 
is standard across the United States, and take that--carry it 
away from the states as to gigging the tribes or taking their 
sovereignty right away, and getting the job done. Thank you.
    Ms. Davis-Van Huss. Thank you, Mr. Cole. I think North Fork 
Rancheria's position would be, especially in California, we 
would hope that the Governor would work with the legislature 
and work with the tribes on coming up with some kind of 
amicable procedure on negotiating a compact, like Chairman 
Arnold said about the percentages, but I feel each state should 
have their own.
    Mr. Cole. Their own. That, just for the record, I think 
would be the position in our state, Mr. Chairman. We would 
prefer that somebody not tell us from Washington about how we 
want to approve individual contracts. We would want to have 
that procedure.
    Can I ask you just a question for clarification? It is the 
last question I have. It is my understanding that the bill does 
not affect existing compacts that are already in place, 
negotiated, and approved. Is that correct?
    The Chairman. That is correct.
    Mr. Cole. Thank you very much, Mr. Chairman.
    The Chairman. Mr. Kildee, you had a follow up?
    Mr. Kildee. Yes, just briefly. We thought when we wrote 
IGRA, and I helped to write IGRA back in 1988, we thought we 
put a Seminole fix in before there was a Seminole problem.
    [Laughter.]
    Mr. Kildee. And Babbitt actually wrote the rules and 
regulations on how to--when the state government was not 
negotiating in good faith, but that got held up in the courts. 
Just about two weeks ago the Senate voted on a Seminole fix 
which would have put in some regulations, but that went down by 
one vote, so it is still of interest to the Congress that 
Seminole situation.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Cardoza, did you have a question at this 
time?
    Mr. Cardoza. No, I abstain.
    The Chairman. I will tell the panel that there may be 
further questions that the Committee has, and they will be 
submitted to you in writing, and if you could answer those in 
writing so that they can be included as part of the hearing 
record.
    I think that as we have gone through this whole process in 
trying to move forward with this bill many of the issues that 
you have brought up obviously are issues that we have concerns 
over in trying to move forward with this, so I appreciate you 
being here and sharing your testimony with us.
    Mr. Costa has joined us, and I wanted to give him an 
opportunity if he had a question before I dismiss the panel.
    Mr. Costa. Thank you very much, Mr. Chairman. I appreciate 
your focus and attention on I think what is an important issue 
in states that have Class III gaming throughout the country, 
and what the policy is both on the national level and what 
individual state policies are, and that has been really at the 
crux of a concern that I have had for several years.
    As I have shared with members of the Committee, my 
experience is somewhat similar to Congressman Cardoza in the 
sense that we were in the state legislature for a number of 
years, and I saw a policy evolve over 15 years.
    So let me begin by asking our witness from California who I 
am somewhat familiar with if she could describe to us what she 
believes the policy is in California toward Class III gaming as 
best you know it.
    Ms. Davis-Van Huss. Can you elaborate on your question a 
little bit?
    Mr. Costa. Well, I mean, you are going through a process 
now, I am somewhat familiar with that process you are going 
through, not obviously every detail as it relates to your 
tribe, and your particular circumstance, but it seems to me 
that going back to the early 1990s we had one set of policies 
within Governor Wilson under the flexibility given him under 
the national act. We had another policy under Governor Davis, 
and we have a third policy under the current Governor, Governor 
Schwarzenegger.
    Ms. Davis-Van Huss. So are you referring to the compact 
negotiations?
    Mr. Costa. Right.
    Ms. Davis-Van Huss. How you enter into that?
    On my tribe's part, we have met with the State of 
California. We have met with the Governor's Office, but those 
negotiations are confidential. As far as his policy, he came 
out with his proclamation that kind of outlines what he will 
and will not accept.
    Mr. Costa. What do you believe are the differences between 
this policy and the policy of previous administrations?
    Ms. Davis-Van Huss. Well, that is hard for me to answer. I 
have only been in Indian politics and tribal council for the 
last three years, but I see that--some tribes don't agree with 
this, but I think our opinion is that the Governor is trying to 
do the best he can with volatile situations being there is, you 
know, the big dollar tribes fighting against the smaller tribes 
such as ours, and I think he tries to stay out of the fight but 
he tries to do the best he can for the state, and I can just 
say he has worked well with my tribe. I don't know if that 
quite answers your question.
    Mr. Costa. Well, I think it points out to the fact of a 
belief that I have, and I have related it to the Chairman and 
to others who are willing to listen, that, frankly, we don't 
have a consistent policy in California, and maybe it is 
different in other states. But I think the biggest thing that 
we could do on the national level is to really require all 
states that have Class III gaming come up with a defined policy 
prospectively, I mean, because my view is that we have had one 
set of arrangements or ``let us make a deal'' time under 
Governor Wilson, and then we had another set of agreements 
under Governor Davis in terms of ``let us make another deal'' 
time, and now we are on to a third variation of policies.
    It seems to me unless we clearly outline a requirement that 
states ought to come up with a policy that relates to how much 
gaming you are going to have in your state, how you are going 
to spread it geographically throughout the state, how you are 
going to spread the benefits between the large tribes, the 
medium, and the smaller ones, and have some clarification on 
how you are going to regulate it in the future all together, 
that you are going to continue to have a different policy from 
administration to administration.
    I think it is incumbent upon us to set some standards, some 
criteria both on the Federal level to states with their 
legislatures and their Governor to define what gaming policy in 
their state is going to be if they have Class III gaming.
    Mr. Arnold. As Scotts Valley looks at that, we do have 
several policies. We have three in the State of California. The 
Governor right now refuses to agree to a compact or to 
negotiate a compact if you don't have land in trust. So that is 
one of his points.
    But if you would surround that with a grandfather clause 
and that would be the negotiating point for negotiating with 
your state, they can't use it against you and you would be on 
the same level.
    Mr. Costa. No, in draft legislation that I have looked at, 
I have always assumed that there would be a grandfather clause, 
if you will bear with me, Mr. Chairman, because whatever 
previous agreements have been made, I think need to be honored 
and kept, unlike many of the treaties that we have had with 
Native Americans historically, but that is another matter.
    But I think these compacts that have been made should be 
honored and kept, but I think the policy ought to be required 
as we go forth prospectively and every state that has Class III 
gaming ought to have one, and clearly define what their policy 
is in the future.
    Thank you, Mr. Chairman, for your time.
    The Chairman. Thank you, and I thank the panel for your 
testimony. I am going to dismiss this panel, and call up our 
second panel of witnesses. They are Representative Fulton Sheen 
of the Michigan Legislature; Representative Jo Ann Osmond of 
the Illinois Legislature; Steven Worthley who represents the 
California State Association of Counties; and Randy King of the 
Shinnecock Indian Nation.
    The Chairman. I want to thank our witnesses for joining us. 
I would like to take this time to remind all of our witnesses 
that under Committee Rules your oral statements are limited to 
five minutes. Your entire written statement will appear in the 
record.
    Representative Sheen, we are going to begin with you.

   STATEMENT OF FULTON SHEEN, MICHIGAN STATE REPRESENTATIVE, 
                   REPRESENTING 23 IS ENOUGH!

    Mr. Sheen. Thank you, Mr. Chairman, and thank you to the 
Committee for being able to speak to you.
    My name is Fulton Sheen. I am the State Representative from 
Michigan's 88th District. I was County Treasurer previous to 
being elected state representative, and my wife and I have a 
financial planning business there, and I talk with many small 
businesses who are my clients in Allegan County.
    I commend the Chairman and the Committee for their 
foresight in tackling this long overdue issue. IGRA has not 
changed since 1988 and this industry has gone from $100 million 
then to nearly $20 billion now. Reservation shopping needs to 
stop, but it is only one part of the problem.
    The casino concept that we are dealing here with today I do 
not think was on the minds of the people signed the treaties on 
either side originally, and then this concept was manufactured, 
I think, out of thin air in the 1970s by attorneys and then 
IGRA took hold of it in 1988.
    But specifically, I would suggest a two-year moratorium to 
thoroughly study this issue and find a full solution. Twenty-
three Michigan casinos is more than enough, and so is the $18.5 
billion that we spend at the Indian casinos. I believe Congress 
needs to get their arms around this while they still can.
    Michigan is in an economic and employment crisis right now. 
Tribal casinos are booming, but our economy is probably the 
worst in the nation. Unemployment is high, manufacturing jobs 
that make up 25 percent to the nation's total loss of its 
manufacturing base are leaving our state as well, and our 23 
casinos don't seem to be helping that bottom line, and I would 
venture to say it is hurting it.
    Casino proliferation will perpetuate these problems and 
threaten our recent investments and our progress toward trying 
to fix the situation that we have in our state. And because of 
the sovereign nation status, I believe we have no recourse once 
that casino comes into place. Currently we have 23 total 
casinos, 17 Native American casinos, only three of which are 
still paying the State of Michigan or have to pay into their 
local communities, and now those three are now suing the State 
of Michigan because of the lottery/Keno gambling plan that was 
put into effect that constitutes statewide gambling, and so 
soon we will have no Native American casinos contributing to 
the state at all.
    So what was considered to be an asset by some now becomes a 
liability to all.
    In August of 2001, the Gun Lake Tribe filed plans to build 
a Class III casino in Allegan County in my district. Grand 
Rapids commissioned an independent study by the Anderson Group 
which you have, and in that study interestingly enough it found 
that two jobs were lost for every one job that was created, and 
that found that there would be a net loss of 800 million, 
affecting not only Allegan County but all the counties that 
surround Allegan County.
    We wanted to slow down this process and get a full 
understanding of the consequences. IGRA has not allowed us to 
do this. It has ignored the voters in the state and the local 
officials. Only one municipality out of 34 in my county is 
supportive of the Gun Lake Tribe coming in officially.
    The fact that I am testifying here before you today 
basically is the testimony of the sentiment of the people in my 
county because there were options. When I ran in 2002, there 
was 11,000 signatures collected on a petition against the 
casino. However, they couldn't even collect 1,000 supporting 
it, and that was in 2002. The majority of those signatures came 
from Allegan County, but there were some input from around us 
as well.
    Almost all of West Michigan officials oppose it, as do the 
majority of Michigan Federal officials. The Detroit casinos who 
we voted somewhat 10 years ago to put into effect, we have 
referred to that vote a number of times, they have had their 
time there, but now in 2004, we also had a vote, Proposal 1, 
which was against any more expansion of gambling in our state 
and 64 percent of the people voted they didn't want any more.
    The State Senate rescinded its previous support of the 
casino. The house refused to take it up, or will follow the 
lead in the senate. The survey recently showed that 85 percent 
say 23 casinos are enough and 64 percent oppose the Gun Lake 
casino. The people of Allegan County don't want the casino. Yet 
it seems to be being shoved down our throats.
    Less than half of the states have Native American casinos, 
thus it doesn't seem to be what I can see to be mandatory, and 
to my knowledge I know of no state that has ever been forced by 
the Federal government to have one. These facts should 
influence the decision in Washington but they have not.
    Something is wrong when out-of-state interests like Station 
Casino can override the voters and state officials. In my 
county, the current homebuilder association director was for a 
time the director of tourism in Las Vegas. He then went from 
the tourism in Las Vegas to go to Mount Pleasant and became the 
tourism director there. At that point in time he talked to the 
very same people and he knew them all by name that he talked to 
in Las Vegas.
    These Michigan details, I think, show a need for a 
moratorium. The current laws are not working. How can the 
government in good faith allow a single new tribal gaming 
development to go forward?
    Current and future casinos don't want IGRA opened because 
after almost 20 years the people don't like the results. I urge 
you to consider the following sets of specific reforms:
    Mandatory requirement of a comprehensive, regional 
Economic, Environmental and Social Impact Statement for all 
land-in-trust applications;
    Mandatory reporting and full disclosure of financial and 
legal records of non-tribal casino management companies;
    Local government, state, legislative, and gubernatorial 
approval for land-in-trust;
    Local and statewide voter approval for any land-in-trust 
application for the purposes of a Class III casino gambling 
license;
    Clarification of Class II gaming to eliminate abuses and 
loopholes in electronic bingo games;
    And I reiterate my plea for a moratorium and a reform to 
take care of this problem before more jobs are lost and more 
families are put at risk.
    Thank you.
    [The prepared statement of Mr. Sheen follows:]

    Statement of The Honorable Fulton Sheen, State Representative, 
                           State of Michigan

    Good morning. Thank you Chairman Pombo and members of the House 
Committee on Resources for the opportunity to testify today.
    My name is Fulton Sheen and I'm the State Representative from 
Michigan's 88th District. This district is largely rural, and contains 
the land that has been slated for casino development by the Gun Lake 
Tribe. I have served in the Michigan State Legislature since 2003, and 
held the position of Allegan County Treasurer prior to taking state 
office. Since this casino was proposed some five years ago, my position 
as an elected official as well as my deep ties to Allegan County have 
caused me to spend a great deal of time and effort studying the issue 
of tribal gaming and realizing the deep need for IGRA reform.
    I want to commend the chairman and members of this committee for 
their leadership and foresight in tackling this issue that has been 
ignored for far too long. The rampant proliferation of tribal gaming is 
running roughshod over states' rights and local control and is 
jeopardizing everything from my own neighborhood to, as the Jack 
Abramoff scandal has demonstrated, the very integrity of our federal 
political system.
    In 1988, Congress passed the Indian Gaming Regulatory Act 
(``IGRA'') in an effort to control the development of Native American 
casinos, and, in particular, to make sure that the States had a 
meaningful role in the development of any casinos within their borders. 
At that time, Native American gambling accounted for less than 1% of 
the nation's gambling industry, grossing approximately $100 million in 
revenue.
    Since that time, the Native American casino business has exploded 
into an 18.5 billion dollar industry that controls 25% of gaming 
industry revenue, with no end in sight. Despite this unbridled growth, 
IGRA and the land-in-trust process remains basically unchanged, and the 
body charged with oversight of this industry, the National Indian 
Gaming Commission (``NIGC'') limps along with 78 employees and an 
annual budget of $10.5 million. In contrast, the State of Nevada runs 
its oversight agency with 439 employees and an annual budget of $36.4 
million.
    While I wholeheartedly agree that ``reservation shopping'' is an 
activity that must be stopped, it is just one tiny component of the 
full legislative overhaul that is needed. My message to you today is 
that IGRA and its associated land in trust process is outdated, broken, 
open to manipulation by special interests and in desperate need of 
immediate reform. It has unfairly and inappropriately fostered an 
industry that creates enormous wealth for a few select individuals and 
Las Vegas interests at the expense of taxpaying families, small 
businesses, manufacturing jobs, and local governments. My plea to you 
is that you study these issues in depth, and that you impose an 
immediate two-year moratorium on any further casino expansion pending 
the results of your study, as suggested by Michigan Congressman Mike 
Rogers. Twenty-three casinos in Michigan is more than enough, and so is 
the $18.5 billion this nation already spends in American Indian 
casinos. Congress needs to get its arms around this while it still can.
    In my home state of Michigan, we are in the midst of a fiscal and 
job crisis. While tribal casinos are booming, our state economy lags 
among one of the worst in the nation. Michigan has been among one of 
the hardest hit states in the nation due to new global market forces, 
outsourcing of jobs, and skyrocketing labor and health care costs.
    Michigan ranks among the top in the nation with the most number of 
casinos, with 20 existing facilities (17 tribal, 3 non-tribal) and 
three approved tribal facilities for a total of 23 casinos. 
Unfortunately, Michigan also ranks top in the nation for our 
unemployment rate, with manufacturing job losses in Michigan alone 
accounting for approximately 25% of our nation's lost manufacturing 
base. Discretionary spending is down, bankruptcies are up, and several 
cities, including Detroit, are on the verge of receivership.
    Casino proliferation is bound to make the economic picture even 
worse for Michigan. Our research shows that Michigan has reached a 
saturation point in casino gambling and any jobs and money tied to new 
tribal gaming will only displace jobs and consumer spending that would 
otherwise occur in traditional taxpaying entertainment-related 
industries. In other words, further casino development will not add 
jobs and value to the Michigan economy. Rather, it will shift jobs and 
money from existing taxpaying businesses to tribal operation that do 
not pay state or local taxes.
    Our research also shows that while local and state governments 
receive some revenue sharing percentages from tribal gaming, the 
dollars pale in comparison to the overall new costs to government and 
social service agencies from increased infrastructure demands, traffic, 
bankruptcies, crime, divorce, and general gambling-related ills.
    The bright lights, big numbers, and empty promises of casino 
gambling have blinded too many local and state governments. In Detroit, 
the three proposed casinos were hailed as new economic engines that 
would revitalize the downtown area with new jobs, new buildings, and 
spin-off entertainment businesses. They promised new hotels, new 
restaurants, new entertainment, and more tourists from outside of the 
area. Five years since the casinos opened, the promises remain empty or 
broken.
    According to a recent Detroit Free Press article, ``beyond the 
casinos walls, little spin-off is evident.'' The Michigan Restaurant 
Association reported that there has been little to no new restaurants 
and many restaurants that were on the brink have shut down. Analysis 
also reveals that an overwhelming majority of the dollars spent in 
Detroit casinos are siphoned from individuals located within a 50-mile 
radius. Bankruptcy has doubled, crime has risen, and the city is 
running a $1.2 million budget deficit on police, fire, and gambling-
related services, even after receiving their revenue sharing payments.
    Uncontrolled proliferation of casino gambling will also threaten 
the investments that we have made in Michigan to transform ourselves in 
the wake of manufacturing losses. We are cultivating innovative 
economic development opportunities in the areas of life sciences, 
advanced manufacturing, and information technology. We are also 
investing billions to revitalize our core cities with new and improved 
arts, cultural, and entertainment related activities to curb sprawl and 
draw in more tourist, homeowners, businesses, and tax revenue. In Grand 
Rapids alone, more than $1 billion in public and private investments 
has been spent in the last two decades to revitalize our core city. The 
proliferation of casino gambling threatens to suck jobs and dollars 
away from these emerging economic development efforts.
    I am presenting you with these Michigan-specific details because I 
believe it demonstrates the urgent need for you to act swiftly and 
decisively to impose a two-year moratorium, to study the issues 
thoroughly, and then to craft a new solution that takes into account 
the new realities of the Native American gambling business as it exists 
today. The existing laws and regulatory tools are not working. We 
cannot afford to let casinos proliferate while this study goes on 
because the costs will be too high.
    In August 2001, the Match-E-Be-Nash-She-Wish Band or Gun Lake Tribe 
of Pottawatomi Indians filed an application to put 10 parcels of land 
into federal trust with the Bureau of Indian Affairs and released plans 
to build a 180,000 square foot Class III casino with 2,500 slot 
machines, 75 game tables, a hotel, convention center, golf course, 
specialty restaurants, and entertainment facilities in Allegan County, 
which is my district, between the core cities of Grand Rapids and 
Kalamazoo. The casino would operate around the clock.
    Following this announcement, myself along with a group of concerned 
community leaders turned to the Grand Rapids Area Chamber of Commerce 
with questions about the impact the proposed Gun Lake casino would have 
on the region. The Chamber commissioned the Anderson Economic Group to 
conduct an independent economic impact study to assess the impact of 
the proposed tribal casino in Allegan County.
    The economic impact study revealed that for every one job created 
by the casino, more than two jobs would be lost in the surrounding 
counties. The study also found that the surrounding counties of 
Kalamazoo, Kent, Ottawa, and Barry would suffer an economic hemorrhage 
of more than $880 million lost over 10 years. The net economic loss to 
the entire region significantly outweighs the modest localized gains in 
the immediate area around the casino.
    The independent economic research underscored what similar studies 
have found. Unlike the destination casinos in Las Vegas, most casinos 
in places like Michigan do not generate new dollars or new jobs; rather 
they siphon off jobs, money, and economic vitality from surrounding 
communities in a 50-mile radius and increase costs to government and 
social service agencies. In fact, the vast majority of casino revenues 
come from the surrounding communities. Almost all of those dollars 
would have been spent in other local, taxpaying businesses in the 
absence of the casino.
    As this Committee knows, any major new federal project--and that is 
what this casino will be if the federal trust process goes forward--
must complete an Environmental Impact Statement (``EIS''). The only way 
a project can avoid this requirement of the law is by demonstrating 
that there is no conceivable way in which the project will have a 
significant impact on the host community. The Bureau of Indian Affairs 
made this finding for the Gun Lake project--erroneously in our view--in 
early 2003.
    On February 10, 2003, the Grand Rapids Chamber objected to the 
finding and to the Environmental Assessment that supposedly supported 
it. At a minimum, the Chamber urged the BIA to complete a full scale 
EIS for the project. Incidentally, a tribe promoting a casino project 
in Battle Creek, about 70 miles or so from the Gun Lake project, is now 
completing a full scale EIS after a Judge Penfield Jackson here in 
Washington rejected the Environmental Assessment the BIA had relied 
upon to evade the EIS requirement in that case. But at Gun Lake, the 
BIA persisted in its refusal to proceed with an EIS for the Gun Lake 
project and published its decision to proceed with a trust acquisition 
for the Gun Lake tribe.
    The Gun Lake Tribe's environmental assessment was an incomplete and 
inaccurate reflection of the regional economic, environmental, and 
social impacts associated with the proposed casino. The Tribe's study 
took a cookie-cutter approach to a very complex issue, basically 
stating that this proposed government-subsidized development would have 
no negative impact on the surrounding community and would result in the 
creation of 4,500 jobs.
    Of course, the BIA-approved study did not consider the associated 
economic hemorrhage for the entire region, as shown by the Anderson 
study. It will now be necessary for citizens like me, who are 
determined to spare my community the negative effects of this casino 
project, to resort to litigation, as citizens have done elsewhere in my 
State and throughout this Country. I do not think this is what Congress 
had in mind when it adopted IGRA almost 20 years ago for a then-
struggling Native American casino industry.
    Unfortunately, IGRA and the rules pertaining to the Land-in-Trust 
process for casino site acquisitions do not require a comprehensive, 
regional environmental impact study and instead only require a pin-
point study of the proposed development. Nor does the process include a 
failsafe process for ensuring that the will of the citizens in the host 
community is carefully considered. Our polling demonstrates that over 
64% of the citizens in the region are opposed to the casino 
development. In fact, my State recently voted overwhelming 58%-42% to 
subject any new non-Indian casino gambling in the State to a vote of 
the people. And yet, we are now told by the BIA and others that this 
overwhelming voice of the citizenry--supported as it is by solid 
economic and social research--cannot be heard at all, and will have 
nothing to do with whether this project is rammed down the throat of an 
unwilling host community.
    This is not the way it should be, and I do not think this is what 
Congress had in mind when it passed IGRA. In fact, when Congress 
originally enacted IGRA, it provided that, as a general rule, casino 
gambling would not take place on newly acquired trust land. There were, 
of course, some exceptions, but the general rule was no casino gambling 
on new trust acquisitions. I believe Congress passed this general rule 
to prevent precisely what we see actually happening now: namely, a mad 
and largely unregulated land rush pushed by casino developers eager to 
cash in on a profitable revenue stream that is not burdened by the same 
tax rates or regulations that other businesses have to incur. Somewhere 
along the way, the good intentions of Congress have been hijacked, and 
it is time for this body to re-assert control over this process.
    Since 1988, Las Vegas investors and tribal casino owners have 
become wealthier, smarter, and better equipped with new technology and 
a barrage of lawyers and lobbyists to manipulate the federal gaming 
law. Casino stakeholders and special interests have started ``tribe-
shopping'' and existing tribal casinos have stretched the limits of the 
law with ``off-reservation casinos,'' something this committee has 
realized must be stopped. Casino stakeholders and tribal casino owners 
have manipulated the definition of Class II gaming by introducing slot-
machines that somehow supposedly meets the definition of Class II 
bingo-style gaming. When Congress approved the definition of Class II 
gaming in 1988, a bingo-hall meant a bingo-hall. They did not intended 
for slot machine like to pass as a bingo-machine without regulation or 
oversight from appropriate authorities, and without the approval of a 
valid state compact.
    Tribal leaders and their Las Vegas investors have also become 
brazen in their threats to open casinos with or without state approval. 
They have used ethically questionable promises of contracts, marketing, 
and charitable giving as a means to foster support. And, in the case of 
Gun Lake, threats to only use contractors that are members of the 
Kalamazoo Chamber vs. the Grand Rapids Chamber because one supported 
the project and one opposed it.
    As Senator John McCain recently stated in an AP story, ``he never 
envisioned the explosive growth'' triggered by the federal Indian 
gaming law. It is fair to assume that seventeen years ago, the other 
Members of Congress also likely did not foresee nor consider the 
potential negative regional impacts of tribal casinos. The current law 
reflects an outdated form of thinking and rules that desperately need 
reform and updating to require a comprehensive and regional 
environmental, economic and social impact assessment for any and all 
land-in-trust applications.
    IGRA, as currently implemented by BIA, also ignores and ultimately 
disregards the will of the voters, the sentiment of state and local 
elected officials, state legislative action opposing a tribal casino 
development, and/or regional opposition to a proposed tribal casino 
project. Case in point is the proposed Gun Lake tribal casinos:
    First, every state and several of the federally elected official in 
West Michigan wrote to the BIA opposing Land-in-Trust for the proposed 
Gun Lake casino. I was deeply involved in these efforts and was amazed 
at the resounding unity expressed by my colleagues. However, the casino 
project is going forward.
    Second, Michigan voters established an overwhelming public mandate 
against the expansion of casinos in the state with 58% approval of 
Proposal 1, a constitutional amendment requiring a local and statewide 
vote of approval before any new non-tribal casino gambling will be 
allowed to operate. In Allegan County and the counties surrounding the 
proposed Gun Lake tribal casino, the margin of voter approval for 
Proposal 1 was even greater (Allegan County 64-36, Kent County 63-37, 
Kalamazoo 59-41, and Ottawa County 70-30). The project is going forward 
anyway.
    Third, in December 2004, the Michigan State Senate rescinded 
support for the Gun Lake tribal casino compact, citing voter sentiment 
in Proposal 1 and the Anderson Economic study results. The project is 
going forward anyway.
    Fourth, 23 is Enough just released an independent public opinion 
poll conducted by Harris Interactive, one of the nation's largest and 
most respected polling firms, to assess public support for the proposed 
Gun Lake casino.
    The results reveal strong opposition to the proposed Gun Lake 
casino among West Michigan voters in Kent, Kalamazoo, Ottawa, Allegan 
Counties. Most notably, 85% polled said 23 casinos are enough (47% too 
many casinos, 38% just enough casinos). 59% said Governor Jennifer 
Granholm should not negotiate a compact with the Gun Lake Tribe (59% 
not negotiate, 36% negotiate). 64% oppose Gun Lake casino after being 
informed about the positive and negative impacts (64% oppose, 33% 
support). Women 35+ years old are among the core group of opponents to 
the casino. The project is going forward anyway.
    These polling results, coupled with the overwhelming statewide 
voter approval of Proposal 1, action by the State Senate, and 
overwhelming opposition among state elected officials in West Michigan 
are considered meaningless and are disregarded in the Land-in-Trust 
application process. This is important and meaningful information that 
bears significant weight and demands consideration. This is not the way 
it should, nor the way it was intended to be.
    In summary, IGRA is broken, outdated, and after 17 years without 
review or updating, needs significant overhaul and reform. While I 
commend Chairman Pombo's initiative to remove ``reservation shopping,'' 
much more is needed. I urge this committee to take its reforms one step 
further by imposing a moratorium on all land-in-trust applications, 
including the Gun Lake Tribe's land acquisition, until a thorough 
debate and comprehensive review is conducted and IGRA is updated and 
reformed to address the following concerns:
    1.  Mandatory requirement of a comprehensive, regional Economic, 
Environmental, and Social Impact Statement for all Land-in-Trust 
applications. The Tribes should be required to account for and project 
the regional economic, social, and environmental impacts of a proposed 
casino. Indicators could include job creation/loss, business investment 
creation/loss, absenteeism, productivity, tardiness, bankruptcy rates, 
crime rates, divorce rates, abuse/neglect rates, and overall rate 
increase of problem/addicted gamblers.
    2.  Mandatory reporting and full disclosure of financial and legal 
records of non-tribal casino management companies. With a growing 
number of tribal casinos declaring bankruptcy and record level of fines 
for improper conduct being assessed to casino management companies, 
full disclosure should be mandatory on all financial and legal records 
and issues.
    3.  Local government, state legislative, and gubernatorial approval 
for land in trust. Congress should amend IGRA to require that a 
Governor must concur in all cases before state lands are put into trust 
for the purposes of gambling. There should also be a provision that 
requires the support of the state legislature and affected local units 
of government before land is removed from the tax rolls. Mechanisms 
such as this will go a long way to restoring the general rule Congress 
established in 1988 against casino gambling on newly acquired trust 
land.
    4.  Local and statewide voter approval of any Land-in-Trust 
application for the purposes of Class III casino gambling. In Michigan, 
precedent was first set in the local and statewide vote on the Detroit 
casinos, and then in 2004, Michigan voters established a public mandate 
by requiring a local and statewide for any casino-style expansion. 
Tribal casinos were exempt because of federal constitutionality issues. 
The federal law should follow Michigan's lead and apply the same voter 
approval standards to tribal casinos.
    5.  Clarification of Class II gaming to eliminate abuses and 
loopholes for ``electronic bingo games''. In order to get around the 
compact requirements of IGRA, many tribes and their non-Indian sponsors 
have turned to ``gray games'' to open or expand a casino. Class II 
gaming allows bingo to be played on tribal lands even without a state-
tribal compact. Slot machines, however, are a Class III device and 
require a compact. Manufacturers of slot machines have now created 
electronic bingo games that look and feel like a slot machine, but that 
the gambling industry is trying to pass off as allowable Class II 
bingo. The Class II loophole has created a difficult situation for 
states either trying to halt the expansion of casinos or regulate them 
in a responsible manner. I recognize that the NIGC is trying to address 
this problem, but frankly it cannot wait. NIGC does not have the 
resources to reign in this problem. Indeed, it lacks the resources to 
effectively regulate an expanding $18.5 billion industry, much less 
take on this added regulatory burden. Congress needs to re-assert its 
express intent to forbid slot machines of any kind--whether tagged with 
a ``bingo'' name or not--in the absence of a valid state compact
    In closing, I reiterate my plea to you to study these issues in 
depth, and urge you to take immediate action and impose a moratorium on 
any further casino expansion pending the results of your study. It is 
imperative that Congress takes swift and decisive steps today to get 
its arms around this issue before more jobs are lost and more families 
are put at risk.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Osmond.

         STATEMENT OF THE HONORABLE JO ANN D. OSMOND, 
            STATE REPRESENTATIVE, STATE OF ILLINOIS

    Ms. Osmond. Good afternoon, Mr. Chairman and members of the 
Committee. I wish to thank you for allowing me to appear before 
you on the matter of the Wisconsin, Kenosha casino, and its 
potential impact on Lake County, Illinois.
    I am Jo Ann Osmond. I am the Illinois State Representative 
for the 61st District. The 61st District has Lake Michigan 
boundary on the east and the State of Wisconsin on the north. 
Several towns in my district are within a six-mile radius of 
the Kenosha casino. The 61st District is part of Lake County, 
an urbanized county of 665,000 residents just north of Chicago.
    The Federal Indian Gaming Regulatory Act requires that the 
Secretary of the Interior consult with appropriate state and 
local officials in order to determine whether a tribal casino 
on newly acquired land would not be detrimental to the 
surrounding communities. The Bureau of Indian Affairs' 
checklist for gaming-related acquisitions specify that 
communities within 10 miles of the proposed casino are part of 
the surrounding community, and must be consulted.
    This 10-mile radius includes the northeastern part of the 
61st District. It includes the towns of Zion and Winthrop 
Harbor. This 10-mile radius is too small when you consider the 
impact of the massive casino. Most casinos consider their 
marketing area to be within an hour's drive of the casino and 
the environmental impact statement required for the Indian 
casinos consider economic markets as far away as 75 to 100 
miles.
    Indeed, according to the Kenosha's own plan, approximately 
71 percent of the revenue projected from the casino and 62 
percent of the customers will come from outside the Kenosha 
area, most of which will come from northern Illinois. Despite 
this overwhelming evidence suggesting that most of the casino's 
impacts will come from northern Illinois and despite the fact 
that my district lies within the BIA's 10-mile radius, the 
Kenosha draft EIS makes only a small reference to it in over 
its 100 pages of reference.
    As to consulting, none of the towns in my district within 
the 10-mile radius of the casino were consulted by the BIA. 
Lake County, which has repeatedly written to the BIA expressing 
its concerns, was also ignored by the BIA.
    Since the BIA would not hold a hearing in Illinois, would 
not study or consider northern Illinois impacts, I held a 
hearing on March 6th and invited the BIA to attend. They did 
not, but did say that they would accept the comments as part of 
the record.
    At the hearing on March 6th, a representative from 
Congresswoman Melissa Bean's office was present, and made 
testimony. Letters expressing serious concern from the proposed 
casino were read into the record from State Representative Mark 
Beaubien, 52nd; Ed Sullivan, 51st; Kathy Ryg, 59th, Robert 
Churchill, 62nd. All are elected Lake County representatives.
    Over the last seven years, 16 letters from elected public 
officials have been written to the BIA raising concerns about 
the project, and I have copies of them if you wish to put them 
into your record.
    The Menominee Tribe of Wisconsin wants approval of 223 
acres in Kenosha, Wisconsin, to Indian lands. The Menominee 
Tribe Reservation is 200 miles from Kenosha. The tribe, in 
partnership with the Kenosha businessmen, who was part of the 
first failed attempt to build a Kenosha casino, and the Mohegan 
Tribe of Connecticut, want to build an $808 million casino, 
giving 3,100 positions, casino-hotel entertainment project. The 
Mohegan Tribe has been hired to run the casino.
    When completed, this project will be the largest in the 
Midwest, and will rival the size of Las Vegas' largest casinos.
    First, the problem that was identified in the meetings 
where the Menominee Tribe estimates that the facility will 
offer 5,000 jobs. The jobs will be given, in priority, to 
Kenosha, Racine, and Milwaukee Counties, next to all other 
residents of Wisconsin. There is no mention of Illinois in any 
of their plans.
    Illinois, once again, would be denied the jobs. They would 
have the benefits.
    The environment, there is 3 million visitors from my 
district traveling through the district to the casino. Both 
Lake County and Kenosha Counties are non-attained areas for 
ozone. What happens to the ozone level when these people begin 
to drive through my district?
    Then there is the traffic congestion, which is a huge 
problem. Lake County politicians are more identified as being 
pro- or 
anti-growth than Democrats or Republicans, with an estimated 3 
million visitors to the Kenosha casino annually from the south 
anticipated, this is a very big problem. Illinois taxpayers are 
expected to carry the burden for road repairs, traffic 
management, police, and first responders without any support 
from this casino.
    I know I am out of time so I am trying to go to my final 
statement. I apologize.
    Our local services, social services will also have the 
burden.
    My fellow representative, Mark Beaubien, has repeatedly 
made a point that the Menominee are trying to locate a casino 
in an area outside of the traditional and historic homeland. 
This doesn't make sense to me. If a tribe can locate casinos 
outside their traditional homelands, then can they locate 
casinos anywhere, including casinos in our largest city, 
Chicago, New York, Miami?
    Finally, I worry about the Indian casinos coming to 
Illinois. Several tribes like the Ho-Chunk and the Prairie Band 
Potawatomi have tried to put casinos in Illinois. We really 
have a well regulated commercial gaming industry and do not 
need poorly regulated, huge Indian casinos coming from out of 
state.
    In closing, I understanding, Mr. Chairman, that your casino 
bill, H.R. 4893, addresses the problems that we have in 
Illinois, and with the Indian casinos. Further, unlike Senator 
McCain's legislation, it would not grandfather in flawed 
sitting process we have experienced in Illinois.
    On behalf of my constituents, I wish to thank you in 
allowing me to speak today.
    [The prepared statement of Ms. Osmond follows:]

    Statement of The Honorable JoAnn Osmond, State Representative, 
                    61st District, State of Illinois

    Good morning Mr. Chairman and members of this committee. I wish to 
thank you for allowing me to appear before you on the matter of the 
Wisconsin, Kenosha casino and its potential impact on Lake County, 
Illinois. I am Jo Ann Osmond, Illinois State Representative for the 
61st District. The 61st District has Lake Michigan boundary on the east 
and the State of Wisconsin on the North. Several towns in my district 
are within 6 miles of the Kenosha casino. The 61st district is part of 
Lake County, an urbanized county of 665,000 just north of Chicago.
    The federal Indian Gaming Regulatory Act requires that the 
Secretary of the Interior consult with ``appropriate state and local 
officials'' in order to determine whether a tribal casino on newly 
acquired land ``would not be detrimental to the surrounding 
community''.
    The Bureau of Indian Affairs' Checklist for Gaming Related 
Acquisitions specifies that communities within 10 miles of a proposed 
casino are part of the surrounding community and must be consulted. 
This 10-mile radius includes the northeastern part of the 61st 
District, including the towns of Zion and Winthrop Harbor. This 10 mile 
area of impact seems very small to me when you are considering the 
impact of a massive casino. Most casinos consider their marketing area 
to be within an hour's drive of a casino and the Environmental Impact 
Statement required for Indian casinos considers economic markets as far 
away as 75-100 miles. Indeed, according to Kenosha's own study, 
approximately 71% of the business projected from the casino and 62% of 
the customers will come from outside the Kenosha area, most of which 
will come from Northern Illinois. Despite this overwhelming evidence 
suggesting that most of the casino's impacts will come from Northern 
Illinois and despite the fact that my district lies within the BIA's 10 
mile radius, the Kenosha Draft EIS makes only an off hand reference to 
Illinois on one of its hundreds of pages. As to consultation, none of 
the towns in my district within 10 miles of the casino were consulted 
by the BIA. Lake County, which has repeatedly written the BIA 
expressing its concern, was also ignored by the BIA. Since the BIA 
would not hold a hearing in Illinois and would not study or consider 
Northern Illinois impacts, I held a hearing on March 6 and invited the 
BIA to attend. The BIA did not attend the meeting, but did say they 
would make the comments part of the record. The hearing transcript and 
all the exhibits were then submitted to the BIA for the record.
    At the hearing on March 6th, a representative from Congresswomen 
Melissa Bean's office was present. Letters expressing serious concerns 
with the proposed casino were read into the record from State 
Representative Mark Beaubien -52nd District, State Representative Ed 
Sullivan -51st District, State Representative Kathy Ryg-59th District 
and State Representative Robert Churchill-62nd District. All are Lake 
County representatives. Over the last 7 years, 16 letters from elected 
public officials have been written to the BIA raising concerns about 
this project. Among those writing have been Congressman Mark Kirk, 
Former Congressman Phil Crane, Congresswoman Melissa Bean and Lake 
County Board Chairman Suzi Schmidt.
    The Menominee Tribe of Wisconsin wants approval to change 223 acres 
in Kenosha, Wisconsin, to Indian lands. The Menominee Tribe's 
Reservation is 200 miles from Kenosha. The Tribe, in partnership with a 
Kenosha businessman, who was part of a first failed attempt to build a 
Kenosha Casino, and the Mohegan Tribe of Connecticut, want to build an 
$808 million, 3100 position casino-hotel entertainment project. The 
Mohegan Tribe has been hired to run the casino. When completed, this 
project will be the largest in the Midwest and will rival the size of 
Las Vegas' largest casinos. Through our public hearing and comment 
process, we have identified a number of concerns. First, there are 
jobs. The Menominee Tribe estimates that when the facilities are fully 
up and running that approximately 5,000 people directly and indirectly 
could be employed. As part of the Tribe's intergovernmental agreement, 
80 percent of the facility's workforce must come from Kenosha, Racine 
and Milwaukee counties. The agreement, which has been adopted by the 
Menominee Legislature and the tribe's Kenosha Gaming Authority, gives 
first preference to Kenosha County Residents, followed by Racine and 
Milwaukee counties. Fourth preference will go to Wisconsin residents 
outside of those three counties. No consideration will be given for 
Illinois Residents which are just 6 miles away.
    According to comments made by former Menominee Chairman Michael 
Chapman to the Kenosha News:
        ``The tribe's commitment is to Kenosha and southeastern 
        Wisconsin. It was never the tribe's intent to employ an 
        Illinois resident-dominated workforce. The tribe will also work 
        with potential retail and commercial leaseholders to encourage 
        them to do the same.''
    In short, we provide the casino revenues, Wisconsin keeps all the 
jobs.
    Next, there is the environment, which does not respect state 
borders. The problem here is 3 million visitors from my district and 
traveling through my district to reach the casino. Both Lake County and 
Kenosha County are non attainment areas for ozone. What happens to the 
ozone level when all these people begin driving to the new casino?
    The National Environmental Policy Act establishes procedures for 
Federal agencies to follow to ``insure that environmental information 
is available to public officials and citizens before decisions are made 
and before actions are taken''. The combination of these two federal 
laws requires that the Department of the Interior investigate and 
disclose to Illinois citizens and local governments exactly how this 
$808 million casino project, expected to attract 4.9 million visitors 
annually, will impact Illinois and its environment. Yet, our worsening 
ozone problem has been ignored by the BIA in the Draft EIS.
    Then there is the traffic and congestion, which is such a huge 
problem Lake County politicians are more identified as being pro or 
anti growth than they are Democrats or Republicans. With an estimated 3 
million visitors to the Kenosha casino annually coming from south of 
the casino site, one can imagine what impact that the traffic is going 
to have on Lake County's already clogged major arteries into Wisconsin, 
including Hwy 41, Sheridan and Green Bay roads. Illinois taxpayers will 
be expected to carry the burden for road repairs, traffic management, 
police and first responders without any support from the casino. Yet, 
the BIA doesn't even bother to examine or consider these problems.
    Then there is drinking and driving. Prior to the standardization of 
the drinking age in both Illinois and Wisconsin at the age of 21, the 
townships of Illinois just south of the Wisconsin state line were known 
to professionals as the ``Blood Border''. In January 1980, legislation 
signed by former Gov. James R. Thompson(R-IL) increased the drinking 
age in Illinois from 18 to 21. Wisconsin, however, refused to 
voluntarily enact a parallel law until September 1986. For more than 6 
1/2 years, from January 1980 until September 1986, the minimum legal 
drinking age was 21 in Illinois but only 18 in Wisconsin. This 
irrational disparity in these two laws gave thirsty young Illinoisans a 
lethal incentive to try to go north to Wisconsin, drink and drive home 
while intoxicated. Victims of the ``Blood Border'' included young 
adults southward after a night of drinking in Wisconsin bars and 
taverns just across the state line. The Alliance Against Intoxicated 
Motorists counted 65 separate victims of ``Blood Border'' in the early 
1980's. My late husband, Tim Osmond, was a volunteer paramedic with the 
Antioch Rescue Squad who spent many Friday and Saturday evenings in the 
Squad building waiting for the siren calling them to the scene of 
another accident. In those days drinking seemed to be the main factor. 
You are no doubt asking why I am bringing this up for your 
consideration. The estimation of the amount of traffic coming thru the 
61st district can only bring to mind how will the district cope with 
traffic control, accidents and the need of paramedics? Some Casino 
goers, like the young driver many years ago, will enjoy their gaming 
too much and head home drunk thru the 61st District. Then, we will have 
the blood border once again.
    Finally, there is the increased need for Illinois social services 
for our problem gamblers frequenting the new casino. The Kenosha casino 
is going to provide this support to Kenosha residents but will not give 
any support to Illinois governments. Our own local social service 
agencies, which are already being asked to do more with fewer 
resources, will be charged with picking up the pieces for any number of 
Illinois residents and their families that may be negatively impacted 
by compulsive gambling. Illinois also has a self-exclusion list for 
problem gamblers that bars these individuals from betting at any of our 
nine casinos and those in northern Indiana. The mega casino being 
planned in Kenosha may be too close and too tempting for those 
individuals on the self-exclusion list. There are no efforts being made 
to screen or recognize known problem gamblers crossing state lines.
    While I think of all the difficulties this proposed casino will 
cause for my district and the problems I have had being heard by the 
BIA, I was alarmed to learn that this project would be grandfathered 
under Senate Bill S. 2078 which just passed out of the Indian Affairs 
Committee. How can you grandfather a proposal, which excludes local 
input and ignores local community impacts? This Kenosha Casino project, 
which has been pursued for 7 years, is the poster child for how not to 
site a casino.
    Then there are all the press reports alleging organized crime ties 
for the first group of Kenosha Casino developers. While most of these 
first developers are no longer part of the project, others still 
remain. I worry that the procedures which allowed the first developers 
to be a part of this project will be inadequate to protect my 
constituents from being exposed to criminal elements.
    Also, my fellow representative Mark Beaubien has repeatedly made 
the point that the Menominee are trying to locate a casino in an area 
outside their traditional or historic homeland. This doesn't make any 
sense to me. If tribes can locate casinos outside their traditional 
homelands, they can locate casinos anywhere including casinos in our 
largest cities like Chicago, New York or Miami.
    Finally, I worry about these Indian Casinos coming into Illinois. 
Several tribes like the Ho-Chunk and the Prairie Band Potawatomi have 
tried to put casinos in Illinois. We already have a well regulated 
Commercial gaming industry and do not need poorly regulated, huge 
Indian casinos coming from out of state.
    In closing, I understand Mr. Chairman that your Casino reform bill, 
HR 4893 addresses the problems we have had in Illinois with Indian 
Casinos. Further, unlike Senator McCain's legislation, it would not 
Grandfather in the flawed sitting process we have experienced in 
Illinois. On behalf of my constituents, I thank you for pursuing the 
right kind of reform legislation and for holding this hearing.
                                 ______
                                 
    [NOTE: Letters submitted for the record by Representative 
Osmond have been retained in the Committee's official files.]
    The Chairman. Thank you.
    Mr. Worthley.

  STATEMENT OF STEVEN WORTHLEY, TULARE COUNTY MEMBER, INDIAN 
 GAMING WORKING GROUP, CALIFORNIA STATE ASSOCIATION OF COUNTIES

    Mr. Worthley. Thank you. On behalf of the California State 
Association of Counties, I would like to thank Chairman Pombo, 
Ranking Member Rahall, and the other Distinguished Members of 
the Committee on Resources for providing us with the 
opportunity to submit testimony on H.R. 4893.
    Chairman Pombo, I also would like to thank you for your 
considerable outreach to CSAC throughout the development of 
this important legislation.
    I am Steven Worthley, 4th District Supervisor for Tulare 
County. I want to disclose I am not a member of the CSAC Indian 
Gaming Working Group, but I am very happy to pinch hit for them 
today. I am in my second term of office, and I am here 
representing the entire CSAC represented body.
    CSAC is the single unified voice speaking on behalf of all 
58 California counties and the issues raised in this hearing 
and addressed by this legislation has a direct and unique 
bearing on counties, more so than any other jurisdiction of 
local government.
    Because of this, CSAC had devoted considerable staff time 
and financial resources to address the impacts of Indian gaming 
on county services and affected communities.
    CSAC's approach to the issue of Indian gaming is simple: To 
work on a government-to-government basis with gaming tribes who 
have followed the provisions of IGRA and to seek a mechanism 
that allows local governments to work with tribes to mitigate 
any off-reservation impacts from proposed casinos.
    Examples of our approach are numerous in California where 
comprehensive agreements between tribes and counties, each 
addressing the unique concerns of the tribe and the community, 
have been negotiated in the past few years.
    I want to quickly mention the model for negotiation between 
local government and tribes provided by the most recent state 
tribal compacts negotiated by the Schwarzenegger 
Administration. The result of this model has been improved 
government-to-government relationships and the successful 
incorporation of major gaming facilities into counties and 
communities.
    Now to comments specific to H.R. 4893. Chairman Pombo, CSAC 
is pleased to support your off-reservation gaming legislation 
which includes provisions that would require tribes seeking to 
acquire trust land for purpose of gaming to negotiate 
judicially enforceable mitigation agreements with counties as a 
condition to having trust land acquisitions approved by the 
Department of Interior.
    This provision largely addresses the overriding principal 
supported by CSAC in its tribal lands policy. Please note that 
CSAC recommends that the language of H.R. 4893 be modified to 
further clarify the legislation's meaning of ``direct effects 
of the tribal gaming activities on the affected county or 
parish infrastructure and services.''
    We recommend that the definition of infrastructure and 
services include but not be limited to infrastructure 
maintenance and improvements, health and welfare service, law 
enforcement and emergency services, and environmental services 
such as air quality, watershed management and erosion control. 
Enumerating the specific costs and services impacts would help 
to ensure that sound mitigation agreements are developed 
between county and tribal governments.
    In addition to the mitigation agreement requirements of 
H.R. 4893, CSAC is supportive of provisions of the Pombo bill 
that would require more extensive oversight with respect to 
casino proposals for newly recognized landless tribes. While we 
support giving local communities a seat at the table to decide 
whether or not a casino should be located in a particular area, 
CSAC supports giving county boards of supervisors, which 
represent all county residents, the right to consent to gaming-
related trust acquisitions.
    A countywide advisory referendum as called for in the bill 
represents a prudent step in gauging a community support or 
opposition to a particular gaming proposal. However, CSAC 
believes that a vote by elected county boards of supervisors 
represents an equally critical component in the process of 
determining the viability and suitability of a casino proposal.
    Because counties would ultimately be responsible for 
negotiating mitigation agreements with tribes under H.R. 4893, 
CSAC urges you to consider modifying the legislation to allow 
county or parish-elected bodies to have the right to concur 
with the Department of Interior's prescribed determinations.
    With regard to the bill's tribal gaming consolidation 
proposal, CSAC is supportive of the legislation's language that 
would require all consulting gaming operations to take place on 
already existing reservation lands deemed suitable for such 
operations in accordance with IGRA.
    CSAC also believes that there is an opportunity to clarify 
H.R. 4893 to ensure that tribes that are allowed to consolidate 
gaming operations are required to negotiate judicially 
enforceable agreements with the affected county for the 
mitigation of all off-reservation impacts, and that such 
agreements must be reached each time tribes agree to 
consolidate gaming operations.
    In conclusion, CSAC is pleased to support H.R. 4893 which 
represents a significant improvement over the provisions of 
current law. Additionally, CSAC believes that with necessary 
and appropriate revisions, such as enumerating services and 
cost impacts of mitigation agreements, as well as allowing 
county boards of supervisors to determine the viability and 
suitability of a casino proposal, H.R. 4893 would further the 
original goals of IGRA while also helping to minimize the 
abuses that have proven to be detrimental to those tribes in 
full compliance with applicable Federal laws.
    I want to thank again Chairman Pombo and members of the 
Committee for their prolonged attention to this important 
issue. CSAC looks forward to working with you to ensure the 
best possible outcome for tribal governments and those 
communities affected by Indian gaming. Thank you.
    [The prepared statement of Mr. Worthley follows:]

 Statement of Steven Worthley, Supervisor, Tulare County, and Member, 
 Indian Gaming Working Group, California State Association of Counties

    On behalf of the California State Association of Counties (CSAC) I 
would like to thank Chairman Pombo, Ranking Member Rahall, and the 
other distinguished members of the Committee of Resources for giving us 
this opportunity to submit testimony as part of the hearing to consider 
Chairman Pombo's legislation (HR 4893) to restrict off-reservation 
gaming. I am Steven Worthley, District 4 Supervisor for Tulare County 
and a member of the CSAC Indian Gaming Working Group.
    CSAC is the single, unified voice speaking on behalf of all 58 
California counties. The issue raised in this hearing, and those 
addressed by H.R. 4893, have direct and unique bearing on counties, 
more so than any other jurisdiction of local government.
    There are two key reasons off-reservation gaming is of heightened 
importance for California counties. First, counties are legally 
responsible to provide a broad scope of vital services for all members 
of their communities. Second, throughout the State of California and 
the nation, tribal gaming has rapidly expanded, creating a myriad of 
economic, social, environmental, health, safety, and other impacts. The 
facts clearly show that the mitigation and costs of such impacts 
increasingly fall upon county government.
    For the past three years, CSAC has devoted considerable staff time 
and financial resources to the impacts on county services resulting 
from Indian gaming. We believe that California counties and CSAC have 
developed an expertise in this area that may be of benefit to this 
Committee as it considers amendments to the Indian Gaming Regulatory 
Act.

Introduction:
    At the outset, the California State Association of Counties (CSAC) 
reaffirms its absolute respect for the authority granted to federally 
recognized tribes. CSAC also reaffirms its support for the right of 
Indian tribes to self-governance and its recognition of the need for 
tribes to preserve their tribal heritage and to pursue economic self-
reliance.
    However, CSAC maintains that existing laws fail to address the off-
reservation impacts of tribal land development, particularly in those 
instances when local land use and health and safety regulations are not 
being fully observed by tribes in their commercial endeavors. As we all 
know, these reservation-based commercial endeavors attract large 
volumes of visitors.
    Every Californian, including all tribal members, depends upon 
county government for a broad range of critical services, from public 
safety and transportation, to waste management and disaster relief.
    California counties are responsible for nearly 700 programs, 
including the following:


                 ,--                                   ,

    sheriff                            elections & voter services
    jails                              public health
    roads & bridges                    flood control
    fire protection                    welfare
    indigent health                    family support
    probation                          child & adult protective services
    alcohol & drug abuse
 rehabilitation


    Most of these services are provided to residents both outside and 
inside city limits. Unlike the exercise of land use control, such 
programs as public health, welfare, and jail services are provided (and 
often mandated) regardless of whether a recipient resides within a city 
or in the unincorporated area of the county. These vital public 
services are delivered to California residents through their 58 
counties. It is no exaggeration to say that county government is 
essential to the quality of life for over 35 million Californians. No 
other form of local government so directly impacts the daily lives of 
all citizens. In addition, because county government has very little 
authority to independently raise taxes and increase revenues, the 
ability to adequately mitigate reservation commercial endeavors is 
critical, or all county services can be put at risk.
    CSAC fully recognizes the counties' legal responsibility to 
properly provide for and protect the health, safety, and general 
welfare of the members of their communities. California counties' 
efforts in this regard have been significantly impacted by the 
expansion of Indian gaming.
    Certainly compounding this problem is the fact that the expansion 
in gaming has led some tribes and their business partners to engage in 
a practice that is sometimes referred to as ``reservation shopping'' in 
an attempt to acquire land not historically tied to these tribes but 
which has considerable economic potential as a site for an Indian 
casino. CSAC opposes ``reservation shopping'' as counter to the 
purposes of the Indian Gaming Regulatory Act (IGRA). ``Reservation 
shopping'' is an affront to those tribes who have worked responsibly 
with local, state and federal authorities on a government-to-government 
basis in compliance with the spirit and intent of IGRA as a means of 
achieving economic self-reliance and preserving their tribal heritage.
    CSAC commends Chairman Pombo and the other Members of the House 
Resources Committee for seeking to curb the increasing practice of 
``reservation shopping.'' This written testimony is in support of H.R. 
4893, which would preserve the original goal of IGRA while minimizing 
the impacts of ``reservation shopping'' on local communities. CSAC 
offers its assistance to Chairman Pombo and the House Resources 
Committee as H.R. 4893 is advanced through the legislative process.

Background:
A. The Advent of Indian Gaming
    Even before the enactment of IGRA in 1988, California counties were 
experiencing impacts in rural areas from Indian gaming establishments. 
These early establishments were places where Indian bingo was the 
primary commercial enterprise in support of tribal economic self-
reliance. The impacts on local communities were not significant in 
large part because the facilities where Indian bingo was played were 
modest in size and did not attract large numbers of patrons. Following 
enactment of IGRA, the impacts to counties from Indian gaming 
establishments increased with the advent of larger gaming facilities. 
Even so, the impacts to local communities from these larger gaming 
facilities were generally manageable except in certain instances.
    Over the last six years, the rapid expansion of Indian gaming in 
California has had profound impacts beyond the boundaries of tribal 
lands. Since 1999 and the signing of Compacts with approximately 69 
tribes and the passage of Propositions 5 and 1A (legalizing Indian 
gaming in California), the vast majority of California's counties 
either have a casino, a tribe petitioning for federal recognition, or 
is the target or focus of a proposed casino plan. As the Committee is 
aware, many pending casino proposals relate to projects on land far 
from a tribe's ancestral territory.
    A 2004 CSAC survey reveals that 53 active gaming operations exist 
in 26 of California's 58 counties. Another 33 gaming operations are 
being proposed. As a result, 35 counties out of 58 in California have 
active or proposed gaming. Most important, of those 35 counties 
impacted by Indian gaming, there are 82 tribes in those counties but 
only 20 local agreements for mitigation of the off-reservation impacts 
on services that counties are required to provide.

B. Development of CSAC 2003 Policy
    In 1999, California Governor Gray Davis and approximately 65 tribes 
entered into Tribal-State Compacts, which permitted each of these 
tribes to engage in Class III gaming on their trust lands. The 
economic, social, environmental, health, safety, traffic, criminal 
justice, and other impacts from these casino-style gaming facilities on 
local communities were significant, especially because these gaming 
facilities were located in rural areas. The 1999 Compacts did not give 
counties an effective role in mitigating off-reservation impacts 
resulting from Indian casinos. Consequently, mitigation of these 
impacts could not be achieved without the willingness of individual 
tribes to work with the local governments on such mitigation. Some 
tribes and counties were able to reach mutually beneficial agreements 
that helped to mitigate these impacts. Many counties were less than 
successful in obtaining the cooperation of tribes operating casino-
style gaming facilities in their unincorporated areas.
    The off-reservation impacts of current and proposed facilities led 
CSAC, for the first time, to adopt a policy on Indian gaming. In the 
fall of 2002, at its annual meeting, CSAC held a workshop to explore 
how to begin to address these significant impacts. As a result of this 
workshop, CSAC established an Indian Gaming Working Group to gather 
relevant information, be a resource to counties, and make policy 
recommendations to the CSAC Board of Directors on Indian gaming issues.
    CSAC's approach to addressing the off-reservation impacts of Indian 
gaming is simple: to work on a government-to-government basis with 
gaming tribes in a respectful, positive and constructive manner to 
mitigate off-reservation impacts from casinos, while preserving tribal 
governments' right to self-governance and to pursue economic self-
reliance.
    With this approach as a guide, CSAC developed a policy comprised of 
seven principles regarding State-Tribe Compact negotiations for Indian 
gaming, which was adopted by the CSAC Board of Directors on February 6, 
2003. The purpose of this Policy is to promote tribal self-reliance 
while at the same time promoting fairness and equity, and protecting 
the health, safety, environment, and general welfare of all residents 
of the State of California and the United States. A copy of this Policy 
is attached to this written testimony as Attachment A.

C. Implementation of CSAC's 2003 Policy
    Following adoption by CSAC of its 2003 Policy, the Indian Gaming 
Working Group members met on three occasions with a three-member team 
appointed by Governor Davis to renegotiate existing Compacts and to 
negotiate with tribes who were seeking a compact for the first time. As 
a result of these meetings, three new State-Tribe Compacts were 
approved for new gaming tribes. These new Compacts differed from the 
1999 Compacts in that the 2003 Compacts gave a meaningful voice to the 
affected counties and other local governments to assist them in seeking 
tribal cooperation and commitment to addressing the off-reservation 
environmental impacts of the Indian casinos that would be built 
pursuant to those Compacts.

         Illustrations of Successful County/Tribal Cooperation

    There are many examples of California counties working 
cooperatively with tribes on a government-to-government basis on all 
issues of common concern to both governments, not just gaming-related 
issues. Yolo County has a history of working with Rumsey Band of Wintun 
Indians to ensure adequate services in the area where the casino is 
operating. In addition, Yolo County has entered into agreements with 
the tribe to address the impacts created by tribal projects in the 
county.
    In Southern California, San Diego County has a history of tribes 
working with the San Diego County Sheriff to ensure adequate law 
enforcement services in areas where casinos are operating. In addition, 
San Diego County has entered into agreements with four tribes to 
address the road impacts created by casino projects. Further, a 
comprehensive agreement was reached with the Santa Ysabel Tribe 
pursuant to the 2003 Compact with the State of California.
    Humboldt, Placer, and Colusa Counties and tribal governments have 
agreed similarly on law enforcement-related issues. Humboldt County 
also has reached agreements with tribes on a court facility/sub 
station, a library, road improvements, and on a cooperative approach to 
seeking federal assistance to increase water levels in nearby rivers.
    In central California, Madera and Placer Counties have reached more 
comprehensive agreements with the tribes operating casinos in their 
communities. These comprehensive agreements provide differing 
approaches to the mitigation of off-reservation impacts of Indian 
casinos, but each is effective in its own way to address the unique 
concerns of each gaming facility and community.
    After a tribe in Santa Barbara County completed a significant 
expansion of its existing casino, it realized the need to address 
ingress and egress, and flood control issues. Consequently, Santa 
Barbara County and the tribe negotiated an enforceable agreement 
addressing these limited issues in the context of a road widening and 
maintenance agreement. Presently, there is no authority that requires 
the County of Santa Barbara or its local tribe to reach agreements. 
However, both continue to address the impacts caused by the tribe's 
acquisition of trust land and development on a case-by-case basis, 
reaching intergovernmental agreements where possible.
    The agreements in each of the above counties were achieved only 
through positive and constructive discussions between tribal and county 
leaders. It was through these discussions that each government gained a 
better appreciation of the needs and concerns of the other government. 
Not only did these discussions result in enforceable agreements for 
addressing specific impacts, but enhanced respect and a renewed 
partnership also emerged, to the betterment of both governments, and 
tribal and local community members.

     Illustrations of Continued Problems Addressing Casino Impacts

    On the other hand, there are examples of Indian casinos and 
supporting facilities where a tribal government did not comply with the 
requirements of IGRA or the 1999 Compacts. In Mendocino County, a tribe 
built and operated a Class III gaming casino for years without the 
requisite compact between it and the California Governor. In Sonoma 
County, a tribe decimated a beautiful hilltop to build and operate a 
tent casino that the local Fire Marshal determined lacked the necessary 
ingress and egress for fire safety.
    In other California counties, tribes circumvented or ignored 
requirements of IGRA or the 1999 Compacts prior to construction of 
buildings directly related to Indian gaming. In San Diego County there 
have been impacts to neighboring water wells that appear to be directly 
related to a tribe's construction and use of its water well to irrigate 
a newly constructed golf course adjoining its casino, and several other 
tribal casino projects have never provided mitigation for the 
significant traffic impacts caused by those projects.
    In 2004, the focus of CSAC on seeking mechanisms for working with 
gaming tribes to address off-reservation impacts continued. Since that 
time, Governor Schwarzenegger and several tribes negotiated amendments 
to the 1999 Compacts, which lifted limits on the number of slot 
machines, required tribes to make substantial payments to the State, 
and incorporated most of the provisions of CSAC's 2003 Policy. Of 
utmost importance to counties was the requirement in each of these 
newly amended Compacts that each tribe be required to negotiate with 
the appropriate county government to develop local agreements for the 
mitigation of the impacts of casino projects, and that these agreements 
are judicially enforceable. Where a tribe and county cannot reach a 
mutually beneficial binding agreement, ``baseball style'' arbitration 
will be employed to determine the most appropriate method for 
mitigating the impacts.

D. The Advent of ``Reservation Shopping'' in California
    The problems with the original 1999 Compacts remain largely 
unresolved, as most prior Compacts were not renegotiated. These 
Compacts allow tribes to develop two casinos and do not restrict casino 
development to areas within a tribe's current trust land or historical 
ancestral territory. For example, in the Fall of 2002 a Lake County 
band of Indians was encouraged by East Coast developers to pursue 
taking into a trust land in Yolo County for use as a site of an Indian 
casino. The chosen site was across the Sacramento River from downtown 
Sacramento and was conveniently located near a freeway exit. The actual 
promoters of this effort were not Native Americans and had no intention 
of involving tribal Band members in the operation and management of the 
casino. In fact, one promoter purportedly bragged that no Indian would 
ever be seen on the premises.
    In rural Amador County, starting in 2002 and continuing to the 
present, a tribe being urged on by another out-of-State promoter is 
seeking to have land near the small town of Plymouth taken into trust 
for a casino. The tribe has no historical ties to the Plymouth 
community. The effort by this tribe and its non-Native American 
promoter has created a divisive atmosphere in the local community. That 
new casino is not the only one being proposed in the County; a second, 
very controversial new casino is being promoted by a New York developer 
for a three-member tribe in a farming and ranching valley not served 
with any water or sewer services, and with access only by narrow County 
roads. The development of these casinos would be an environmental and 
financial disaster for their neighbors and the County, which already 
has one major Indian casino.
    In the past two years in Contra Costa County, there have been 
varying efforts by three tribes to engage in Indian gaming in this 
highly urbanized Bay Area county. The possibility of significant 
economic rewards from operating urban casinos has eclipsed any 
meaningful exploration of whether these tribes have any historical 
connection to the area in which they seek to establish gaming 
facilities.
    In addition, in 2004, California counties faced a new issue 
involving tribes as a result of non-gaming tribal development projects. 
In some counties land developers were seeking partnerships with tribes 
in order to avoid local land use controls and to build projects that 
would not otherwise be allowed under local land use regulation. In 
addition, some tribes were seeking to acquire land outside their 
current trust land or their legally recognized aboriginal territory and 
to have that land placed into federal trust, beyond the reach of a 
county's land use jurisdiction.

        CSAC's 2004 Policy Regarding Development of Tribal Lands

    To address these issues, the CSAC Board of Directors adopted a 
Revised Policy Regarding Development on Tribal Lands on November 18, 
2004 (attached as Attachment B). The Revised Policy reaffirms that:
    <bullet>  CSAC supports cooperative and respectful government-to-
government relations that recognize the interdependent role of tribes, 
counties and other local governments to be responsive to the needs and 
concerns of all members of their respective communities.
    With respect to the issues specifically now before the Committee 
the following new Revised Policies apply:
    <bullet>  CSAC supports federal legislation to provide that lands 
are not to be placed in trust and removed from the land use 
jurisdiction of local governments without the consent of the State and 
affected County.
    <bullet>  CSAC opposes the practice commonly referred to as 
``reservation shopping'' where a tribe seeks to place lands in trust 
outside its proven aboriginal territory over the objection of the 
affected County.

Importance of County Involvement in Developing Mitigation:
    The history and examples provided above illustrate the need for 
counties to be involved in developing appropriate off-reservation 
mitigations related to Indian casino activities. There is not yet a 
definitive study on the impacts of gaming on local communities. 
However, in those counties that are faced with large gaming projects, 
it is clear that the impacts on traffic, water/wastewater, the criminal 
justice system and social services are significant. For non-Indian 
casinos it is estimated that for every dollar a community collects from 
gambling-related taxes, it must spend three dollars to cover new 
expenses, including police, infrastructure, social welfare and 
counseling services. <SUP>1</SUP> As local communities cannot tax 
Indian operations, or the related hotel and other services that would 
ordinarily be a source of local government income, the negative impact 
of such facilities can even be greater. This is one reason that CSAC 
sought amendments to California Tribal-State Compacts to ensure that 
the off-reservation environmental and social impacts of gaming were 
fully mitigated and that gaming tribes paid their fair share for county 
services.
---------------------------------------------------------------------------
    \1\ Cabazon, The Indian Gaming Regulatory Act, and the 
Socioeconomic Consequences of American Indian Governmental Gaming--A 
Ten Year Review by Jonathon Taylor and Joseph Kalt of the Harvard 
Project on American Indian Economic Development (2005) at p. 9 (citing 
Sen. Frank Padavan, Rolling the Dice: Why Casino Gambling is a Bad Bet 
for New York State at ii (1994).
---------------------------------------------------------------------------
    In 2003 CSAC took a ``snapshot'' of local impacts by examining 
information provided by eight of the then twenty-six counties (the only 
counties that had conducted an analysis of local government fiscal 
impacts) where Indian gaming facilities operated. <SUP>2</SUP> The 
total fiscal impact to those eight counties was approximately $200 
million, including roughly $182 million in one-time costs and $17 
million in annual costs. If these figures were extrapolated to the rest 
of the state, the local government fiscal costs could well exceed $600 
million in one-time and on-going costs for road improvements, health 
services, law enforcement, emergency services, infrastructure 
modifications, and social services.
---------------------------------------------------------------------------
    \2\ CSAC Fact Sheet on Indian Gaming in California (11/5/03) 
(attached as Attachment C.)
---------------------------------------------------------------------------
    Even when a particular gaming facility is within a City's 
jurisdictional limits, the impacts on County government and services 
may be profound. Counties are the largest political subdivision of the 
state having corporate authority and are vested by the Legislature with 
the powers necessary to provide for the health and welfare of the 
people within their borders. Counties are responsible for a countywide 
justice system, social welfare, health and other services. The 
California experience has also made clear that particularly large 
casino facilities have impacts beyond the immediate jurisdiction in 
which they operate. Attracting many thousands of car trips per day, 
larger facilities cause traffic impacts throughout a local 
transportation system. Similarly, traffic accidents, crime and other 
problems sometimes associated with gaming are not isolated to a casino 
site but may increase in surrounding communities.
    As often the key political entity and service provider in the area, 
with a larger geographic perspective and land use responsibility, 
county involvement is critical to ensure that the needs of the 
community are met and that any legitimate tribal gaming proposal is 
ultimately successful and accepted. Local approval and mechanisms that 
create opportunities for negotiation are necessary to help insure a 
collaborative approach with tribes in gaming proposals and to support 
the long-range success of the policies underlying IGRA.

Comments on H.R. 4893:
    CSAC fully understands that addressing the impacts of Indian 
casinos has been a contentious subject in some California communities. 
In an attempt to minimize this contentiousness, CSAC has focused on 
resolutions that show proper respect for all governments with roles in 
Indian gaming. Ultimately, as described in previous pages, the two most 
involved governments are tribal governments and county governments.
    The overwhelming majority of Indian casinos are in rural areas. 
Accordingly, county governments are those local governments in 
California who find themselves most often in the position of needing to 
address off-reservation impacts from Indian casinos. Current federal 
law does not provide counties an effective role in working with tribes 
to address off-reservation impacts from Indian gaming.
    In California, through the most recent State-Tribal Compacts 
negotiated by the Schwarzenegger Administration, counties and other 
local governments have been provided an appropriate opportunity to work 
with gaming tribes to address off-reservation impacts. The result has 
been improved government-to-government relationships between tribes and 
county governments and the smooth incorporation of major gaming 
facilities into counties and communities.
    Also in the vein of improved relationships, CSAC recently worked 
with several tribes to stage a day-long forum on ``Government-to-
Government Relationships: A Forum on Indian Gaming,'' which was very 
well attended and featured topics such as negotiating memorandums of 
understanding, implementing public safety protocols, and additional 
opportunities for tribes and local governments to work collaboratively. 
This and other recent events demonstrate that, contrary to possible 
fears of tribal leaders, local governments have not acted arbitrarily 
or capriciously in their dealings with tribes. In fact, the improved 
relationships are the result of each government gaining a better 
understanding of the responsibilities and needs of the other.
    Because we in California have several positive examples of counties 
and tribes working together for the betterment of their respective 
communities, CSAC supports Chairman Pombo's efforts to address the 
practice of ``reservation shopping.'' Below are specific comments on 
key provisions of H.R. 4893.

Judicially Enforceable Agreements
    As stated in CSAC's most recent Policy on Tribal Lands (adopted 
February 23, 2006), ``the overriding principle supported by CSAC is 
that when tribes are permitted to engage in gaming activities under 
federal legislation, then judicially enforceable agreements between 
counties and tribal governments must be required in the legislation. 
These agreements would fully mitigate local impacts from a tribal 
government's business activities and fully identify the governmental 
services to be provided by the county to that tribe.''
    CSAC is pleased that H.R. 4893 would require tribes seeking to 
acquire trust land for purposes of gaming to negotiate judicially 
enforceable mitigation agreements with counties as a condition of 
having trust land acquisitions approved by the Department of Interior. 
CSAC recommends, however, that the language of H.R. 4893 be modified to 
further clarify the legislation's meaning of ``direct effects of the 
tribal gaming activities on the affected county or parish 
infrastructure and services.'' We recommend that the definition of 
infrastructure and services include but not be limited to 
infrastructure maintenance and improvements, health and welfare 
services, law enforcement and emergency services, and environmental 
services such as air quality, watershed management, and erosion 
control. Enumerating the specific costs and services impacts would help 
to ensure that sound mitigation agreements are developed between county 
and tribal governments.

Increased Oversight of Gaming Proposals
    In addition to the mitigation agreement requirements of H.R. 4893, 
CSAC is supportive of provisions of H.R. 4893 that would require more 
extensive oversight with respect to casino proposals for newly-
recognized or landless tribes. While we support giving local 
communities a seat at the table to decide whether or not a casino 
should be located in a particular area, CSAC supports giving county 
boards of supervisors the right to consent to gaming-related trust 
acquisitions.
    A county-wide advisory referendum--as called for in the bill--
represents a prudent step in gauging a community's support or 
opposition to a particular gaming proposal. However, CSAC believes that 
a vote by elected county boards of supervisors represents an equally 
critical component in the process of determining the viability and 
suitability of a casino proposal. Because counties would ultimately be 
responsible for negotiating mitigation agreements with tribes under 
H.R. 4893, CSAC urges you to consider modifying the legislation to 
allow county or parish elected bodies to have the right to concur with 
the Department of Interior's prescribed determinations.

Consolidation of Gaming Among Tribes
    CSAC does not oppose the concept of gaming consolidation among 
tribes, and supports the bill's language reaffirming the fact that all 
Indian gaming operations must take place only on lands deemed suitable 
for such operations in accordance with IGRA. CSAC also believes that 
there is an opportunity to clarify H.R. 4893 to ensure that tribes that 
are allowed to consolidate gaming operations are required to negotiate 
judicially enforceable agreements with the affected county for the 
mitigation of all off-reservation impacts, and that such agreements 
must be reached each time tribes agree to consolidate gaming 
operations.

Primary Geographic, Social and Historical Nexus
    When the phrase ``primary geographic, social and historical nexus'' 
is used in the bill, CSAC recommends that it be based on objective 
facts that are generally acceptable to practicing historians, 
archeologists, and anthropologists. If there is a question by a tribal, 
state or local government as to whether the nexus has been established, 
the bill should provide for a judicial determination in either federal 
or state court on the issue, where the tribe would have the burden of 
showing the requisite nexus by a preponderance of evidence. This would 
provide a credible mechanism for determining a tribe's primary 
geographic, social and historical nexus and allow for judicial review 
of the facts in cases of doubt.

Conclusion:
    CSAC presents this written testimony in support of H.R. 4893, and 
we stand ready to assist Chairman Pombo and Committee Members in their 
efforts to modify IGRA to address the increasing practice of 
``reservation shopping.'' In California, the Chairman's bill--with the 
aforementioned necessary and appropriate revisions--would allow 
counties a voice in matters that create impacts that the county will 
ultimately be called upon by its constituents to address. This voice is 
critical if California counties are to protect the health and safety of 
their citizens. Otherwise, counties find themselves in a position where 
their ability to effectively address the off-reservation impacts from 
Indian gaming is extremely limited and dependent on the willingness of 
individual tribes to mitigate such impacts.
    In those instances in California where tribal governments and 
counties have met to work together to resolve issues of concern to each 
government, responsible decisions have been made by both governments to 
the benefit of both tribal members and local communities. Enactment of 
this legislation would create a mechanism and increased opportunities 
for these governments to work together. Such a mechanism would further 
the original goals of IGRA while also helping to minimize the abuses of 
IGRA that have proven to be detrimental to those tribes in full 
compliance with all applicable federal laws.
    We wish to thank Chairman Pombo and members of the Committee for 
their consideration and acknowledgment of the impact of this important 
issue on the counties of California. We look forward to continue 
working together to ensure the best possible outcome for all tribes, 
local governments, and communities.
                                 ______
                                 
                             ATTACHMENT A:
 csac policy document regarding compact negotiations for indian gaming
Adopted by the CSAC Board of Directors

February 6, 2003

    In the spirit of developing and continuing government-to-government 
relationships between federal, tribal, state, and local governments, 
CSAC specifically requests that the State request negotiations with 
tribal governments pursuant to section 10.8.3, subsection (b) of the 
Tribal-State Compact, and that it pursue all other available options 
for improving existing and future Compact language.
    CSAC recognizes that Indian Gaming in California is governed by a 
unique structure that combines federal, state, and tribal law. While 
the impacts of Indian gaming fall primarily on local communities and 
governments, Indian policy is largely directed and controlled at the 
federal level by Congress. The Indian Gaming Regulatory Act of 1988 is 
the federal statute that governs Indian gaming. The Act requires 
compacts between states and tribes to govern the conduct and scope of 
casino-style gambling by tribes. Those compacts may allocate 
jurisdiction between tribes and the state. The Governor of the State of 
California entered into the first Compacts with California tribes 
desiring or already conducting casino-style gambling in September 1999. 
Since that time tribal gaming has rapidly expanded and created a myriad 
of significant economic, social, environmental, health, safety, and 
other impacts.
    CSAC believes the current Compact fails to adequately address these 
impacts and/or to provide meaningful and enforceable mechanisms to 
prevent or mitigate impacts. The overriding purpose of the principles 
presented below is to harmonize existing policies that promote tribal 
self-reliance with policies that promote fairness and equity and that 
protect the health, safety, environment, and general welfare of all 
residents of the State of California and the United States. Towards 
that end, CSAC urges the State to consider the following principles 
when it renegotiates the Tribal-State Compact:
    1.  A Tribal Government constructing or expanding a casino or other 
related businesses that impact off-reservation <SUP>3</SUP> land will 
seek review and approval of the local jurisdiction to construct off-
reservation improvements consistent with state law and local ordinances 
including the California Environmental Quality Act with the tribal 
government acting as the lead agency and with judicial review in the 
California courts.
---------------------------------------------------------------------------
    \3\ As used here the term ``reservation'' means Indian Country 
generally as defined under federal law, and includes all tribal land 
held in trust by the federal government. 18 U.S.C. Sec. 1151.
---------------------------------------------------------------------------
    2.  A Tribal Government operating a casino or other related 
businesses would mitigate all off-reservation impacts caused by that 
business. In order to ensure consistent regulation, public 
participation, and maximum environmental protection, Tribes will 
promulgate and publish environmental protection laws that are at least 
as stringent as those of the surrounding local community and comply 
with the California Environmental Quality Act with the tribal 
government acting as the lead agency and with judicial review in the 
California courts.
    3.  A Tribal Government operating a casino or other related 
businesses will be subject to the authority of a local jurisdiction 
over health and safety issues including, but not limited to, water 
service, sewer service, fire inspection and protection, rescue/
ambulance service, food inspection, and law enforcement, and reach 
written agreement on such points.
    4.  A Tribal Government operating a casino or other related 
businesses would pay to the local jurisdiction the Tribe's fair share 
of appropriate costs for local government services. These services 
include, but are not limited to, water, sewer, fire inspection and 
protection, rescue/ambulance, food inspection, health and social 
services, law enforcement, roads, transit, flood control, and other 
public infrastructure. Means of reimbursement for these services 
include, but are not limited to, payments equivalent to property tax, 
sales tax, transient occupancy tax, benefit assessments, appropriate 
fees for services, development fees, and other similar types of costs 
typically paid by non-Indian businesses.
    5.  The Indian Gaming Special Distribution Fund, created by section 
5 of the Tribal-State Compact will not be the exclusive source of 
mitigation, but will ensure that counties are guaranteed funds to 
mitigate off-reservation impacts caused by tribal gaming.
    6.  To fully implement the principles announced in this document 
and other existing principles in the Tribal-State compact, Tribes would 
meet and reach a judicially enforceable agreement with local 
jurisdictions on these issues before a new compact or an extended 
compact becomes effective.
    7.  The Governor should establish and follow appropriate criteria 
to guide the discretion of the Governor and the Legislature when 
considering whether to consent to tribal gaming on lands acquired in 
trust after October 17, 1988 and governed by the Indian Gaming 
Regulatory Act. 25 U.S.C. Sec. 2719. The Governor should also establish 
and follow appropriate criteria/guidelines to guide his participation 
in future compact negotiations.
                                 ______
                                 
                             ATTACHMENT B:

   CSAC REVISED POLICY DOCUMENT REGARDING DEVELOPMENT ON TRIBAL LANDS

Adopted by CSAC Board of Directors

November 18, 2004

Background
    On February 6, 2003, CSAC adopted a policy, which urged the State 
of California to renegotiate the 1999 Tribal-State Compacts, which 
govern casino-style gambling for approximately 65 tribes. CSAC 
expressed concern that the rapid expansion of Indian gaming since 1999 
created a number of impacts beyond the boundaries of tribal lands, and 
that the 1999 compacts failed to adequately address these impacts. The 
adopted CSAC policy specifically recommended that the compacts be 
amended to require environmental review and mitigation of the impacts 
of casino projects, clear guidelines for county jurisdiction over 
health and safety issues, payment by tribes of their fair share of the 
cost of local government services, and the reaching of enforceable 
agreements between tribes and counties on these matters.
    In late February, 2003, Governor Davis invoked the environmental 
issues re-opener clause of the 1999 compacts and appointed a three-
member team, led by former California Supreme Court Justice Cruz 
Reynoso, to renegotiate existing compacts and to negotiate with tribes 
who were seeking a compact for the first time. CSAC representatives had 
several meetings with the Governor's negotiating team and were pleased 
to support the ratification by the Legislature in 2003 of two new 
compacts that contained most of the provisions recommended by CSAC. 
During the last days of his administration, however, Governor Davis 
terminated the renegotiation process for amendments to the 1999 
compacts.
    Soon after taking office, Governor Schwarzenegger appointed former 
Court of Appeal Justice Daniel Kolkey to be his negotiator with tribes 
and to seek amendments to the 1999 compacts that would address issues 
of concern to the State, tribes, and local governments. Even though 
tribes with existing compacts were under no obligation to renegotiate, 
several tribes reached agreement with the Governor on amendments to the 
1999 compacts. These agreements lift limits on the number of slot 
machines, require tribes to make substantial payments to the State, and 
incorporate most of the provisions sought by CSAC. Significantly, these 
new compacts require each tribe to negotiate with the appropriate 
county government on the impacts of casino projects, and impose binding 
``baseball style'' arbitration on the tribe and county if they cannot 
agree on the terms of a mutually beneficial binding agreement. Again, 
CSAC was pleased to support ratification of these compacts by the 
Legislature.
    The problems with the 1999 compacts remain largely unresolved, 
however, since most existing compacts have not been renegotiated. These 
compacts allow tribes to develop two casinos, expand existing casinos 
within certain limits, and do not restrict casino development to areas 
within a tribe's current trust land or legally recognized aboriginal 
territory. In addition, issues are beginning to emerge with non-gaming 
tribal development projects. In some counties, land developers are 
seeking partnerships with tribes in order to avoid local land use 
controls and to build projects, which would not otherwise be allowed 
under the local land use regulations. Some tribes are seeking to 
acquire land outside their current trust land or their legally 
recognized aboriginal territory and to have that land placed into 
federal trust and beyond the reach of a county's land use jurisdiction.
    CSAC believes that existing law fails to address the off-
reservation impacts of tribal land development, particularly in those 
instances when local land use and health and safety regulations are not 
being fully observed by tribes in their commercial endeavors. The 
purpose of the following Policy provisions is to supplement CSAC's 
February 2003 adopted policy through an emphasis for counties and 
tribal governments to each carry out their governmental 
responsibilities in a manner that respects the governmental 
responsibilities of the other.

Policy
    1.  CSAC supports cooperative and respectful government-to-
government relations that recognize the interdependent role of tribes, 
counties and other local governments to be responsive to the needs and 
concerns of all members of their respective communities.
    2.  CSAC recognizes and respects the tribal right of self-
governance to provide for the welfare of its tribal members and to 
preserve traditional tribal culture and heritage. In similar fashion, 
CSAC recognizes and respects the counties' legal responsibility to 
provide for the health, safety, environment, infrastructure, and 
general welfare of all members of their communities.
    3.  CSAC also supports Governor Schwarzenegger's efforts to 
continue to negotiate amendments to the 1999 Tribal-State Compacts to 
add provisions that address issues of concern to the State, tribes, and 
local governments. CSAC reaffirms its support for the local government 
protections in those Compact amendments that have been agreed to by the 
State and tribes in 2004.
    4.  CSAC reiterates its support of the need for enforceable 
agreements between tribes and local governments concerning the 
mitigation of off-reservation impacts of development on tribal land 
<SUP>4</SUP>. CSAC opposes any federal or state limitation on the 
ability of tribes, counties and other local governments to reach 
mutually acceptable and enforceable agreements.
---------------------------------------------------------------------------
    \4\ As used here the term ``tribal land'' means trust land, 
reservation land, Rancheria land, and Indian Country as defined under 
federal law.
---------------------------------------------------------------------------
    5.  CSAC supports legislation and regulations that preserve--and 
not impair--the abilities of counties to effectively meet their 
governmental responsibilities, including the provision of public 
safety, health, environmental, infrastructure, and general welfare 
services throughout their communities.
    6.  CSAC supports federal legislation to provide that lands are not 
to be placed into trust and removed from the land use jurisdiction of 
local governments without the consent of the State and the affected 
county.
    7.  CSAC opposes the practice commonly referred to as ``reservation 
shopping'' where a tribe seeks to place land into trust outside its 
aboriginal territory over the objection of the affected county.
    8.  CSAC does not oppose the use by a tribe of non-tribal land for 
development provided the tribe fully complies with state and local 
government laws and regulations applicable to all other development, 
including full compliance with environmental laws, health and safety 
laws, and mitigation of all impacts of that development on the affected 
county.

[GRAPHIC] [TIFF OMITTED] T7014.002

                                 ______
                                 
    The Chairman. Thank you.
    Mr. King.

     STATEMENT OF RANDY KING, CHAIRMAN, BOARD OF TRUSTEES, 
                    SHINNECOCK INDIAN NATION

    Mr. King. Chairman Pombo, Ranking Member Rahall, and 
Members of the House Resources Committee, thank you for giving 
me the opportunity to speak today.
    My name is Randy King, and I am the immediate past Chairman 
of the Tribal Trustees of the Shinnecock Indian Nation.
    Last night we held our tribal elections, the latest in an 
unbroken chain of annual elections that dates back to 1792. 
Although I chose not to run this year, let the record state 
after six years in tribal office this will be the year that I 
finish that screen room for my wife.
    [Laughter.]
    Mr. King. I know that our nation is in good hands and I 
speak today on behalf of our nation, and with the support of 
our new board of trustees.
    The heritage of the Shinnecock people dates back thousands 
of years. Although we once occupied a vast region of Long 
Island, our property has dwindled over the years to less than 
1,000 acres. Today, almost half of our enrolled members live on 
this land, on a reservation set aside under New York law. The 
State of New York and its predecessors have formally recognized 
the Shinnecock Nation for more than 340 years, but even though 
we have been seeking Federal acknowledgment from the Bureau of 
Indian Affairs since 1978, the Federal bureaucracy has yet to 
formally recognize our nation. After 28 years, we are still 
waiting for a decision.
    Despite nearly three decades of delay, the Shinnecock 
people are optimistic. Last year a Federal court issued a 
decision holding that we are what we have always known 
ourselves to be, a sovereign Indian tribe. We remain hopeful 
that the Department of Interior will add us to the list of 
federally recognized tribes. In the meantime, we continue to 
seek justice in the courts without waiting for help from the 
executive branch of the Federal government.
    Unfortunately, while we have remained stuck in the Federal 
recognition process, we have watched many other tribes achieve 
Federal recognition, construct casinos, and abuse the BIA 
process to try to build even more casinos. Given our history 
with the BIA, we are encouraged by your willingness to shake up 
the status quo.
    As you can imagine, we are particularly pleased that you 
have taken up the cause of examining the Federal recognition 
process. We also deeply appreciate the thought and care taken 
in developing H.R. 4893. This bill can do much to level the 
playing field and stop outlandish casino proposals that 
threaten to backlash against legitimate tribes such as the 
Shinnecock.
    While we support the intent of the bill to reform a flawed 
BIA process, we do hope that the Committee will consider some 
suggestions for minor amendments to the bill. We hope that the 
final bill will protect those tribal nations that, like the 
Shinnecock, have played by the rules and have been met with 
years of bureaucratic inaction.
    First, let us remember that H.R. 4893 is aimed to restrict 
the practice of reservation shopping, a goal all should share. 
The Indian Gaming Regulation Act is meant to allow an Indian 
nation to game on its own lands. The Shinnecock Indian Nation 
occupies land that was ours before the first European settlers 
arrived on our shores. Our land is our home and always has 
been.
    We believe that H.R. 4893 should clarify that Indian land 
actually occupied continuously for all of recorded history 
should receive the same treatment as Federal reservations 
created much more recently. The Shinnecock people have occupied 
our lands for centuries, and we should be able to have economic 
activity on our own lands.
    Even though IGRA is meant to allow tribes to use land that 
has been theirs throughout the centuries, we do recognize 
political realities. One reality is that in some communities 
powerful groups use political power to try to deny a tribe its 
right.
    Given this reality, we believe that H.R. 4893 should 
preserve the ability in narrow and limited circumstances for a 
tribe to agree to alternate locations for economic activity. We 
believe that land claim settlements when limited to the state 
in which the tribe is located will allow tribes facing serious 
local opposition to achieve economic progress.
    At the same time, we recognize that there are legitimate 
concerns about tribes claiming reservations through arguments 
that are tenuous at best. We believe that the bill should close 
the door on any inappropriate manipulations of the system. We 
encourage the Committee to further strengthen proposed 
provisions against interstate moves by limiting gaming to the 
state in which a majority of the tribe's members reside.
    In conclusion, I would like once again to thank you for 
your courage in tacking these difficult issues when so many 
others stand silent. As you move forward, I hope that your 
reforms are a success and that they protect the ability of 
tribes to use their own lands.
    Thank you.
    [The prepared statement of Mr. King follows:]

         Statement of Randy King, Chairman, Board of Trustees, 
                        Shinnecock Indian Nation

    Chairman Pombo, Ranking Member Rahall and Members of the House 
Resources Committee, my name is Randy King, and I am the Chairman of 
the Tribal Trustees of the Shinnecock Indian Nation--one of the oldest 
continually self-governing tribes in the country. I would like to 
personally thank you for allowing me the opportunity to address this 
Committee.
    The heritage of the Shinnecock people dates back thousands of 
years. We live now on a remnant of the lands where we lived long before 
the first European settlers arrived in North America. Although we once 
occupied a vast region of land on Long Island, spanning from Montauk 
Point to Manhattan, our property has dwindled over the years to less 
than 1,000 acres, all in the Town of Southampton, New York. Beginning 
with the illegal seizure of our land by the first settlers, the 
Shinnecock people have endured a continual encroachment on our property 
rights for over 360 years.
    The State of New York and its predecessors have formally recognized 
the Shinnecock Indian Nation for more than 340 years, and almost half 
of our enrolled members currently live on a reservation set aside under 
state law. Despite this fact, the Federal bureaucracy has yet to 
formally recognize our Nation, even though our existence and our needs 
have been known to the federal government.
    In 1978, we asked the federal government for assistance in filing a 
lawsuit to obtain justice for the theft of our lands. The Bureau of 
Indian Affairs decided we first should be federally recognized and 
treated our litigation request as our petition for federal 
acknowledgment. We then created the ``Shinnecock Federal Recognition 
Committee'' to manage our petition for federal recognition with the 
Department of Interior. That was 28 years ago--and we are still waiting 
for a decision.
    Despite nearly three decades of delay, the Shinnecock people are 
optimistic. On November 7, 2005, a federal court, in a case in which 
our tribal status was at issue, and after receiving our petition to the 
Department of the Interior and thousands of pages of legal briefs and 
documents, issued a decision holding that the Shinnecock Indian Nation 
is what we have always known ourselves to be, a sovereign Indian tribe 
as a matter of federal law. We have had a dialogue about this court 
decision with the Department of Interior, and we remain hopeful that 
the Department may add us to the list of federally recognized tribes. 
In the meantime, we continue to seek to vindicate our rights without 
waiting for help from the executive branch of the federal government, 
as we press forward to have the courts further confirm our sovereignty 
and provide us with justice for the wrongs that have been done to us.
    While we have remained stuck in the federal recognition process for 
some 28 years, forced to defend our rights without the federal 
assistance enjoyed by other tribes, the Shinnecock people have watched 
many other tribes achieve federal recognition, construct casinos, and 
exploit federal law to attempt to build even more casinos.
    Against the backdrop of bureaucratic delay and opportunistic 
actions by others, the Shinnecock Nation is encouraged by the 
Chairman's and the Committee's willingness to ``shake up'' the status 
quo. As you can imagine, we are particularly pleased that you have 
taken up the cause of examining the federal recognition process. We 
also deeply appreciate the thought and care taken in developing H.R. 
4893. This bill can do much to level the playing field and stop 
outlandish proposals that threaten a backlash against legitimate tribes 
such as the Shinnecock. It is from this perspective that I respectfully 
ask the Committee to consider some minor refinements to the bill to 
protect those tribal nations which, like the Shinnecock, have played by 
the rules and been met with years of bureaucratic inaction.
    First, let us remember that H.R. 4893 is aimed to restrict the 
practice of ``reservation shopping'', a goal all should share. Section 
20(a) of the Indian Gaming Regulatory Act (``IGRA'') is intended to 
allow an Indian Nation to game on its own lands. Yet some would 
interpret Section 20 as limiting tribes to lands that were part of a 
federal reservation. The Shinnecock Indian Nation, however, occupies 
land in the heart of its aboriginal territory, land that was ours 
before the first European settlers arrived on our shores--and land that 
remains within our aboriginal territory today. Our land is our home, 
and always has been. Its status as Indian land does not stem from 
action of the federal government, but precedes the existence of the 
federal government. We should not be denied the ability to have 
economic activity on our own tribal lands, held for hundreds of years. 
Consequently, we propose that H.R. 4893 add affirmative language that 
clarifies that Indian land actually occupied continuously for all of 
recorded history be given the same treatment as federal reservations 
created much more recently. The Shinnecock people have occupied our 
lands for centuries, and we do not believe that we should be penalized 
for the Department of Interior's prolonged inaction in response to our 
application to acknowledge our unquestionable status as an Indian 
tribe.
    Despite the fact that IGRA intends to allow tribes to game on land 
that has been theirs through the centuries, we do recognize political 
realities. One reality is that in some communities, powerful local 
groups and people may marshal political power to attempt to deny a 
tribe its rights. Given this reality, we believe that H.R. 4893 should 
preserve the ability, in closely circumscribed circumstances, for a 
tribe to agree upon alternate locations for economic activity. We 
believe that land claim settlements, when limited to the state in which 
the tribe is located, would allow tribes facing serious or 
insurmountable opposition to achieve economic stability, while still 
preventing inappropriate manipulations of the system.
    At the same time, we recognize that there are legitimate concerns 
about tribes claiming reservations through arguments that are tenuous 
at best. We believe that the amendments we seek can fulfill the intent 
of IGRA without opening the door to such spurious claims. We appreciate 
the effort in H.R. 4893 to tighten the rules against such claims, and 
would encourage the Committee to further strengthen proposed provisions 
against interstate moves by limiting gaming to the state in which a 
majority of a tribe's members reside.
    In conclusion, I would like once again to thank the Chairman and 
the Committee for allowing me to testify and for your courage in 
tackling these difficult issues when so many others stand silent. My 
people have lived on our land for centuries, and I am but one person in 
a long line of individuals fighting for justice for our Nation. It has 
been a long and difficult journey to get where we are today. I simply 
ask that the Committee keep the Shinnecock Indian Nation in mind, and 
take our suggestions as what they are--comments from a tribe that is 
only trying to avoid being penalized for the actions of others. Thank 
you.
                                 ______
                                 
    The Chairman. Thank you. I thank the entire panel for your 
testimony.
    Mr. King, Chairman King, I will start with you and the 
questions. Do you believe that there is a difference between 
land that is already in trust and land that tribes are seeking 
to bring into trust for gaming purposes?
    Mr. King. Well, we are still in the struggle. We recently 
had our tribal status determined by a Federal judge in 
November, so this is all new ground to the Shinnecock. We are 
still in the struggle so I cannot have the conversations with 
the degree of specificity of some of the other members of the 
previous panel.
    But I do know this, the Shinnecock Tribe has endured for 
400 years on land that has dwindled through the years, and 
because of the way this bill is written it should not preclude 
the tribe from gaming on lands that may be more appropriate to 
the local community.
    We are a tribe that is sensitive to the communities' ears, 
and we are open to dialog to those communities and to those 
concerns, but we should not feel after 400 years of trying to 
prove our tribal status that we would be shut out of any 
opportunities that other tribes are able to enjoy at this 
point.
    The Chairman. If your land were taken into trust and a 
decision was made to have gaming on your land, on your historic 
land, and 10 years in the future another tribe came up and took 
advantage of the current process and had land taken into trust 
that was near you, do you believe that you should have anything 
to say about that?
    Mr. King. Well, I do believe that the determination of the 
Shinnecock Tribe is made by its members, and by its people by 
consensus, and I do not believe that any other tribe should be 
able to object to us moving forward with our sovereign rights.
    The Chairman. Should you have the ability to object to 
someone else moving into your historic area?
    Mr. King. Well, at this point here we have endured for 400 
years, and if you are talking about the State of New York, 
there are tribes that are asserting land claims in the State of 
New York that reside out of New York, and we believe that the 
resources within New York are tenuous and limited at best, and 
because we are in this struggle, and that 28 years in the BIA 
process, Federal acknowledgment process, could shut the door on 
us, and that is why we are here today.
    The Chairman. I can tell you that in regards to other 
legislation that I have introduced dealing with the recognition 
process and our efforts on this Committee in dealing with that, 
obviously your tribe was one of those that came to the 
forefront. I think 28 years is too long to wait. Regardless of 
what the answer is 28 years is too long to wait for an answer.
    Mr. King. It is.
    The Chairman. And that is one of the reasons why this 
Committee has moved forward on that issue.
    Mr. King. And we respect your analysis of the deficiencies 
in that process.
    [Laughter.]
    The Chairman. I am sorry. Twenty-eight years is too long to 
wait for an answer on anything.
    Mr. Worthley, in terms of the counties seeking a greater 
input into what happens, I believe there is a difference 
between existing land that is in trust and what role the county 
can play in that particular instance, and land that is being 
petitioned to be brought into trust, or maybe they don't, but 
does the CSAC have a policy or do they differentiate between 
land that is currently in trust and land that is being 
petitioned to be brought into trust?
    Mr. Worthley. Thank you, Mr. Chairman. They do recognize 
that there is a distinction and there is a concern for that 
because that sort of shopping for additional real estate 
outside of traditional tribal boundaries, while it may be 
appropriate in some circumstances, other times it represents a 
lot of problems.
    I think that is why the proposal is to allow for counties 
to have greater input into that decisionmaking process as 
opposed to lands that are already in trust, understanding that 
the sovereign powers of the tribes already exist in those 
situations. As they seek to promote those sovereign powers 
elsewhere, it is appropriate for counties to have more input in 
that process.
    The Chairman. Mr. Sheen, Representative Sheen, you suggest 
in your testimony a moratorium, and I am sure you are aware 
that there have been efforts in numerous discussions in 
Congress dealing with a moratorium on new gaming. There have 
been even suggestions that we should completely withdraw the 
ability of tribes to game. I think the people, depending on 
what their own districts or their own personal beliefs are, 
have come up with a number of different scenarios that this 
committee has had to deal with.
    But in suggesting a moratorium, would you rather we have a 
two-year moratorium or a moratorium of some period or would you 
prefer that we come up with a long-term fix to the generic 
legislation?
    Mr. Sheen. Well, I would say that you would probably need 
some time to do that. However, a long-term fix is something 
that we do need, and I believe that is why we need to take a 
look at IGRA, and we need to take a look at what has it done in 
the last 20 years.
    So a long-term fix definitely needs to happen, and I, of 
course, favor that as opposed to a short-term fix, but how long 
would it take to put that forward? I guess that is the 
question.
    The Chairman. Well, we have been doing this for two years 
now, so I don't know. Thank you.
    I am going to recognize Mr. Kildee for his questions.
    Mr. Kildee. Thank you very much.
    First of all, I would like to welcome Mr. Sheen, a member 
of the body I served in for 10 years, and appreciate your 
presence here with your rich background being the county 
treasurer of Allegan before you joined the Michigan House of 
Representatives.
    I think you and I are not in agreement on these things, but 
that is the greatness of a democracy, and the greatness of the 
process that Mr. Pombo has started here. We have to start out 
by recognizing that we, all of us up here, and you as a member 
of the state legislature take an oath to uphold the 
Constitution of the United States, and the Constitution is very 
clear. It says the Congress shall have power to regulate 
commerce with foreign nations and among the several states and 
with the Indian tribes. They list the three sovereignties very, 
very clearly, Article I, Section 8.
    Congress takes that very seriously as I am sure you do. I 
have read the Treaty of Detroit. It says, ``This constitution 
and the laws of the United States, which shall be made in 
pursuance thereof and all treaties made or shall be made under 
the authority of the United States shall be the supreme law of 
the land, and the judges in every state shall be bound thereby. 
Anything in the constitutional laws of any state to the 
contrary notwithstanding.''
    Every two years I take an oath to uphold this, and it is 
very important. This sovereignty is not just a get well card or 
some little gesture toward the Indians. It is a reality. It is 
the law of the land, and that is exactly what the Cabazon 
decision was based upon.
    Basically, and I am not an attorney, I am a Latin teacher, 
but they basically said if you outlaw gaming or certain form of 
gaming, then you could outlaw gaming all over the state, 
including on sovereign land, sovereign Indian land, which is 
sovereign. But if you only regulate that gaming, then state 
regulations do not apply on the sovereign land. Sovereign land 
is different than the rest of Allegan County. It has a 
sovereignty. And as the other tribes in Michigan have their 
real sovereignty.
    So we have to recognize that we have to follow the Supreme 
Court decision. We have to follow the Constitution. IGRA 
actually in a sense really puts some restrictions, limited 
Cabazon because without Cabazon we would have had probably a 
lot of confusion out there, but Indians sovereign nations could 
have tried various and sundry way of gaming, but we finally 
said no, let us get some order here.
    I almost didn't vote for it because I thought it was 
putting too many restrictions on Cabazon decision, but we did 
say OK, we will compact with the state and we thought we had a 
Seminole fix before the Seminole problem arose, but we did do 
that. So it is the law of the land upheld by the Supreme Court, 
and codified in law by the Congress.
    So I am sure that, knowing Allegan County, I know it quite 
well. I know it is a county where probably a lot of people are 
just opposed to gaming. Has your organization taken any 
position against the gaming which takes place in Michigan, 
which has really proliferated, probably proliferating more 
quickly as far as locations than Indian gaming? You can hardly 
go into a place where one could get a libation without finding 
electronic Keno where people are just rolling the dollars back 
and forth.
    Has your organization taken any position on repealing that 
1972 amendment which permitted gaming in Michigan, or have you 
taken any position of trying to limit this new gambling which 
takes place in almost every tavern in Michigan? Have you taken 
any position on that?
    Mr. Sheen. Well, at this point in time if you are asking me 
how do I feel about repealing the lottery.
    Mr. Kildee. Yes.
    Mr. Sheen. I would be happy to put that bill forward.
    Mr. Kildee. OK.
    Mr. Sheen. As far as I am concerned, at this point I think 
the main concern of 23 is Enough! is just that. It is 23 
casinos is enough. Do they support or are they against the 
lottery? That, you know, they really haven't discussed, they 
have focused on the issue at hand.
    Earlier you said our Constitution upholds rights, and I am 
a firm believer in the Constitution, but this idea of casinos, 
Native American casinos is not written in our Constitution 
anywhere.
    Mr. Kildee. Sovereignty is though.
    Mr. Sheen. Sovereignty is written in there, but this whole 
concept of what we are doing here, I guess I am a firm 
supporter of civil rights, but I have a difficulty with special 
rights, and you know, here you have a group that for all 
practical purposes secedes from the nation, secedes from the 
state, wants all the rights and privilege of citizenship, but 
seemingly without the responsibilities that go with it. Doesn't 
that concern you?
    Mr. Kildee. Well, John Marshall in his famous decision 
talks about the sovereignty as a retained sovereignty. It is 
not something that we gave to them in the Constitution. It is 
not something that Michigan gave to them or Congress gave to 
them even. John Marshall makes it very, very clear that this a 
retained sovereignty, and that treaties entered into even 
before the Constitution still had to be recognized. I think we 
have to really consider that this is a real sovereignty. It is 
not just a pious saying or something to make Indians feel good. 
It is a real sovereignty.
    So we have an obligation. When we read this, we don't grant 
France its sovereignty. We recognize its sovereignty. We don't 
grant the Chickasaw Tribe, which Mr. Cole belongs to, we don't 
grant them their sovereignty. We recognize their sovereignty. 
So we can't just willy nilly pass legislation that doesn't 
recognize the fact that this is a genuine sovereignty, a real 
sovereignty, and not just a pious thought.
    So, I know you recognize it. I know you personally. I know 
that you are a man of good will, but I think we just have a 
different approach to this and different ideas on it. But I 
thank you for your testimony.
    Mr. Sheen. Thank you.
    The Chairman. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
thank the members of our panel for their testimony.
    For the record, Mr. Chairman, I just want to associate 
myself with the gentleman from Michigan and his comments 
concerning the issue that we are discussing with the members of 
the panel.
    I certainly have the utmost respect for Representative 
Sheen and his opinions and sentiments expressed in our hearing 
this afternoon concerning this relationship that we have with 
the Indian tribes. I don't know of Representative Sheen is 
aware of the fact that our country and our government 
negotiated and had 389 treaties with the Indian tribes, and 
guess what? We broke everyone of those treaties.
    I also would like to note for the record that when we have 
a treaty relationship with other foreign countries, it has the 
same standing as that of the U.S. Constitution. The treaty and 
the constitution are equal in par in terms of our relationship.
    I note also you mentioned, Representative Sheen, that I got 
the impression that you feel that the State of Michigan has not 
benefited with these gaming operations in the State of 
Michigan. I am curious who the Governor was that negotiated 
these compacts because as I understand it the Pequot Indians 
and their compact relationship with the State of Connecticut, 
hundreds of millions of dollars have benefited the State of 
Connecticut, Connecticut has benefited for their educational 
needs and so many other things that have gone on, and very 
successful relationship.
    I might also add that when the Pequot Indian Nation first 
went out to seek assistance or funding, trying to get this 
enterprise going, not one U.S. bank, whether it be from the 
county, the city, or state, was willing, was willing to finance 
their offered enterprise. They had to go to a foreign 
businessman to get some capitalization to allow them, and now 
doing a very successful enterprise in the State of Connecticut.
    But I am surprised that the State of Michigan and your 
opinion, Mr. Sheen, has not benefited from this. I would kind 
of like to think that every compact that I am aware of, and any 
negotiations that have taken place with our Indian tribes, that 
there has been a mutual benefit gained for both the state as 
well as the tribes, and I wanted to ask Mr. Sheen if I got the 
right based on your testimony.
    You are saying that the State of Michigan has not benefited 
from these gaming enterprises?
    Mr. Sheen. What happens is initially there is a benefit 
when it is getting built and when it started, but the fact of 
the matter is--this is a record of Michigan Treasury--is that 
we no longer are receiving any dollars on the Native American 
casinos that are there. They have ceased paying the agreed 
amount in the compact initially to the State of Michigan. We 
have 17, three are still paying. Those three are now suing the 
state and soon we will most likely have none.
    Now, that is a fact whether we like that fact or we don't 
like that fact, and I agree with you, treaties are important, 
and treaties should not have been broken. But again, in the 
treaty I saw nothing talking about casinos in that treaty, and 
you know, that is kind of what I have read into the situation.
    Mr. Faleomavaega. Well, I am sure that there were no 
anticipation of having casinos even built among the states even 
before our country was founded. My understanding that we had 
lotteries at the time of the Revolution. A lottery was 
initiated by the Colonies to get funding to support the 
revolution against the British Empire, and I don't know if that 
is a form of gaming, but as I read it lottery is a form of 
gaming that states throughout the country are benefiting. It is 
a multibillion dollar industry, and the uniqueness about this 
IGRA that I want to share with my colleagues and the members of 
the panel is that Congress controls this, and again it is 
because of a government-to-government relationship that we have 
with the Indian tribes.
    For good or for bad, the point here is that we don't 
regulate state lotteries and the horse racing or any of the 
gaming that goes on among the states. My good friend from 
Nevada would be the first one to object as a matter of state 
constitutional rights, I suppose, that the Federal government 
is not to regulate gaming among the states, but they sure will 
do it for the tribes as we are doing it now through IGRA, and 
this notion that there is syndicate involvement among the 
Indian gaming operation is nonsense.
    How can it be when the Congress is the one that is putting 
controls and making sure that it is a clean operation, and that 
it is done properly?
    I kind of like to think that when these compact agreements 
are made between the states and the tribes that the government 
or whoever is representing the Governor, these negotiators will 
be doing it on a fair and equitable basis so that both the 
states as well as the tribes benefit.
    I wanted to ask Representative Osmond when you mentioned 
that certainly the State of Illinois is not benefiting with the 
gaming operations that take place in Wisconsin. Am I correct, 
the lotteries, it seems like all the money is going to 
Wisconsin and not to Illinois because of the location of these?
    Ms. Osmond. It is six miles from my district, and the way 
that it is projected is that all the revenue, 70 some percent 
is going to come out of Illinois, and they are going to come 
through my district, and Illinois has a lottery.
    Mr. Faleomavaega. Well, the State of California is also 
complaining because it is about a 10 to 15 billion dollar loss 
to the State of California who all go to Las Vegas to gamble, 
and I don't know if California officials are complaining 
because it is what democracy, we are free to go wherever we 
want to go to participate in the gaming process.
    Ms. Osmond. I think one of my main concerns is the sizes of 
this particular casino. It is going to be the largest in the 
Midwest, and if the regulations are set up that they need to 
look at a 10-mile radius, they have violated those regulations 
that you have so kindly set forth. They are not looking at the 
impact that will come into my district.
    Mr. Faleomavaega. That is certainly something that we need 
to look into. I want to note to Mr. King that your tribe has 
been waiting for 28 years. There is a tribe in North Carolina 
called the Lumbees, one of the largest. They have been waiting 
over 100 years to be federally recognized, and I want to 
commend the Chairman that we are making every effort to pass 
legislation to provide a much more equitable method of Federal 
recognition for our Indian tribes.
    I just wanted to note that, and I am afraid--I do not agree 
with the proposed bill and to the fact that the counties have 
to be involved in this, my good friend representing the 
counties. I think if we do it what is to prevent the city or 
how many other groupings that we have to get approval from. It 
will make it almost impossible for these tribes to conduct 
their business.
    I think just having the Governors of the various states to 
be the chief negotiator ought to be sufficient.
    With that, Mr. Chairman, I know my time is up, thank you.
    Mr. Worthley. Mr. Chairman, if I could just quickly respond 
to that. From the county's perspective, we are the ones that 
are impacted by the effects of the casinos when they are built. 
They affect the counties. They don't affect the State of 
California as a whole.
    And as Mr. Costa noted, with changing administrations we 
get different policies. Under the current administration, 
counties feel rather secure about their positions in terms of 
knowing that our needs will be met if there is going to be an 
approved compact with a tribe. Under the previous 
administration we did not have that protection, and yet we are 
stuck with the problems, the air quality problems, the 
transportation problems, the social problems. They affect the 
counties and the state is free to walk away from those issues 
if they choose to.
    So it is very important to the counties. We are just asking 
to say you need to mitigate these things and as a condition 
to--again, increasing the size, going outside of their tribal 
boundaries into new lands.
    Mr. Faleomavaega. I also want to mention that 
administrations also change here in Washington, and with a 
change of policies and priorities. We go through the same 
problems that the counties and the cities and the states go 
through. Thank you, Mr. Chairman.
    The Chairman. Mr. Dent?
    Mr. Dent. Thank you, Mr. Chairman, and thank you for your 
courtesy in allowing me to participate in this hearing, and I 
do appreciate your leadership on this off-reservation gambling 
issue.
    I come from the State of Pennsylvania, and I represent a 
district where a land claim has been filed by the Delaware 
Tribes of Oklahoma based on a 1737 land conveyance, basically 
going back nearly to the time of the Wakeen purchase, which 
occurred in my state, and the fact is 25 homeowners, a crayon 
factory, Crayola, and other commercial owners of property are 
under the situation where there is a land claim for these few 
hundred acres for the purpose of establishing a casino in the 
Commonwealth of Pennsylvania, as I said, in my district.
    So I am deeply concerned about this issue of offsite 
gambling. And again, the Delawares have not really been in my 
state for a few centuries.
    What I am trying to understand with this bill and this may 
be a rhetorical question but feel free to answer if you think 
you can, that if a tribe is recognized in another state, say 
Oklahoma, and they are seeking a title to lands in my state for 
the purpose of placing a casino on that land, and you assume 
further that the tribe were to prevail in a Federal court and 
be awarded title to the land in question in my state, how would 
this bill impact the tribe's ability to place a casino on that 
land, especially in light of this one section of the bill, I 
guess it is Section 1[f], subsection [f], that basically an 
Indian tribe shall not conduct gaming regulated by this act on 
any lands outside of the state in which the Indian tribe has a 
reservation on the date or the enactment of this subsection 
unless such Indian lands are contiguous to such a reservation 
on that Indian tribe in that state.
    The bottom line is how would this legislation impact a 
state like mine where there is litigation currently ongoing? I 
throw out that question to any of the panelists. If you can't 
answer that question, I am not expecting you to. I was a state 
legislator and so that is how I became familiar with this 
issue. This is a complex and arcane area of the law for many, 
and so that is question I have. Maybe, Mr. Worthley, if you 
have any thoughts on this.
    Mr. Worthley. If the litigation is to regain fee title to 
the property, I think that is a separate issue from whether or 
not the land would be in trust.
    In other words, they can hold title to the property but 
that doesn't necessarily make it trust land. The issue is once 
it is in trust then the sovereignty takes place, which would 
give them the power and authority then to extend their gaming 
abilities or whatever else they want to do with that property.
    So I think it is a very good question, but it needs further 
definition. Are they looking to put this land into trust or are 
they------
    Mr. Dent. Yes.
    Mr. Worthley.--looking to just gain title to the property?
    Mr. Dent. Trust.
    Mr. Worthley. In which case that is why we would support 
the legislation because if it is going to be going into trust, 
then you are looking at extending the sovereignty of this 
nation into potentially a new area with impacts. And so how do 
we negotiate with those impacts? That is why it is so important 
for us to be able to have the ability to do that. Otherwise 
they could just step in there and circumvent all the local 
rules as far as transportation, air quality, all the types of 
mitigation that we would look to try to gain from tribes as a 
result of the impacts that will come off the reservation or 
offsite.
    Mr. Dent. So you believe the language in the legislation 
that would protect the community like mine from a tribe out of 
state, trying to put land in trust for the purpose of 
establishing a casino that may currently be involved in some 
kind of litigation?
    Mr. Worthley. As I understand the current language of the 
bill, a condition to the land being put into trust would be 
they would have to meet with the local government and enter 
into a binding enforceable agreement to deal with offsite 
impacts.
    Mr. Dent. The local government or the state government?
    Mr. Worthley. The bill says local government. I think they 
already have the power through the state government.
    The Chairman. I can answer it. As the bill is written right 
now, it would preclude them from coming into your state as you 
describe. In particular, in the provision that Mr. Worthley is 
discussing, when it comes to local impacts and mitigation, they 
would have to negotiate with the local government to mitigate 
their impact just as any other development would.
    Mr. Dent. OK. Thank you.
    My second question is if the same tribe in my case, the 
Delawares, and again they are federally recognized, but they 
don't have a reservation in Oklahoma even though that is where 
they happen to be residing, would that change the outcome in 
the same situation? The Delawares do not have reservations so 
to speak in Oklahoma. They are trying to establish this land 
claim or putting this land in trust in Pennsylvania. How would 
that be impacted by this legislation?
    The Chairman. If the gentleman would yield, it would not 
change it. They would not have the ability to do that under the 
way the legislation is currently drafted.
    Mr. Dent. OK. And then the final question, there is an 
offshoot of the Delawares that is not federally recognized. 
Would they be able to make a similar land claim under this 
bill? They are not federally recognized but again with a 
presence in my state.
    The Chairman. They would have to go through the recognition 
process.
    Mr. Dent. They would? OK, thank you very much for your 
courtesy, Mr. Chairman. Thank you.
    The Chairman. Mr. Kildee.
    Mr. Kildee. Thank you again, Mr. Chairman.
    Representative Sheen, we have had a good discussion here, 
and your personal integrity and your ethical conduct are well 
known back in Michigan, so that is not a question here. I know 
you feel very sincerely on this, and sincere people can have 
differences.
    But you did point out that casinos are not mentioned in 
this sovereignty clause in the Constitution, and that is true, 
but neither are police, tribal police departments or fire 
departments or schools or medical facilities. I mean, the 
Constitution gives a broad general outline of government. So 
none of these things are mentioned. Yet we know we have tribal 
police department, tribal fire departments in many tribes. We 
have schools, not just BIA schools but schools run by the 
sovereign tribe. We have medical facilities. These are all 
prerogatives of sovereignty. They flow from sovereignty. They 
are not mentioned.
    The Constitution is a very short document. I never leave 
home without it. I can carry it in my inside pocket here. So it 
is a very short document. But these are all prerogatives of 
sovereignty, so certainly casinos are not mentioned but neither 
are the other prerogatives of government mentioned there.
    But I do appreciate you taking your time to come down here 
and your efforts and hope to see you back in Michigan. Thank 
you very much. Thank you, Mr. Chairman.
    The Chairman. I want to thank the witnesses for their 
testimony and for their questions. The members of the Committee 
may have some additional questions for the witnesses, and we 
will ask that you respond to those in writing so that they can 
be included as part of the official hearing record.
    Again, I want to thank both of our panels of witnesses. 
Obviously this is an issue that is complex, it is difficult, 
and the Committee will continue to work on this in an effort to 
get it right, so I do appreciate your input into the 
legislation.
    If there is no further business before the Committee, then 
the Committee stands adjourned.
    [Whereupon, at 1:27 p.m., the Committee was adjourned.]

    [Additional information submitted for the record follows:]

    [A letter submitted for the record by Connie Conway, CSAC 
President, California State Association of Counties, follows:]

[GRAPHIC] [TIFF OMITTED] T7014.003


    [A statement submitted for the record by The Cowlitz Indian 
Tribe of Washington follows:]

    Statement submitted for the record by The Cowlitz Indian Tribe 
                             of Washington

    Mr. Chairman, Vice Chairman, and members of the Committee, the 
Cowlitz Indian Tribe of Washington (``Cowlitz Tribe'') respectfully 
submits the following statement for the Committee's consideration in 
conjunction with its recent and upcoming hearings concerning H.R. 4893, 
``a bill to amend IGRA Section 20 to restrict off-reservation gaming.''
Introduction
    When Congress enacted the Indian Gaming Regulatory Act (IGRA) in 
1988, it recognized the important role gaming played in Indian 
communities. Likening gaming on reservations to state-supported 
lotteries, the Senate Select Committee on Indian Affairs acknowledged 
that ``the income [from gaming operations] often means the difference 
between an adequate [tribal] governmental program and a skeletal 
program that is totally dependent on Federal funding'' (P.L. 100-497, 
1988 U.S.C.C.A.N. at 3072). The truth of this simple assertion has not 
changed in the nearly two decades since IGRA was enacted. Many tribes 
have been able to use gaming proceeds to fund better schools, improved 
healthcare, various social programs, and employment for tribal members. 
As a result, gaming proceeds have provided tribes with a means to 
achieve financial independence and exercise true self-government.
    Tribes like ours, stripped of federal recognition and a land base 
for many years (in our case 150 years before we were restored to 
recognition in 2002), have been unable to participate in federal 
programs tied to a reservation land base and have been unable to engage 
in any meaningful economic development. As a result, our tribes have 
the most limited economic resources and are in the greatest need of 
non-federal economic development. Our tribes are the very tribes 
Congress was trying to assist in 1988 when it included the initial 
reservation and restored lands exceptions in Section 20.
    We are concerned that H.R. 4893 as currently drafted effectively 
will prevent landless tribes from being able to participate in the one 
economic development activity that has improved the lives and 
livelihoods of so many other tribes and their members. For this reason, 
as described in more detail below, the Cowlitz Tribe strongly urges the 
Committee not to adopt H.R. 4893 as currently written.
Summary of Existing IGRA Provisions/Underlying Intent
    In 1988, Congress enacted IGRA to protect and regulate Indian 
gaming as an appropriate exercise of tribal sovereignty. However, with 
certain exceptions, Congress intended to limit Indian gaming to Indian 
lands that existed on the date of enactment (October 17, 1988). Hence, 
Section 20 of IGRA contains a general prohibition against gaming on 
lands acquired in trust after October 17, 1988.
    The problem was and still is that not all tribes held tribal lands 
in 1988, nor in fact did they all even benefit from federal recognition 
in 1988. We believe that Congress very specifically intended to assist 
such disadvantaged tribes by providing that when they finally obtained 
recognition and land, their land would be treated as if it effectively 
had been in trust since before October 17, 1988. In other words, 
Congress included the initial reservation and restored lands exceptions 
in Section 20 so that eligible tribes could be placed on a more level 
playing field with the tribes that were lucky enough to have been 
recognized and to have had a land base on the date of IGRA's enactment. 
We believe that Congress knew that blocking newly recognized and 
restored tribes from access to the economic development opportunities 
made available by IGRA would be wildly unjust.
    Our understanding of the purpose and intent of IGRA's restored 
lands and initial reservation provisions is informed by the opinions of 
the federal courts that have considered this issue. In 2003, in a case 
involving a California tribe, the D.C. Circuit (in an opinion joined in 
by now Chief Justice Roberts) explained that the restored lands and 
initial reservation exceptions ``serve purposes of their own, ensuring 
that tribes lacking reservations when IGRA was enacted are not 
disadvantaged relative to more established ones.'' City of Roseville v. 
Norton, 348 F.3d 1020, 1030 (D.C. Cir. 2003). In 2002, in an opinion 
involving a Michigan tribe that was later affirmed by the Sixth 
Circuit, the District Court said nearly the same thing, saying that the 
term ``restoration may be read in numerous ways to place belatedly 
restored tribes in a comparable position to earlier recognized tribes 
while simultaneously limiting after-acquired property in some 
fashion.'' Grand Traverse Band of Ottawa and Chippewa Indians v. U.S. 
Attorney for the Western District of Michigan, 198 F. Supp. 2d, 920, 
935 (W.D. Mich. 2002), aff'd 369 F.3d 960 (6th Cir. 2004) (referring to 
the factual circumstances, location, and temporal connection 
requirements that courts have imposed for restored lands 
determinations). The restored lands provision ``compensates the Tribe 
not only for what it lost by the act of termination, but also for 
opportunities lost in the interim.'' City of Roseville, at 1029.
    From a public policy standpoint, the need for special assistance 
for newly acknowledged and restored tribes is clear. Newly recognized 
and restored tribes have had to function without a land base and/or 
without federal recognition for very long periods of time. Almost by 
definition, these tribes--tribes like the Cowlitz--have been more 
disadvantaged and have suffered greater hardships than those that have 
had trust lands and access to federal assistance for many years. 
Denying the Cowlitz and other newly recognized and restored landless 
tribes access to the one economic development opportunity that has 
allowed so many other tribes to find financial independence and self-
determination would work yet another grave injustice on these tribes at 
the hands of the federal government.

Legal and Policy Concerns with H.R. 4893
    While H.R. 4893 on its face appears simply to provide a new group 
of standards which must be met before newly recognized and restored 
landless tribes could acquire land in trust on which to game, we are 
concerned that as a practical matter the new standards are so onerous 
and impractical that no landless tribe will ever be able to meet them. 
We believe that, if left unmodified, enactment of H.R. 4893 will ensure 
that these tribes, which already are the poorest and most deprived of 
any in the United States, will never be allowed access to the same 
economic development opportunity afforded to tribes lucky enough to 
have a land base when IGRA was first enacted in 1988. With all due 
respect, rather than acknowledging the federal government's fiduciary 
responsibility to assist the most vulnerable Indian tribes in obtaining 
some modest land base from which these tribes can exercise their right 
to self-determination and self-government, H.R. 4893's main effect will 
be to ensure that state and local governments have the greatest 
possible leverage to exact percentages of revenue shares and to create 
monopolies for established Indian gaming facilities.
    Specifically, H.R. 4893 would impose the following new requirements 
on newly recognized and restored landless tribes, in addition to 
geographic, social, historical and temporal nexus requirements:
    <bullet>  the Secretary of the Interior must determine that the 
proposed gaming is not detrimental to the surrounding community and 
nearby Indian tribes, and
    <bullet>  the Governor and State legislature of the state where the 
gaming will be conducted must concur, and
    <bullet>  other Indian tribes within a 75 mile radius must concur, 
and
    <bullet>  the applicant tribe must:
      <all>  pay for a local ``advisory'' referendum, and
      <all>  enter into a memorandum of understanding with the county 
or parish where the land is located by which it agrees to make 
``impact'' payments to the county or parish.
    Such onerous requirements never have been and never will be imposed 
on tribes with reservations in existence in 1988. This disparity of 
treatment between newly recognized and existing tribes raises a number 
of significant legal and policy concerns.
    The requirement that the Secretary make a determination that the 
proposed gaming would not be detrimental to the surrounding community 
and nearby Indian tribes is fundamentally unfair to newly recognized 
and restored landless tribes like Cowlitz. These tribes have been 
without land and the benefits of federal recognition for significant 
periods of time, often as a result of government wrongdoing, so they 
are forced to carve out lands for themselves from existing 
jurisdictions. The non-Indian governments of those existing 
jurisdictions rarely support the loss of land from their tax rolls and 
or the loss of any regulatory authority. To prohibit the Secretary from 
acquiring trust land for a landless tribe absent a finding of ``no 
detriment'' to the surrounding community effectively gives local 
governments an absolute veto and so is almost tantamount to an outright 
ban on acquiring land for landless tribes. Therefore, rather than 
serving to level the playing field for tribes like Cowlitz, this 
provision would actually result in greater inequities for newly 
recognized and restored landless tribes attempting to acquire land for 
gaming.
    The requirement of gubernatorial and state legislature approval is 
particularly disturbing. Governors frequently run for office on anti-
gambling political platforms, and as a consequence, historically much 
more often than not have refused to concur in two-part determinations 
made by the Secretary under the existing Section 20 provision (even in 
states where both Indian and non-Indian gaming establishments already 
exist). Requiring landless restored and newly acknowledged tribes 
obtain gubernatorial and legislative concurrence gives governors and 
state legislatures unlimited veto power over landless tribes' efforts 
to acquire a parcel of federally protected trust land. Moreover, joint 
approval by the State legislative body and the governor will leave 
Indian tribes little choice but to engage in tribal lobbying of the 
state legislature, further driving up the cost of land acquisition for 
tribes that have no means of generating revenue and that already are 
struggling with the costs associated with buying land and funding the 
BIA's NEPA compliance. Perversely, this makes it even more likely that 
tribes will have to rely on developer funding.
    The requirement that tribes within 75 miles of the proposed gaming 
concur is equally unfair. Many tribes already engaged in gaming would 
not support a new gaming tribe within 75 miles--and for competitive 
reasons one cannot expect them to do so. This requirement provides 
competing tribes with veto authority, without regard to whether they 
have any ties to the area and regardless of the applicant tribe's ties 
to the area. For this reason, the bill does not fairly balance the 
needs and rights of landless tribes against those of established tribes 
with existing gaming operations. Instead, it serves as market 
protection for established tribes and is likely to create monopolies--a 
result entirely unjustified by the already existing huge disparities 
between rich and poor tribes.
    Requiring the county or parish with authority over contiguous lands 
to hold an advisory referendum funded by the applicant tribe also is 
not fair to either the local governments or applicant tribes. Whether a 
local referendum should be required before local elected officials act 
should be a matter left to local voters, not the federal government. 
This provision suggests that Congress does not trust local elected 
officials to make the decisions that they are elected to make. Even 
more disconcerting from the Cowlitz Tribe's standpoint, this provision 
suggests a lack of appreciation for the fact that non-gaming landless 
tribes attempting to acquire their first parcel of land in trust do not 
have the funds to pay for such a referendum. In fact, such a 
requirement just heightens the concern that ``reservation shopping'' 
may attract unscrupulous developers to unduly influence the process--
newly recognized and restored landless tribes forced to pay for such a 
referendum will again be forced to turn to investors for financial 
support.
    The requirement that the tribe and the county or parish must sign a 
memorandum of understanding within a year of the referendum is equally 
problematic. This mandates a relationship between the tribal applicant 
and a government entity that may not be responsible for providing any 
services to a facility. The county or parish with jurisdiction over the 
contiguous property may not even have jurisdiction over the parcel that 
is to be taken in trust, or over the services needed by the tribe. We 
do support, however, the Committee's efforts to provide some mechanism 
to break a stalemate should the tribe and the city reach an impasse in 
those negotiations. The Cowlitz Tribe, despite repeated good faith 
efforts to engage in meaningful negotiations with a local municipality, 
has been unable to secure an agreement from that municipality. Clearly, 
that municipality views its intransigence as a mechanism that can be 
used to protect local non-Indian card room operations.
    In sum, while each of these requirements raises concerns when 
examined separately, the Cowlitz Tribe's greatest concern is the 
cumulative effect and the burden the proposed requirements create for 
newly recognized and restored landless tribes. These requirements are 
so onerous that they will effectively prevent most or all such tribes 
from acquiring land in trust for gaming, even though these tribes are 
not engaging in ``off-reservation gaming'' or ``reservation shopping'' 
as those terms are commonly used. As described above, we are hard 
pressed to find a justification for imposing this kind of sanction on 
those tribes that are already the poorest and most disadvantaged in the 
country.
    For the above reasons, the Tribe does not support the proposed 
amendments to Section 20 of IGRA. If the Committee decides to amend 
Section 20 of IGRA, however, we respectfully request that the 
legislation include a provision that allows tribes already in the 
process to proceed under the current rules. Like the tribes that 
testified before the Committee, our Tribe has invested many years and 
significant resources to fully comply with the present law.
    After we were restored to federal recognition, we requested that 
Interior place our proposed site into trust and requested that the site 
be proclaimed our initial reservation. Our trust application was 
submitted to Interior over four years ago and our request for an 
initial reservation proclamation was submitted over two years ago. In 
November 2004, the Bureau of Indian Affairs (BIA) notified the public 
that it would prepare an Environmental Impact Statement (EIS). The BIA 
selected a contractor to prepare the EIS and a draft EIS was recently 
provided to the public for review and comment. The Tribe is required to 
pay all expenses of the BIA's contractor--expenses that have been 
significant to date, and that will exceed $1,000,000 before we have 
completed the process. In addition, last year the National Indian 
Gaming Commission (NIGC) determined that our proposed site qualifies as 
restored lands under IGRA if the Department of the Interior takes the 
site into trust. Because we are so far along in the existing process, 
changing the rules at this late date would impose a significant 
hardship on our Tribe. We respectfully request that this Committee, at 
a minimum, include a provision to allow the NIGC's eligibility 
determination and our pending requests to Interior to be judged under 
the existing rules.

Conclusion
    Chairman Pombo, the Cowlitz Tribe fervently requests that you 
remember that newly recognized and restored landless tribes like 
Cowlitz are poor tribes in desperate need of the United States' active 
assistance. We face daunting obstacles to self-governance and self-
sufficiency precisely because we have no trust land. Congress must 
continue to insist that there be a fair and equitable mechanism to put 
newly recognized and newly restored tribes on a level playing field 
with tribes that were lucky enough to have had a reservation on October 
17, 1988. This bill does not accomplish that objective, and will, in 
fact, have severe consequences for the very tribes who most need your 
help. And while we appreciate that there have been some abuses of the 
existing processes in connection with off-reservation gaming, we would 
ask that you tailor any legislative response to those concerns to take 
into account the real hardships suffered by newly recognized and 
restored landless tribes, and give those deserving tribes the same 
opportunity to realize self-determination and economic independence 
that established tribes had when IGRA was originally enacted.
                                 ______
                                 
    [A statement submitted for the record by the Legislature of 
the Ho-Chunk Nation, follows:

               Statement submitted for the record by the 
                   Legislature of the Ho-Chunk Nation

    Thank you for the opportunity to submit written testimony for the 
record on behalf of the Ho-Chunk Nation on the subject of off-
reservation gaming, and House Resolution 4893, which seeks to restrict 
off-reservation gaming.
    Fundamentally, the Ho-Chunk Nation supports the concept of ``off-
reservation'' gaming, including gaming in more than one state. The 
Nation recognizes the importance of regulating off-reservation gaming 
and is therefore sympathetic to many of the purposes of this 
legislation. The Ho-Chunk Nation believes that restrictions on off-
reservation gaming should be based on the concept that tribal gaming 
should only be conducted in areas to which an Indian tribe has a 
specific historic connection, with a stipulation that tribes should not 
be permitted to interfere with the established gaming markets of other 
tribes without their express consent.
    The Ho-Chunk Nation is concerned that, as introduced, H.R. 4893 may 
undermine already existing government-to-government agreements 
regarding gaming authorities. The Ho-Chunk Nation and the State of 
Wisconsin negotiated in good faith a compact in 1991 that establishes 
parameters for Ho-Chunk gaming operations in Wisconsin. H.R. 4893 would 
affect our ability to fulfill the plans and intent of that compact--
imposing significant financial hardship on the Nation for costs already 
assumed under the compact and disrupting carefully balanced Nation and 
state interests. This compact complies with current Indian Gaming 
Regulatory (IGRA) rules and regulations. The Ho-Chunk Nation believes 
that existing compacts between tribes and states that are consistent 
with IGRA should remain as they are. New legislation should respect any 
existing compacts between tribes and states, allowing them to remain in 
place, unaffected by new restrictions.
    The Ho-Chunk Nation is further concerned that H.R. 4893 seeks to 
limit Indian gaming facilities to one state per tribe. This concept is 
problematic, as aboriginal territories do not fall along state lines. 
For the Ho-Chunk, our historic territory includes lands across the 
Midwest including large areas of Wisconsin, Illinois, Iowa, and 
Minnesota. In addition to cultural and historic ties, we have 
maintained tribal representation in each of those states, including 
formal government and social offices, as well as significant 
populations. H.R. 4893 limits our ability to seek lands in welcoming 
communities in states other than Wisconsin for economic development.
    On behalf of the Ho-Chunk Nation, thank you for the opportunity to 
express our views and concerns regarding H.R. 4893. We hope that this 
will serve as a springboard for increasing communication on these 
important issues. The Ho-Chunk recognize the importance of this 
legislation for restricting off-reservation gaming, however we hope to 
work with the Committee to ensure that these restrictions are fair and 
respectful of tribal sovereignty.
                                 ______
                                 
    [The response to questions submitted for the record by the 
Scotts Valley Band of Pomo Indians follows:]

  Response to questions submitted for the record by the Scotts Valley 
                          Band of Pomo Indians

    Thank you very much for allowing the Scotts Valley Band of Pomo 
Indians (the ``Tribe'') to testify before the House Natural Resources 
Committee on H.R. 4893 on April 5, 2006.
    During the Committee's questions to our panel, there were a number 
of questions raised that Scotts Valley wishes to provide the Committee 
with additional information.

1.  Congressman Kildee asked the Gun Lake Band to explain to the 
        Committee the Tribe's present economic situation?
    As you know, the IGRA was enacted primarily to enable tribes to 
conduct gaming on Indian Lands of the tribe to ``promote tribal 
economic development, tribal self-sufficiency, and strong tribal 
government.''
    The Scotts Valley Band of Pomo Indian Tribe is truly landless. The 
Tribe lacks the trust land base needed to support its infrastructure 
and the economic development programs necessary for the promotion of 
tribal economic self-sufficiency and a strong Tribal Government capable 
of providing badly needed governmental services to tribal members. 
Currently, sixty-three percent (63%) of all adult tribal members are 
classified as unemployed, and only thirty-seven (37%) of all adult 
tribal members are employed full-time. Overall, 95.5% of adult tribal 
members are classified as low income, and almost fifty percent (50%) of 
tribal members receive some form of public assistance.

[GRAPHIC] [TIFF OMITTED] T7014.004

2.  Congressman Gibbons (NV) asked whether Scotts Valley supports a 
        ``50 mile radius'' provision.
    During the Hearing, Congressman Gibbons (NV) asked whether the 
Tribe would support a ``50 mile radius provision.'' All of the 
panelists replied that their Tribes would support such a provision in 
any amendment to H.R. 4893 which provided the present NIGC/BIA 
regulatory process continue to apply to tribes already pursuing trust 
acquisitions under the IGRA. Our Tribe has spent considerable tribal 
resources, both in terms of time and money, pursuing the restoration of 
a trust land base under the NIGC/BIA regulatory process which has been 
in place since the IGRA was enacted almost 18 years ago (which is 4 
years earlier than our Tribe was even restored to Federal Recognition 
pursuant to an Order of a Federal District Court). Our Tribe has always 
played by the established rules, and it seems unfair and inequitable 
for Congress to change the rules on us now.
    While our Tribe certainly believes that a ``50 mile radius 
provision'' is fair, Congressman Gibbons did not elaborate on the 
details of such a provision. Would the limitation be within 50 miles 
of:
    <bullet>  a Tribe's documented historic territory;
    <bullet>  a Tribe's service population area;
    <bullet>  where a significant percentage of the Tribe's population 
resides; or
    <bullet>  a Tribe's illegally terminated former Rancheria (a 
limitation applicable only in California)?
    The Tribe supports a geographic limitation of within 50 miles of a 
tribe's: (i) documented historic territory, (ii) service population 
area, and/or (iii) the location of a significant percentage of the 
tribal population. As explained below, given the Federal policies of 
Termination and Relocation during the 1950s and 1960s, Scotts Valley 
strongly opposes any geographic limitation based solely upon the 
location of a Tribe's former Rancheria which the United States 
illegally terminated. How can the Committee even consider enacting 
legislation which is based upon illegal conduct of the United States?
    In addition to a Tribe's (i) documented historic territory, (ii) 
service population area, and (iii) the location of a significant 
percentage of the tribal population, Scotts Valley would support 
geographic limitations based on additional standards, provided that 
such standards acknowledge and reflect the results of Federal Indian 
policy over last several decades. During the 1950s and 1960s, the dual 
Federal policies of Termination and Relocation resulted in a complete 
dismantling of many tribal communities. This is especially true in 
California, and the Scotts Valley Band of Pomo Indians is a perfect 
example of how the Federal policies of Termination and Relocation 
nearly drove many California tribes to extinction.
    The California Rancheria Termination Act of 1958 provided for the 
``voluntary'' termination of 41 California Rancherias, including Scotts 
Valley. As a condition to termination, the United States was required 
to bring water and waste management systems of those Rancherias to 
habitable standards. In most case, and certainly in the case of Scotts 
Valley, this was not done.
    When the Tribe was finally terminated in 1965 in violation of the 
California Rancheria Termination Act, approximately fifty (50) tribal 
members continued to reside on the Rancheria. The BIA's failure to 
upgrade the Rancheria's water and sewage systems rendered the Rancheria 
uninhabitable, thereby creating an incentive for tribal members to 
leave the Rancheria. Additionally, the educational and employment 
programs the BIA instituted pursuant to Section 9 of the Rancheria Act 
focused on placement of tribal members in programs and jobs in the San 
Francisco Bay Area, further expediting the whole scale abandonment of 
the Rancheria and relocation of the Tribe to the Bay Area. The 
uninhabitable conditions on the Rancheria, coupled with the BIA's 
relocation policies, resulted in the vast majority of tribal members 
abandoning the Rancheria in favor of the urban centers of the San 
Francisco Bay. By 1972, just five (5) years after termination, only 
three (3) tribal members of the 56 tribal members listed on the 
Distribution List the BIA prepared under the Termination Act, continued 
residing on the Rancheria.
    Today, twenty-nine (29) tribal members, or slightly over fifteen 
percent (15%) of the tribal population reside within Contra Costa, and 
ninety-four (94) tribal members, or almost fifty percent (50%) of the 
Tribe, reside within a fifty (50) mile radius of the Tribe's proposed 
restored trust land base. In 2002, the BIA designated Contra Costa 
County and neighboring Sonoma County as the Tribe's service population 
area, recognizing the very significant tribal population residing in 
the Bay Area counties.
    The Bay Area is also historic Pomo Territory. Ancestors of current 
tribal members have used and periodically resided in territory that 
includes the northern and eastern shores of the San Francisco Bay, 
including the coastal lands of Contra Costa County where the proposed 
restored trust land base is located. Historically, several Pomo 
villages existed on the southern Marin Peninsula close to the coastal 
lands of the Marin Peninsula, directly across the Bay from the proposed 
restored trust land base. Pomo from these villages, including ancestors 
of present tribal members, along with members of other tribal groups, 
fished the waters of Bay and gathered material essential for 
subsistence on the coastal lands of the Bay.
    The official records of the BIA and the Indian Claims Commission 
recognized the shores of the Bay as historic Pomo territory. Pomo 
tribes which included ancestors of present tribal members signed a 
treaty with the United State, ceding what became known as Royce Area 
296, extending from the area immediately north of Clear Lake to the 
northeastern shore of the San Francisco Bay, to the United States. The 
southern boundary of the lands ceded to the United States (Royce Area 
296) is located just five (5) miles from the Tribe's proposed trust 
land base. The ICC ``adopted Royce as the official legal source for 
recognized title,'' clearly establishing the shores of the Bay as 
traditional Pomo territory. <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ The claims assert by the signatory tribes to the eighteen (18) 
treaties submitted for Senate confirmation in 1852 were combined into a 
single case before the ICC. Clyde F. Thompson et. al (Indians of 
California) v. United States, Ind. Cl. Comm. Docket Nos. 31 and 37. In 
this case, the ICC relied upon the Royce Areas depicted in Royce 
California Map 1 for determining the acreage set aside for all of the 
reservations provided for in the eighteen (18) un-ratified treaties. 
McClurken, Ethnohistorical Report at 35. The Royce Areas included Royce 
Areas 295, 296 and 297.
---------------------------------------------------------------------------
    The case of Scotts Valley is representative of the historic and 
modern day reality for many tribes. Indians are proud people, and any 
geographic limitation incorporated into H.R. 4893 must recognize the 
long history of our Nation's Indian tribes. Many tribes, such as Scotts 
Valley, somehow avoided extinction under the Federal Policies of 
Termination and Relocation, and any geographic limitations incorporated 
into H.R. 4893 must also recognize the modern day situation of many 
tribes resulting from those Federal Policies.
    Again, I thank the Committee for allowing the Scotts Valley Band of 
Pomo Indians to testify before the Committee on April 5th, and to 
submit this Supplemental testimony addressing some of the issues raised 
during the hearing.

                                 <all>

</pre></body></html>
